<html>
<title> - HEARING TO REVIEW ACCESS TO HEALTHY FOODS FOR BENEFICIARIES OF FEDERAL NUTRITION PROGRAMS AND EXPLORE INNOVATIVE METHODS TO IMPROVE AVAILABILITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 HEARING TO REVIEW ACCESS TO HEALTHY FOODS FOR BENEFICIARIES OF FEDERAL
                     NUTRITION PROGRAMS AND EXPLORE
                     INNOVATIVE METHODS TO IMPROVE
                              AVAILABILITY

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
                   OVERSIGHT, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

                           Serial No. 111-46


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
56-068                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           DAVID P. ROE, Tennessee
STEVE KAGEN, Wisconsin               BLAINE LUETKEMEYER, Missouri
KURT SCHRADER, Oregon                GLENN THOMPSON, Pennsylvania
DEBORAH L. HALVORSON, Illinois       BILL CASSIDY, Louisiana
KATHLEEN A. DAHLKEMPER,              CYNTHIA M. LUMMIS, Wyoming
Pennsylvania                         ------
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho
------

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska, 
STEVE KAGEN, Wisconsin               Ranking Minority Member
KURT SCHRADER, Oregon                STEVE KING, Iowa
KATHLEEN A. DAHLKEMPER,              JEAN SCHMIDT, Ohio
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
TRAVIS W. CHILDERS, Mississippi

               Lisa Shelton, Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Dahlkemper, Hon. Kathleen A., a Representative in Congress from 
  Pennsylvania, opening statement................................    10
Fortenberry, Hon. Jeff, a Representative in Congress from 
  Nebraska, opening statement....................................     4
    Prepared statement...........................................     6
Kagen, Hon. Steve, a Representative in Congress from Wisconsin, 
  opening statement..............................................     7
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................    11
Rush, Hon. Bobby L., a Representative in Congress from Illinois..    10
Schmidt, Hon. Jean, a Representative in Congress from Ohio, 
  opening statement..............................................     8
Schrader, Hon. Kurt, a Representative in Congress from Oregon, 
  opening statement..............................................     9

                               Witnesses

Concannon, Hon. Kevin W., Under Secretary for Food, Nutrition, 
  and Consumer Services, U.S. Department of Agriculture, 
  Washington, D.C................................................    12
    Prepared statement...........................................    14
Ver Ploeg, Ph.D., Michele ``Shelly'', Economist, Economic 
  Research Service, U.S. Department of Agriculture, Washington, 
  D.C............................................................    18
    Prepared statement...........................................    19
Krieger, M.S., Eleanor ``Ellie'', Registered Dietitian and Host, 
  Healthy Appetite, Food Network, New York, NY...................    30
    Prepared statement...........................................    32
Rocco DiSpirito, Cookbook Author and Chef, New York, NY; 
  accompanied by Vicki B. Escarra, President and CEO, Feeding 
  America, Chicago, IL...........................................    39
    Prepared statement...........................................    46
    Prepared statement of Ms. Escarra............................    40
    Submitted report.............................................    83
Wattermann, Randall, Founding Chairman, Member, Board of 
  Directors, and Treasurer, Nebraska Food Cooperative, West 
  Point, NE......................................................    51
    Prepared statement...........................................    53
Brown, Jeffrey N., Founder, President, and CEO, Brown's Super 
  Stores, Inc., Westville, NJ....................................    56
    Prepared statement...........................................    58
    Submitted report.............................................    88
Endicott, Diana, President and Farm to Market Coordinator, Good 
  Natured Family Farms<SUP>TM</SUP>; Marketing Manager and Co-
  Owner, Rainbow Organic Farms, d.b.a. GNFF......................    61
    Prepared statement...........................................    63


 HEARING TO REVIEW ACCESS TO HEALTHY FOODS FOR BENEFICIARIES OF FEDERAL



                     NUTRITION PROGRAMS AND EXPLORE
                     INNOVATIVE METHODS TO IMPROVE



                              AVAILABILITY

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                  House of Representatives,
 Subcommittee on Department Operations, Oversight, 
                           Nutrition, and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300, Longworth House Office Building, Hon. Joe Baca 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Baca, Cuellar, Kagen, 
Schrader, Dahlkemper, Peterson (ex officio), Fortenberry, 
Schmidt, Lummis, and Lucas (ex officio).
    Staff present: Claiborne Crain, Keith Jones, John Konya, 
Robert L. Larew, James Ryder, Lisa Shelton, April Slayton, 
Rebekah Solem, John Goldberg, Tamara Hinton, Pam Miller, Mary 
Nowak, Jamie Mitchell, and Sangina Wright.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. The Subcommittee on Department Operations, 
Oversight, Nutrition, and Forestry will come to order to review 
the healthy food for beneficiaries of Federal nutrition 
programs and to explore innovative methods to improve 
availability. I would like to welcome each and every one of you 
to our Subcommittee meeting this morning.
    We will begin with opening statements, and I will begin 
with my opening statement and then call on the Ranking Member, 
Mr. Fortenberry, to make his statement and then ask any of the 
other Members if they would like to make an opening statement.
    Again, I would like to welcome the Committee Members that 
are here and those that are testifying. Good morning, thank you 
for being with the Subcommittee.
    I am really excited to continue our examination of how 
Federal nutrition policies can improve the health of our 
nation. Today we will discuss how access to wholesome, 
nutritious foods affects health, particularly among children 
and low-income populations. As we all know, the First Lady, 
Michelle Obama, has done a great job of bringing much-needed 
attention to childhood obesity problems in America. Her 
leadership and her dedication to improving the health of 
America's children sets a positive example for all of us.
    Over the past 4 years, the Subcommittee has built a record 
to link the importance of nutrition and health. In 2007, we had 
a hearing that demonstrated the importance of the food stamp 
program, now called SNAP, to the health and long-term success 
of children.
    Then in 2008, with the farm bill, we provided a record 
amount of funding for nutrition safety net programs like SNAP 
and food banks. We also made important changes to promote 
healthy eating. We funded pilot programs that will encourage 
the consumption of more fruits and vegetables by expanding the 
Fresh Fruits and Vegetables Snack Program to all 50 states. 
This morning I had the pleasure of meeting with Secretary 
Vilsack and addressed that issue as well; we need to continue 
to do further outreach in assuring that many of our schools do 
provide fresh fruits and vegetables.
    Further, this Subcommittee has heard testimony on the 
widespread economic costs of obesity in the United States. We 
have learned that obesity costs our nation more than $140 
billion per year in health expenditures.
    So, obesity affects the whole family, as well. Recently, I 
was watching The Dr. Oz Show on television, and he indicated in 
one of the programs that obesity is linked to breast cancer in 
20 percent of women.
    Earlier this year, we examined how the lost revenues due to 
poor participation in Federal nutrition programs affects our 
nation, with particular focus in my home State of California. 
Unfortunately, California has lost nearly $7 billion--and I 
state $7 billion--in economic activity every year due to poor 
SNAP participation. So we have to look at how we can get people 
to enroll in SNAP and put food on the table, especially at this 
bad economic time.
    The State of California has not done as well as some of the 
other states in assuring that they take advantage of revenue 
that would be coming back to the state. California has a $21 
billion deficit. And I look at $7 billion in lost revenues. 
Somehow we have to get that message to our Governor and the 
people in the State of California.
    This past summer we were gracefully hosted by Mr. 
Fortenberry of Nebraska. We had a chance to see firsthand some 
of the innovative ways in which businesses and communities are 
promoting healthful living while saving money and improving the 
process. And I want to thank Mr. Fortenberry for having that 
hearing in Lincoln, Nebraska.
    And today's hearing is a direct result of the hearing we 
had last year on obesity. In 2009, experts from the Centers for 
Disease Control and Prevention testified that the lack of 
access to healthy food significantly contributes to the obesity 
epidemic. Access to a variety of quality foods is an issue, and 
we acknowledged that in the farm bill with the inclusion of the 
Healthy Urban Food Enterprise Development Center. I am 
confident that this hearing will give us a better insight as to 
how to improve access, and I state, how to improve access to 
healthy food in communities across America. That is what we 
have to work on. How do we do that?
    Unfortunately, many Americans live in areas we call ``food 
deserts'' where they have limited or no access to nutritious 
food options. Even more Americans live in the so-called ``food 
swamps,'' areas that lack access to healthy food, but are 
filled with fast food restaurants on every corner and stores 
carrying unhealthy snacks. And I am just as guilty as anyone, 
because I just went to In-N-Out Burger and I enjoyed that 
hamburger. But we have them all over the place.
    How can we better educate underserved communities on the 
importance of healthy food? What can we do to make fruits and 
vegetables more accessible and affordable to impoverished 
Americans? And how can we best change the culture of our 
schools, homes, and even food industries so that we can 
influence behavior and attitude in a positive way?
    How can we ensure that the food we provide for our families 
lives up to the highest safety standards possible?
    These are some of the many questions that we hope will be 
discussed today. I look forward to hearing from Under Secretary 
Concannon on the USDA's efforts to promote healthy food access. 
In the farm bill, Congress asked the Department of Agriculture 
to report on access to nutritious foods. The report was 
completed last June and we are pleased to have the primary 
author of the report, Michelle Ver Ploeg on our first panel to 
discuss the findings this morning.
    In addition to our government witnesses, I am pleased to 
welcome our second panel of witnesses. They are an impressive 
group of professionals and business people who understand very 
well the nuts and bolts of expanding access and awareness of 
healthy food. They are also skilled communicators and role 
models. It is one thing to understand what needs to be done, 
but to actually put these ideas into practice requires great 
creativity and talent.
    Again, let me extend my personal thanks to all of our 
witnesses for being here and for the willingness to share their 
knowledge with us. We are a small Subcommittee with a very 
large interest in the health and welfare of the people in this 
country. And if we can be cost-effective in what we do and 
promote healthy lifestyles, that is important for us.
    [The prepared statement of Mr. Baca follows:]

Prepared Statement of Hon. Joe Baca, a Representative in Congress from 
                               California
    Good morning and thank you all for being here before this 
Subcommittee.
    I am excited to continue our examination of how good Federal 
nutrition policies can improve the health of our nation.
    Today, we will discuss how access to wholesome and nutritious foods 
affects health--particularly among children and low-income populations.
    As we all know--First Lady Michelle Obama has done a great job of 
bringing much needed attention to the childhood obesity problem in 
America.
    Her leadership and dedication to improving the health of America's 
children sets a positive example for all of us.
    Over the past 4 years, this Subcommittee has built a record that 
links the importance of nutrition and health.
    In 2007, we held a hearing that demonstrated the importance of food 
stamp program (now called SNAP) to the health and long term success of 
children.
    Then, in the 2008 Farm Bill, we provided record levels of funding 
for nutrition and safety net programs--like SNAP and food banks.
    We also made important changes that promote healthy eating.
    We funded pilot programs that encourage the consumption of more 
fruits and vegetables.
    And we expanded the Fresh Fruit and Vegetable Snack Program to all 
50 states.
    Since that time, this Subcommittee has heard testimony on the 
widespread economic costs of poor nutrition in the United States.
    We have learned that obesity costs our nation more than $140 
billion per year in health expenditures.
    And earlier this year, we examined how lost revenue due to poor 
participation in Federal nutrition programs affects our nation--with a 
particular focus on my home State of California.
    Unfortunately, California loses nearly $7 billion in economic 
activity every year due to poor SNAP participation.
    This past summer, we were graciously hosted by Mr. Fortenberry in 
Nebraska.
    We had a chance to see first-hand some of the innovative ways in 
which businesses and communities are promoting healthful living, while 
saving money and improving lives in the process.
    Today's hearing is a direct result of a hearing we held last year 
on obesity.
    Experts from the Centers for Disease Control and Prevention 
testified that a lack of access to healthy foods significantly 
contributes to the obesity epidemic.
    Access to a variety of quality food was an issue we acknowledged in 
the farm bill with inclusion of funding for the Healthy Urban Food 
Enterprise Development Center.
    I am confident this hearing will give us better insight in how to 
improve access to healthy foods in communities across America.
    Unfortunately--many Americans live in areas we call ``food 
deserts''--where they have limited or no access to nutritious food 
options.
    Even more Americans live in so-called ``food swamps''--areas that 
lack access to healthy foods, but are filled with fast food restaurants 
and corner stores carrying unhealthy snacks.
    How can we better educate underserved communities on the importance 
of healthy foods?
    What can we do to make fruits and vegetables more accessible and 
affordable to impoverished Americans?
    How can we best change the culture of our schools, homes, and even 
the food industry--so we can influence behaviors and attitudes in a 
positive way?
    How can we ensure the food we provide for our families is home-
grown, and lives up to the highest safety standards possible?
    These are some of the many questions we hope to discuss today.
    I look forward to hearing from Under Secretary Concannon on the 
USDA's efforts to promote healthy food access.
    In the farm bill, Congress asked the Department of Agriculture to 
report on access to nutritious foods.
    Their report was completed last June, and we are pleased to have 
the primary author of that report, Michele Ver Ploeg, on our first 
panel to discuss the findings.
    In addition to our government witnesses, I am pleased to welcome 
our second panel of expert witnesses.
    They are an impressive group of professionals and business people 
who understand very well the nuts and bolts of expanding access and 
awareness of healthy foods.
    They are also skilled communicators and role models.
    It is one thing to understand what needs to be done.
    But to actually put those ideas into practice requires great 
creativity and talent.
    Again, let me extend my personal thanks to all of our witnesses for 
being here, and for their willingness to share their knowledge with us.
    We are a small Subcommittee with a very large interest in the 
health and welfare of the people in this country.
    We are here to listen and to learn so we can make good policy 
choices.
    With that, I will turn it over to Ranking Member Fortenberry for 
his opening comments.

    The Chairman. With that, I would like to turn it over to 
our Ranking Member, Mr. Fortenberry, for his opening comments.

OPENING STATEMENT OF HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
                     CONGRESS FROM NEBRASKA

    Mr. Fortenberry. Thank you, Mr. Chairman. And thank you for 
holding this important hearing today to explore the important 
issue of access to healthy foods. I want to also thank you for 
the invitation to join you in California earlier this year. I 
thought it was a very productive hearing.
    And I cannot help but add that that burger that you had 
earlier, there is a one in five chance that it came from 
Nebraska. We produce 20 percent of the hamburgers and steaks in 
this country.
    But within the larger discussion, I would like to focus on 
a particular market area that has enjoyed rapid growth in 
recent years, one that I find both exciting as a policymaker 
and a food consumer, the emergence of local food systems. Local 
food markets take shape in various forms--the community farmers 
markets, food cooperatives, direct-to-consumers sales, the 
community-supported agriculture networks and farm-to-school 
programs. In a few minutes, we will hear more about an 
innovative online food initiative in my own home State of 
Nebraska. But whatever their form, local food markets reconnect 
farmers and families, urban and rural communities, and people 
to agriculture, linkages that in many ways have been sacrificed 
in place of a modern market system.
    Americans are increasingly interested in knowing about 
where their food comes from. This has created a large market 
opportunity for local agriculture producers and the growth of 
these local food systems and farmers markets have increased by 
almost seven percent in just the last few years. And the 
organics food market has had sales of nearly $23 billion last 
year.
    In my view, these market opportunities will only continue 
to grow, benefiting everyone in agriculture. Local food markets 
represent not only a growing market trend, they help meet 
multiple public policy objectives, as we will hear today. 
Buying and selling locally grown food creates economic 
opportunity by building new markets for ag producers, 
supporting healthy lifestyles by providing nutritious options 
and increasing good food access to consumers. And it also 
promotes good environmental stewardship.
    Regarding economic opportunity, the economic potential of 
local food systems for farmers and communities is very 
significant. Economic analysis has shown that if consumers 
shifted just one percent of their purchasing power to buy 
locally grown products, farmers would see a gain of five 
percent in their income. And buying directly from a farmer 
sends 90 percent of the food dollar back to the farm.
    Local economies also stand to gain significantly from local 
food systems. Right now, only about seven percent of local food 
dollars stay in the community. That number by comparison was 40 
percent a century ago. Food dollars that stay in the community 
are spent in the community. From the bakery to the butcher shop 
to the hardware store, Main Street businesses in our local 
economies are strengthened when food is raised and sold 
locally.
    Today, local food producers are not only farmers and 
livestock producers, they are also business people. Their 
agriculture entrepreneurship will help bring about rural 
revitalization. And local, state, and Federal policies should 
recognize, I believe, these efforts as a strategy for local 
economic recovery.
    Second, let me touch on the issue of health and wellness. 
Local foods provide a fresh, healthy food option for consumers. 
As the Chairman mentioned in August, we held a Subcommittee 
field hearing in my hometown of Lincoln, Nebraska. It was 
called, Hearing To Examine New and Innovative Ways To Improve 
Nutrition and Wellness Programs. Local businesses, health and 
nutrition experts, talked about the value of wellness 
initiatives. And one of the witnesses gave testimony about the 
nutritional impacts of local foods and provided her experience 
with the very popular, Good Fresh Local dining program at the 
University of Nebraska in Lincoln. Good nutrition, health and 
wellness practices deserve to be an important part of 
structural healthcare reform.
    Today we see an epidemic of chronic diseases across the 
country. And public health statistics and economic data show 
that 75 percent of all healthcare spending is related in some 
way to treating lifestyle-related chronic diseases. Seven out 
of every ten deaths in this country are caused by a chronic 
condition, largely lifestyle related. Perhaps better 
preventing, better managing, and, in some cases, even reversing 
these trends can occur through healthy lifestyle changes. And, 
of course, that is related significantly to nutrition.
    Incentivizing health and wellness practices with good 
nutrition as a central focus, I believe, should continue to be 
a top priority of good healthcare reform. Local and regional 
food systems need to be a working solution to the challenges of 
better health and increase access of good foods, as well, to 
at-risk populations.
    Third, let me touch briefly on the issue of environmental 
stewardship. Production of local foods promotes good 
environmental stewardship outcomes. The average produce in 
America travels 1,500 food miles before it is consumed. The 
American Farm Land Trust estimates that 1 million barrels of 
oil could be conserved each week if Americans ate just one meal 
consisting of locally grown foods.
    So with that, Mr. Chairman, I look forward to hearing more 
about this in the upcoming discussion. And thank you once again 
for holding this important hearing.
    [The prepared statement of Mr. Fortenberry follows:]

   Prepared Statement of Hon. Jeff Fortenberry, a Representative in 
                         Congress from Nebraska
    Mr. Chairman, thank you for the opportunity today to explore the 
important issue of access to healthy foods. Within this larger 
discussion, I would like to focus on a particular market area that has 
enjoyed rapid growth in recent years--one I find exciting both as a 
policymaker and a food consumer: the emergence of local foods systems.
    Local foods markets take shape in various forms--the community 
farmers market, food cooperatives, direct-to-consumer sales, community 
supported agriculture networks, and farm to school programs. In a few 
minutes we will hear more about an innovative online local foods 
initiative in my home State of Nebraska.
    Whatever their form, local foods markets reconnect farmers and 
families, urban and rural communities, and people and agriculture--
linkages that in many ways have been sacrificed in place of a modern 
market system. Americans are increasingly interested in where their 
food comes from and how it is raised. This has created a large market 
opportunity for local agricultural producers. The growth of local foods 
systems and farmers' markets have increased in number by almost seven 
percent since 2006, and the organic foods market had sales of nearly 
$23 billion last year. In my view these market opportunities will only 
continue to grow.
    Local foods markets represent not only a growing market trend; they 
help meet multiple public policy objectives. Buying and selling locally 
grown foods creates economic opportunity by building new markets for ag 
producers, supports healthful lifestyles by providing nutritious food 
options and increasing access of good foods to consumers, and promotes 
environmental stewardship.
Economic Opportunity
    First, the economic potential of local foods systems for farmers 
and communities is significant. Economic analysis has shown that if 
consumers shifted just one percent of their purchasing power to buy 
locally grown products, farmers would see a gain of five percent in 
their income. And buying directly from a farmer sends 90 percent of the 
food dollar back to the farm.
    Local economies also stand to gain significantly from local food 
systems. Right now, only about seven percent of local food dollars stay 
in the community. That number, by comparison, was 40 percent in 1910. 
Food dollars that stay in the community are spent in the community. 
From the bakery and butcher shop to the hardware store, Main Street 
businesses and our local economies are strengthened when food is raised 
and sold locally.
    Today, local foods producers are not only farmers and livestock 
producers, they are businesspeople. Their agricultural entrepreneurship 
will help bring about rural revitalization, and local, state, and 
Federal policies should recognize their efforts as a strategy for local 
economic recovery.
Health and Wellness
    Second, local foods provide a fresh, healthy food option for 
consumers. In August, Chairman Baca and I held a Subcommittee field 
hearing in my hometown of Lincoln. It was called ``Hearing To Examine 
New and Innovative Ways To Improve Nutrition and Wellness Programs.'' 
Local business, health, and nutrition experts talked about the value of 
wellness initiatives. One of the witnesses gave testimony about the 
nutritional impacts of local foods and provided her experience with the 
popular Good Fresh Local dining program at the University of Nebraska.
    Good nutrition, health, and wellness practices deserve to be an 
important part of structural healthcare reform. Today we see an 
epidemic of chronic diseases across the country. Public health 
statistics and economic data show that 75% of all healthcare spending 
is related in some way to treating lifestyle-related chronic 
conditions. Seven out of every ten deaths in this country are caused by 
a chronic condition, and the top four killers are heart disease, 
diabetes, cancer and strokes. These are largely lifestyle-related 
diseases. They could be prevented, better managed, and in some cases, 
even reversed through healthy lifestyle changes.
    But, according to recent statistics, the average American is now 23 
pounds overweight. Obesity among young people has tripled since 1980. 
Obesity is a major risk factor that leads to the onset of these chronic 
conditions.
    Incentivizing health and wellness practices, with good nutrition as 
a central focus, should be a top healthcare priority. Another recent 
hearing of this Subcommittee examined Federal nutrition programs and 
their impacts on individual health and wellness and the challenge of 
growing obesity rates. We have work to do. Local and regional food 
systems need to be a working solution to the challenges of better 
health and increased access of good foods to at-risk populations.
Environmental Stewardship
    Third, the production of local foods promotes good environmental 
stewardship. The average produce in America travels 1,500 food miles 
before it is consumed. The American Farmland Trust estimates that 1 
million barrels of oil could be conserved each week if every American 
ate just one meal consisting of local foods weekly.
    For each of these reasons--economic, health and nutrition, and 
environmental--I support the development of regional and local foods 
systems. I believe, in addition to the benefits I have mentioned, that 
there are creative ways in which local foods entrepreneurs and local 
foods supporters can help meet the challenges of access to good foods 
in underserved areas, rural and urban. I look forward to hearing more 
about this in the upcoming discussion. Mr. Chairman, thank you once 
again for choosing to explore this important matter.

    The Chairman. Thank you, Mr. Fortenberry.
    At this time I will turn to the Members in the order that 
they came in.

  OPENING STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN 
                    CONGRESS FROM WISCONSIN

    Mr. Kagen. Thank you, Mr. Chairman, for holding this very 
important hearing. I don't have a formal speech to give, but 
just to remind everybody that in the most recent farm bill that 
we worked so hard on, we secured $30 million for an obesity 
study to educate our children on how important it is to be lean 
and think lean.
    I would remind everybody that, as a physician, 
environmental pollution begins at the lips. If you don't take 
it in, it won't get on. Isn't that right, Jeff?
    Mr. Fortenberry. Yes.
    Mr. Kagen. Every time we have this conversation with Jeff 
in the room, we kind of rib each other. He has beat me right 
now on weight loss.
    Aside from the $30 million, we also had programs in the 
farm bill that would enhance the opportunity for our local 
farmers to grow food locally and sell it locally and get it 
into our school system. I would hope that you would offer some 
comments today on some of those programs.
    In northeast Wisconsin, eight percent of the people are on 
a Food Nutrition program, food stamp, or SNAP program. And our 
children at school, 35 percent of all children attending public 
schools in northeast Wisconsin would not be eating but for 
these essential and lifesaving programs.
    Look how a generation has changed. When I went to school, 
we didn't have kitchens at school. We brought our lunch. We 
learned how to negotiate a baloney for a peanut butter and 
jelly. We got to know in our classrooms pretty--we didn't have 
burritos up in northeast Wisconsin, but we would be happy to 
sell them to you.
    But we really have gone through a very significant change 
in our culture where the food is not always prepared by the 
parent or parents at home. So we have to understand that, sad 
as it may be for many children, if they didn't have a meal at 
school and Breakfast or Lunch Program, and during the summer, 
they simply wouldn't have the nutrition they need to gain the 
energy to have that education.
    So, what we will find out is what we have already known; 
that our real opposition with regard to educating our 
population and our next generation about nutrition and the 
importance of being healthy and eating healthy, our real 
opposition is on Madison Avenue and in marketing. And I don't 
know that government can ever out-compete and win that 
marketing battle, but it doesn't mean we shouldn't be trying.
    I thank you for appearing here today. I look forward to 
your testimony. I yield back.
    The Chairman. Thank you very much.
    Next I would like to call on Jean Schmidt.

  OPENING STATEMENT OF HON. JEAN SCHMIDT, A REPRESENTATIVE IN 
                       CONGRESS FROM OHIO

    Mrs. Schmidt. Thank you, Mr. Chairman. And thank you for 
holding this very important hearing today. I would like to 
thank, first off, all the witnesses who are here today to 
discuss an issue that has become very dear to my heart, and 
that is nutrition. I look forward to this hearing and hearing 
from all of you. I believe this is an issue that is finally 
getting the recognition it so deserves.
    Obesity rates continue to rise at an alarming rate in the 
United States. Obesity is rapidly becoming the leading cause of 
preventable disease in America. We know that eating more fresh 
fruits and vegetables is a positive step towards a healthier 
lifestyle and reducing obesity. There are countless studies 
that show that diets rich in fresh fruits and vegetables lower 
the risk of heart disease, Type 2 diabetes, certain types of 
cancer, high blood pressure, and other diseases. Needless to 
say, there is a direct link between eating healthily and 
healthcare spending.
    In the markups of the 2008 Farm Bill, I made it clear that 
I favor looking at what we could do to promote healthier 
lifestyles. I offered multiple amendments to the measure that 
were aimed at incentivizing programs and participants in the 
programs to purchase healthier foods with their program 
dollars.
    And I would like to just have a little comment here. Unlike 
Congressman Kagen, I went to a school that did offer lunches. 
In fact, they didn't want you to pack lunches. They wanted you 
to eat their lunch. But it was a Catholic school. And at the 
time, we were on the cheese program, which was really butter 
and milk. So every day we got a butter sandwich that had about 
this much butter on it. Why? Because the Catholic schools got 
it for free. And the good nuns, not wanting to waste anything, 
wanted us to eat all that butter. To this day, I am not that 
much of a fan of a whole lot of butter. But needless to say, 
that was not a healthy lifestyle, and yet it was promoted 
because in an area where I grew up, that was a rather lower 
income area, having something for free was a very tempting 
filler for the school.
    And that kind of an attitude, I do believe, transcends to 
some of our folks that have modest incomes, go to the grocery 
store, and have to make choices based on dollars, not 
necessarily on nutrition and healthy lifestyles.
    So I look forward to this hearing. I look forward to its 
emphasis on promoting a healthy lifestyle and on what the 
implementation of the farm bill has produced. Thank you. I 
yield back.
    The Chairman. Thank you very much, Jean.
    Next, I would like to call on Kurt Schrader.

 OPENING STATEMENT OF HON. KURT SCHRADER, A REPRESENTATIVE IN 
                      CONGRESS FROM OREGON

    Mr. Schrader. Thank you, Mr. Chairman. Just a couple of 
comments. I had the opportunity during the break to visit some 
of my schools and hand out nutritious fruit and yogurt parfaits 
to some of the students trying to encourage good eating habits. 
And it was really fun and exciting. The sad comment is of 
course in this economy, more and more kids are on free and 
reduced lunch. Over 50 percent of my school districts are on 
free and reduced lunch programs. This is a very important issue 
for us.
    Second, at some point, if the Under Secretary wouldn't 
mind, I would like him to comment, if he knows. There is a 
program in the Pacific Northwest, based out of Portland, 
Oregon, put on by ECONorthwest, which is called a food hub. It 
is a nonprofit organization. What they are trying to do is put 
retailers and sellers in touch with one another through the 
Internet about opportunities to buy and sell healthy, 
nutritious, grown-on-the-farm produce. It is particularly 
helpful for small farmers that can't make up a big lot to send 
to a huge grocery store. But if the grocery store is a little 
short for one reason or another, a restaurant or a school, this 
would be an opportunity for local farmers to match their 
produce into the needs of the community.
    So it sounded like a really interesting--I think they have 
a membership thing. You join online for a nominal fee. But it 
sounded like a really exciting way of advancing what this 
Committee, this Congress, and this Administration is all about. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Kurt.
    Next I would like to call on Kathy Dahlkemper.

      OPENING STATEMENT OF HON. KATHLEEN A. DAHLKEMPER, A 
          REPRESENTATIVE IN CONGRESS FROM PENNSYLVANIA

    Mrs. Dahlkemper. Thank you, Mr. Chairman. And I appreciate 
the witnesses today. I look forward to your testimony.
    I was trained as a dietician. I believe I am the first 
dietician ever in Congress. When I was trained as a dietician 
back in the late 1970s and early 1980s, we didn't really talk 
about Type 2 diabetes in children. I was working diabetic camp 
for a number of years. I think it was about 1999, the first 
Type 2 diabetic child showed up at our diabetic camp. The next 
year there were four or five. And the number continued to 
increase. So I saw this trend happening. I think as I look back 
at the statistics, it was pretty close to what I saw in my 
little microcosm of diabetic care to what we saw across the 
country.
    So I have been dealing with health and wellness issues and 
trying to treat those for years. So being a part of this new 
Congress--I am a new Member here. I wasn't here for the farm 
bill last time. I am very much looking forward to today's 
hearing and to working on the farm bill, going forward, and 
seeing what we can do legislatively and policy-wise on these 
huge issues.
    We passed the healthcare reform bill not even a month ago. 
But if we don't take care of these health and wellness issues, 
particularly with our children and childhood obesity, we will 
never control the cost of healthcare in this country.
    So I thank you very much, the witnesses. I thank the 
Chairman for holding this hearing today. I look forward to your 
testimony.
    The Chairman. Thank you very much.
    I know that we have Representative Bobby Rush here today. 
We have the rules that are set in place in reference to Members 
and that only Members of the Committee can sit at the dais, 
Bobby. So I am going to have to ask you, if you can, to comply 
with the rules. Bobby, if you can, there is no reason why you 
can't take that mic. And I will let you make a comment if you 
want at this point.
    Mr. Rush. Okay. That sounds good.
    The Chairman. If there is no objection.

 STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN CONGRESS 
                         FROM ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman. I want to 
express to you and all the other very outstanding Members of 
this Committee, I am here because I have a deep-seated 
commitment to the subject at hand. And I have had a lot of 
involvement in it. And I don't mean to burst in in any way or 
to be disrespectful of the Committee or of Members of the 
Committee. I was just here to observe and to learn more about 
what is being done across the board.
    As you know, in my Congressional district in my state, we 
do have a number of ``food deserts,'' and I have been working 
on this particular matter for a number of years. In the farm 
bill, I worked very closely with the Chairman of the full 
Committee in regards to getting some legislation and some 
language in the farm bill that would codify food deserts and 
also make food deserts--provide some grant money for those who 
were interested in this particular issue at the community 
level.
    My activism in terms of my involvement in the 1960s I know 
most of you may not remember, but we were an--the organization 
I belonged to started a free breakfast for children program 
back in the early 1960s. This issue has been an issue that I am 
deeply concerned about. And I want to express my gratitude to 
you and Members of this Committee for holding this hearing.
    I just want to say last week I had an occasion to visit 
Philadelphia. And I was with one of your witnesses here, Mr. 
Brown, and I also went to the Reading Terminal. And I was 
absolutely amazed at what was going on. I am just amazed. I am 
excited about it. I have met others that have come to Chicago. 
We are going to roll out the red carpet for him if he ever 
decides to come there. But I just tell you I am elated, and I 
am going to be here for as long as I can because I share a 
subcommittee. So I might have to skedaddle out of here. But 
again, Mr. Chairman, I thank you so much for just this 
opportunity to say a few words.
    The Chairman. Thank you very much, Mr. Rush.
    I would ask all other Members of the Subcommittee to submit 
their opening statements for the record.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    Thank you, Chairman Baca for holding this hearing today. The 
problems of hunger and obesity are an ongoing concern for Members of 
this Committee, and under Chairman Baca's leadership, we have held 
several hearings that looked at the causes and effects of obesity.
    The 2008 Farm Bill included several provisions related to combating 
hunger and obesity, including expanded programs to provide fresh fruit 
and vegetables to schools, the establishment of the Healthy Urban Food 
Enterprise Development Center, and a USDA study on food deserts, which 
we will be hearing more about from Under Secretary Concannon and Dr. 
Ver Ploeg today.
    On the second panel, we have witnesses who are doing innovative 
things to address this challenge. Ms. Krieger and Mr. DiSpirito are 
both very prominent culinary experts who care deeply about fighting the 
obesity epidemic and are lending their star power to organizations that 
are increasing access to healthy food. Mr. Wattermann's Nebraska Food 
Cooperative, Mr. Brown's grocery stores and Ms. Endicott's farm are 
proving that developing markets to expand the availability of locally 
grown food can be profitable and socially responsible at the same time.
    First Lady Michelle Obama has taken a proactive role in 
establishing a national dialogue about what we must do to fight 
childhood obesity. She highlighted the need for everyone to bear 
responsibility for the health of our nation's children--individuals, 
organizations, communities and government must all work together on 
this important issue.
    Ensuring that all Americans have access to an affordable, safe and 
abundant supply of healthy food is a goal we all share. On the 
Agriculture Committee, we are committed to doing our part, and I hope 
that today we'll hear from some of the organizations that are doing 
innovative work in communities to expand the availability of healthy 
foods, particularly in low income areas and food deserts.
    I thank our witnesses for joining us today to talk about this 
important issue, and I look forward to their testimony.

    The Chairman. With that, then, we will continue with the 
witnesses. I will just make an additional statement. We have 
talked about nutrition and health and the impact it has on our 
educational system. As we address Child Nutrition Act 
reauthorization this year, we are leaving behind a lot of our 
children, because without an appropriate diet, without 
appropriate food, it becomes very difficult for a lot of our 
kids to take the exams in schools. And that is why when they 
participate in these kind of lunch programs, it makes them 
healthier and better, and they are able to function and think 
better by eating healthy foods.
    With that, I would like to again welcome the members who 
are testifying. I would like to first start off with Mr. 
Concannon. Please begin. You have 5 minutes, each of you. If 
you happen to see me lift the gavel, that means that we are 
nearing that time. And I probably will allow a few extra 
minutes as well. And then right after Mr. Concannon, then we 
will begin with Michelle Ver Ploeg who is an Economist at the 
U.S. Department of Agriculture. So, Mr. Concannon, you may 
begin.

          STATEMENT OF HON. KEVIN W. CONCANNON, UNDER
          SECRETARY FOR FOOD, NUTRITION, AND CONSUMER
           SERVICES, U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Mr. Concannon. Good morning. And thank you, Mr. Chairman, 
Ranking Member Fortenberry, and Members of the Committee for 
this opportunity to discuss access to healthful foods in the 
nutrition assistance programs.
    Improving access to foods, specifically healthy and 
nutritious food, is central to the Department of Agriculture's 
nutrition efforts. In each of our 15 nutrition assistance 
programs, it is important that we not only enroll as many 
eligible people as possible, but also ensure that retailers are 
available for participants to purchase healthy foods with SNAP 
benefits, formerly the food stamp program and WIC vouchers. Our 
most recent data show that most American households, nearly 89 
percent are food secure; but that leaves 11.1 percent, or 13 
million households, who were food insecure sometime during 
2008. Of those, 4.7 million experienced very low food security 
at some time during the year. And when we say very low food 
security, make no mistake about what we mean. These are 
households that cut the size of meals, skip meals, or go whole 
days without food. Most would agree these families face hunger.
    At the same time, we face an obesity epidemic among not 
only adults, but our children as well. As difficult as it is to 
believe, obesity and hunger do coexist; 68 percent of adult 
Americans are considered obese or overweight, while 16.9 
percent of children are obese and 31.7 percent are overweight. 
These data leave no doubt that the need for improved access to 
healthy foods is evident every day across our country, and they 
underscore the need for sound nutrition guidance to nutrition 
assistance program participants and to the American public at 
large.
    As of September 30, 2009, there were 193,754 SNAP 
authorized retailers, an increase of 27 percent over the past 6 
years. And those numbers continue to rise. In the near future 
we expect to release a new tool that will help clients find the 
SNAP authorized stores near their home or workplace, providing 
them with additional information to help access healthy food 
options.
    Increasing the number of farmers markets authorized to 
accept SNAP benefits is another way to improve access to 
healthful foods. Farmers market participation in SNAP is a win-
win situation for local farmers who expand their customer base 
and for participants who gain access to healthy produce. To 
weigh in on this effort, the President's budget for 2011 
includes a proposed $4 million to provide all farmers markets 
with SNAP EBT equipment. The 2008 Farm Bill authorized $20 
million to determine if incentives provided to SNAP recipients 
at point of sale increased the consumption of fruits, 
vegetables, or other healthful foods. At USDA we have called 
this the Healthy Incentive Pilots or HIP. And the USDA has 
designed a study to provide the rigor necessary to attribute 
any changes in fruit and vegetable consumption to the 
incentive.
    The competitive solicitation for both the project evaluator 
and the project sites were recently released. Any effort to 
increase access to healthy foods must address program 
participation. Currently, 31 states use broad-based categorical 
eligibility to raise the gross income limits and raise or 
eliminate the asset test in SNAP. Through direct certification, 
children are eligible for free meals at schools because the 
households are approved for SNAP benefits and they are 
identified. Such efforts reduce the barriers to access, 
allowing more people in need of assistance to benefit from 
these programs.
    The National School Lunch and School Breakfast Program 
reach children in virtually every school district in the 
nation. These programs currently provide nutritious meals to 
more than 31 million children and more than 101,000 schools 
each day. Improving the food choices that children have and 
what they actually make at school is central to our efforts to 
improve their diets and address the obesity crisis.
    The reauthorization of the Child Nutrition Program presents 
us with a historic opportunity to combat child hunger and 
improve the health and nutrition of our children across the 
country.
    The President is proposing an investment of $10 billion in 
additional funding over 10 years. And we are sticking with the 
President. As I like to say, this is a very important 
opportunity.
    The WIC Program currently serves 9.1 million pregnant and 
postpartum women and their infants and children. And there is 
lots of evidence to point to the efficacy of that program, both 
in terms of providing important targeted foods but also the 
long-term health effects on both children and their moms.
    Finally, the President's 2011 budget provides $400 million 
to bring grocery stores and other healthy food retailers to 
food deserts, both urban and rural. This effort, known as the 
Healthy Food Financing Initiative, is a partnership between the 
Department of the Treasury, the Health and Human Services 
Department, and the Department of Agriculture. And it is 
designed to eliminate food deserts within the next 7 years. The 
Healthy Food Financing Initiative will promote a range of 
interventions that expand access to nutritious foods, including 
developing and equipping grocery stores and other small 
businesses and healthy food retailers selling food in 
communities that currently lack these options.
    In closing, the Obama Administration is committed to 
improving the Federal Nutrition Assistance Program by ensuring 
that those in need have access to program benefits, the 
knowledge to make wise food choices with those benefits, and 
accessible retailers carrying healthy food in their 
communities.
    I would be pleased to answer any questions you may have. 
And, again, thank you sincerely for the opportunity to speak on 
these issues here today.
    [The prepared statement of Mr. Concannon follows:]

  Prepared Statement of Hon. Kevin W. Concannon, Under Secretary for 
Food, Nutrition, and Consumer Services, U.S. Department of Agriculture, 
                            Washington, D.C.
    Good morning, and thank you, Mr. Chairman, Ranking Member 
Fortenberry, and Members of the Committee, for the opportunity to 
discuss access to healthful foods in the nutrition assistance programs.
    As you know, USDA oversees 15 nutrition assistance programs, from 
the Supplemental Nutrition Assistance Program (SNAP), in which benefits 
are provided through electronic benefit cards used by participants to 
purchase foods at authorized retail stores, to programs like the 
Commodity Supplemental Food Program and Fresh Fruit and Vegetable 
Program, in which food is provided directly to the participants.
    Improving access to food, specifically healthy and nutritious food, 
is central to the Department of Agriculture's food and nutrition 
efforts. In each of our nutrition assistance programs, it is important 
that we not only enroll as many eligible people as possible, but also 
provide information to make sure that our clients know how to make 
healthful, nutritious food choices and, in programs like SNAP, ensure 
that retailers are available for recipients to redeem benefits.
    Our most recent data shows that most American households--nearly 89 
percent--are food secure. But that leaves 11.1 percent, or 13 million 
households, who were food insecure at some time during 2008. Of those, 
4.7 million experienced very low food security at some time during the 
year. And when I say food insecure, make no mistake that I mean they 
are hungry.
    At the same time, we face an obesity epidemic among not only adults 
but our children as well. As unbelievable as it may seem, obesity and 
hunger do coexist. Sixty-eight percent of adult Americans are 
considered obese or overweight, while 16.9 percent of children are 
obese and 31.7 percent are overweight. Nearly ten percent of American 
health spending can be attributed to obesity. Clearly, these are 
critical public health issues, with significant consequences for our 
nation's future.
    These data leave no doubt that the need for improved access to 
healthy foods is evident every day across the country. At the same 
time, they underscore the need for sound nutrition guidance to 
nutrition assistance program participants and the general public. 
People must have the knowledge and the desire to make a behavior change 
toward healthier lifestyles.
    The reauthorization of the Child Nutrition Programs presents us 
with an historic opportunity to combat child hunger and improve the 
health and nutrition of children across the nation. The Obama 
Administration has proposed an investment of $10 billion in additional 
funding over 10 years to improve our Child Nutrition Programs. This 
proposed investment would significantly reduce the barriers that keep 
children from participating in school nutrition programs, improve the 
quality of school meals and the health of the school environment, and 
enhance program performance. This is a once in every 5 year opportunity 
to modernize the core Child Nutrition Programs: the National School 
Lunch Program (NSLP), School Breakfast Program (SBP), the Summer Food 
Service Program (SFSP), the Child and Adult Care Food Program (CACFP), 
the Special Milk Program (SMP), and WIC.
    We can improve access to meals and explore new means of empowering 
communities to reduce food insecurity and hunger, especially among our 
children. We can make every school a place where nutrition and learning 
shape the food offered by improving the quality of meals, eliminating 
foods that do not support healthful choices, and expanding physical 
activity opportunities. We can help pregnant women, new mothers, and 
the youngest children receive the support they need for an optimally 
healthy start, and support working families using child care, by 
providing nutritious food for their children, to help them deal with 
the challenges of today's economy. This is the power of these 
programs--and the opportunity we share to harness that power for a 
better future.
    The National School Lunch and School Breakfast Programs provide 
nutritious meals to 31 million school children in over 101,000 schools 
throughout the nation. Improving the food choices that children have, 
and that they actually make, at school are central to our efforts to 
improve their diets and address the obesity crisis. Work is already 
underway to improve the nutrition standards for the school meals 
programs, based on recommendations we received from an Institute of 
Medicine expert panel late last year that proposed more fruits, 
vegetables, whole grains and low-fat dairy products in school menus. To 
complement this effort, we are working with the Agricultural Marketing 
Service to examine ways to improve Farm to School efforts across the 
county. Our team is learning from successful school districts to see 
how they have matched local production with the needs of the school 
meal programs. If we can increase farm income and at the same time 
educate school children that food indeed comes from the farm and the 
farmer, we will have accomplished two important objectives 
simultaneously.
    To help people make wise dietary choices, USDA's MyPyramid.gov 
provides dietary guidance and educational materials that help Americans 
improve their diet and become more physically active. MyPyramid helps 
Americans personalize their approach to choosing a healthier lifestyle 
that balances nutrition and exercise. It encourages them to improve 
their overall health significantly by making modest improvements to 
their diet and by incorporating regular physical activity into their 
daily lives. MyPyramid, which translates the recommendations of the 
Dietary Guidelines for Americans into accessible and useful information 
for the general public, continues to be a significant means of helping 
Americans take ``Steps to a Healthier You.''
    Nutrition education is also provided in many of the nutrition 
assistance programs. For example, the goal of SNAP nutrition education, 
or SNAP-Ed, is to improve the likelihood that persons eligible for SNAP 
benefits will make healthy food choices within a limited budget and 
choose physically active lifestyles consistent with the Dietary 
Guidelines for Americans and MyPyramid. In partnership with the 52 SNAP 
state agencies that provide SNAP-Ed, nearly 100 organizations such as 
Cooperative Extension Service outlets, nutrition networks, health 
departments, and food banks, provide nutrition education through 
hundreds of projects. A study is currently underway to identify models 
of effective SNAP-Ed nutrition education and their impacts on nutrition 
related behaviors. In addition, FNS provides free nutrition education 
resources including a recipe finder with over 600 easy, tasty, and low 
cost recipes, materials designed for Spanish speaking mothers, and 
materials designed for older adults.
    Participants in programs like SNAP need not only need the EBT cards 
to purchase healthy food and the knowledge to make healthy choices but 
they also need access to stores where healthy foods are plentiful. As 
of September 30, 2009, there were 193,754 firms authorized to 
participate in SNAP.
    Currently, to be eligible to participate in SNAP, stores must sell 
food for home preparation and consumption and meet one of the following 
criteria:

    (A) Offer for sale, on a continuous basis (any given day of 
        operation), at least three varieties of qualifying foods in 
        each of the following four staple food groups, with perishable 
        foods in at least two of the categories: meat, poultry or fish; 
        bread or cereal; vegetables or fruits; or dairy products.

    (B) More than 50 percent of the total dollar amount of all things 
        (food, nonfood, gas and services) sold in the store must be 
        from the sale of eligible staple foods.

    Over the past 6 years, the number of authorized firms has increased 
27 percent. Over 85 percent of all benefits are redeemed at 20 percent 
of authorized stores, such as supermarkets and superstores that offer a 
substantial variety of staple foods including fruits and vegetables. In 
the near future, we expect to release a new tool that will help clients 
find the SNAP authorized stores near their home or workplace, providing 
them with additional information to help access healthy food options.
    The Food, Conservation, and Energy Act of 2008, also known as the 
2008 Farm Bill, authorized $20 million for projects to evaluate health 
and nutrition promotion in SNAP to determine if incentives provided to 
SNAP recipients at the point-of-sale increase the consumption of 
fruits, vegetables, or other healthful foods. At USDA, we call this the 
Healthy Incentive Pilot project (HIP). The legislation requires that 
``[the] independent evaluation . . . use rigorous methodologies, 
particularly random assignment . . .'' USDA will implement a randomized 
control evaluation approach which will allow for comparison between the 
groups that receive the incentive and those that don't in order to 
determine the impacts of HIP. This research design provides the rigor 
necessary to attribute any changes in fruit and vegetable consumption 
to the incentive. The evaluation will also assess HIP's impacts on the 
state SNAP agency and its partners and describe the procedures involved 
in planning, implementing and operating the pilot. The competitive 
solicitations for both the project evaluator and the pilot sites were 
recently released.
    Increasing the number of farmers' market authorized to accept SNAP 
benefits is another way to improve access to healthful foods. It is a 
top priority at USDA. Farmers' market participation in SNAP is a win-
win situation for local farmers who expand their customer base and for 
participants who gain access to healthy produce. In Fiscal Year 2009, 
over 900 farmers and farmers' markets were authorized to accept SNAP 
benefits, an increase of 25 percent over the prior year. FNS has a goal 
to authorize an additional 200 farmers' markets each year. To aid in 
this effort, the President's Budget for 2011 includes a proposal for $4 
million to provide farmers markets with SNAP EBT equipment.
    Our sister agency, the Agricultural Marketing Service (AMS), offers 
the Farmers' Market Promotion Program which provides grants that 
encourage and support expansion of farmers markets. The authorizing 
statute requires at least ten percent of grant funds to be directed 
towards projects to support the use of EBT for Federal nutrition 
programs at farmers markets. This program has helped many markets 
overcome barriers to purchasing equipment and become SNAP authorized.
    To further support FNS's priority of increasing the number of SNAP 
authorized farmers' markets, we've recently made a number of 
improvements to streamline the process for farmers' markets seeking 
SNAP authorization. This new guidance reduces administrative burdens on 
the state agencies while streamlining the authorization process for 
farmers' markets. This information is posted on our web page. Farmers' 
markets are often the center of the community and are an excellent 
venue for outreach and nutrition education. Farmers' markets offer a 
place to educate potential clients about the benefits of participation 
in SNAP. USDA encourages state SNAP officials to incorporate farmers' 
markets in outreach and nutrition education efforts.
    Farmers' market incentive programs also encourage healthy eating. 
Such projects provide matching ``bonus dollars'' for purchases made 
with SNAP benefits. The incentives, funded by private foundations, 
nonprofit organizations and local governments, improve the purchasing 
power of low-income SNAP participants at farmers' markets so they can 
buy more fruits and vegetables and other healthy foods.
    Farmers' markets play a key role in access to healthy foods in the 
WIC Farmers' Market Nutrition Program (FMNP) and in the Senior Farmers' 
Market Nutrition Program. During Fiscal Year 2008, 2.3 million WIC 
recipients and 964,000 seniors received coupons redeemable at farmers' 
markets. A variety of fresh, nutritious, unprepared, locally grown 
fruits, vegetables and herbs may be purchased with FMNP coupons. In 
addition, seniors can purchase honey.
    While the growth in authorized retailers and farmers' markets is a 
good sign that most SNAP recipients have access to food retailers, 
there remain issues to be addressed. First and foremost, we need to ask 
to what extent those stores offer the healthy food choices that SNAP 
participants need and want. Second, we need better information to 
determine whether areas with limited access have inadequate access. 
Better measures of access, information on food prices, and data on the 
relative availability of all food types, not just healthy food items 
are needed to authoritatively describe food deserts. And, finally, how 
can we encourage changes to make healthy food more readily available in 
such areas? USDA stands ready to explore all of these areas through 
research, analysis, and eventually, policy, if needed.
    As I mentioned before, the Healthy Incentive Pilot is one effort 
that will contribute greatly to our knowledge in this area. If the 
incentive does entice more demand for healthful foods, it should 
increase the desire of retailers to stock such items. It is too soon to 
speculate what effect this might have on food deserts, but it is worth 
noting that such an incentive may well play a positive role.
    The President's Fiscal Year 2011 budget makes available over $400 
million in financial and technical assistance to bring grocery stores 
and other healthy food retailers to food deserts. This effort is known 
as the Healthy Food Financing Initiative and is a partnership between 
the Departments of Treasury, Health and Human Services and Agriculture 
designed to eliminate food deserts within the next 7 years. The 
objectives of this effort are to increase access to healthy and 
affordable food choices in underserved urban and rural communities, 
help reduce the high incidence of diet related diseases, create jobs 
and economic development, and establish market opportunities for 
farmers and ranchers. The Healthy Food Financing Initiative will expand 
access to nutritious foods by developing and equipping grocery stores 
and other healthy food retailers in communities that currently lack 
these options.
    At the same time, we look forward to the contributions of our 
partners in private industry and the advocacy community and to learning 
more about their creative approaches to addressing this problem. 
Improving access in the areas where choice is limited is a challenge, 
but it is one we must undertake if we are to solve our dual problems of 
food insecurity and obesity.
    In the Food, Nutrition, and Consumer Service mission area at USDA, 
our role is also to make sure that all low income people who are 
eligible are enrolled in the nutrition assistance programs to provide 
them with the supplement to their food budget that enables the purchase 
of healthy foods. As such, access to the Federal nutrition assistance 
programs remains a top priority.
    Despite record participation in SNAP, totaling more than 39 million 
participants in January 2010, there remain underserved populations--
while the participation rate among all eligible was 66 percent in 2007, 
less than \1/3\ of eligible elderly participate and only 56 percent of 
eligible Hispanics participate. And this is why outreach remains a 
critical component of our access efforts. The most common reason that 
eligible people don't participate is because they don't know they are 
eligible. Therefore, in order to maximize participation in SNAP, USDA 
conducts direct marketing activities, and provides funding, and 
outreach materials as well as technical assistance to public 
organizations, including state SNAP agencies, as well as neighborhood 
and faith based organizations that conduct SNAP outreach and marketing 
efforts.
    FNS has a multitude of free outreach materials, some designed 
specifically for seniors, and most available in English and Spanish to 
help people recognize their potential eligibility and raise awareness 
about the nutrition benefits of SNAP. Materials include brochures, 
flyers, posters, and radio and television public service announcements. 
An online pre-screening tool in English and Spanish lets the user know 
if they might be eligible for benefits and how much they might receive. 
FNS also operates a toll free number in English and Spanish that 
provides callers with information about the program. Each year, FNS 
uses radio advertising in English and Spanish, to reach low income 
people in underserved areas. Finally, FNS has awarded outreach grants 
to neighborhood and faith-based organizations to support development 
and implementation of promising outreach strategies to reach low income 
seniors and Latinos.
    At the same time, we need to make sure that we simplify the 
application process, remove barriers to participation and provide the 
highest quality customer service. In SNAP, states have a variety of 
policy options available to improve access. Currently, 31 states use 
broad-based categorical eligibility to raise the gross income limits 
and raise or eliminate asset tests in SNAP. Such efforts make the 
program available to families with low incomes and modest assets as 
well as those with high expenses but gross incomes slightly higher than 
the normal gross income test. I strongly encourage all states to 
implement this policy. States are also using telephone interviews in 
place of face to face interview and tailoring the length of interviews 
to specific questions to reduce the burdens on clients and state staff.
    Through direct certification, children who are eligible for free 
meals because their households are approved for SNAP benefits are 
identified. Annually, USDA reports to Congress on direct certification 
and have gained insight into what works best by talking to staff who 
manage direct certification in their state. From the most recent report 
which was issued in October 2009 we focused on those states who had the 
greatest improvement in the percentages of children who were directly 
certified and asked how they did it. We will be promoting these best 
practices and others through the direct certification grants ($22 
million) provided through the FY 2010 Agriculture Appropriations Act.
    USDA also works hard to improve what we offer directly to program 
participants in the commodity programs. We have reduced the fat, sodium 
and sugar in the USDA foods being offered and will continue to make 
improvements on an ongoing basis.
    The WIC food packages were recently revised to reflect 
recommendations by the Institute of Medicine (IOM) and more closely 
align with the 2005 Dietary Guidelines for Americans and infant feeding 
guidelines of the American Academy of Pediatrics. The changes, which 
promote healthier options for WIC participants by adding fruits, 
vegetables, and whole grains, and emphasizing low-fat milk, may also 
benefit the larger community by increasing the availability of 
nutritious food options in small grocery stores and corner stores.
    In closing, the Obama Administration is committed to improving the 
Federal nutrition assistance programs and to assuring that those in 
need have access to program benefits, the knowledge to make wise food 
choices with those benefits, and that retailers are accessible so that 
participants have access to healthy foods in their communities. I would 
be happy to answer any questions you might have and, again, thank you 
for the opportunity to speak on this issue today.

    The Chairman. Thank you very much, Mr. Concannon.
    Next I would like to call on Dr. Michelle Ver Ploeg.

       STATEMENT OF MICHELE ``SHELLY'' VER PLOEG, Ph.D.,
           ECONOMIST, ECONOMIC RESEARCH SERVICE, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Ver Ploeg. Good morning. Thank you, Chairman Baca, 
Ranking Member Fortenberry, and Members of the Subcommittee for 
allowing me to testify today on the issue of access to 
affordable and nutritious food.
    Increases in obesity rates and diet-related diseases are 
major public health problems. These problems may be worse in 
some American communities because they lack access to 
nutritious foods. It was this concern that led Congress in the 
2008 Farm Bill to direct the USDA to conduct a 1 year study of 
food deserts or areas, especially low-income areas that have 
limited access to affordable and nutritious food. The USDA was 
directed to assess the extent of the problem, to identify 
causes and characteristics of areas that might be considered 
food deserts, to determine how limited access affects local 
populations and to outline recommendations to address the 
problem. The findings of the study were released in a report 
last June and can be found on the ERS website.
    My testimony today will just summarize a few brief key 
findings of the report. To conduct the analysis of food 
deserts, a comprehensive database was developed that identified 
the location of supermarkets and large grocery stores within 
the continental U.S. Food access was estimated as the distance 
to the nearest supermarket or large grocery store. The analysis 
also examined households without vehicles and specific socio-
demographic subpopulations drawn from the 2000 Census. Overall, 
the findings show that access to affordable and nutritious food 
is a problem for a small but significant share of the national 
population. Of all households in the U.S., 2.3 million, or 2.2 
percent, live more than a mile from a supermarket and do not 
have access to a vehicle. An additional 3.4 million households, 
or 3.2 percent of all households, live between \1/2\ mile and 1 
mile and do not have access to a vehicle.
    Area-based measures of access show that 23.5 million people 
live in low-income areas that are more than 1 mile from a 
supermarket or large grocery store and that low-income areas 
are defined as areas where more than 40 percent of the 
population has income at or below 200 percent of Federal 
poverty levels. However, not all of these 23.5 million people 
are defined as low-income. If estimates are restricted, 
consider only the low-income people in low-income areas, then 
11.5 million, or 4.1 percent of the total U.S. population, 
lives in low-income areas more than a mile from a supermarket.
    A related concern is that poor households pay more for the 
same goods because they cannot access lower-priced retailers 
and thus rely on smaller, often higher-priced stores. To 
address this question, USDA analyzed the household level data 
on food items purchased by approximately 40,000 demographically 
represented households across the U.S. These data were used to 
examine differences in prices paid for the same food items 
across households with different income levels. Results show 
that low- and middle-income households are more likely to 
purchase food at supercenters where prices are lower. But 
results also indicate that the very poorest households, those 
earning less than $8,000 a year, may pay between half a percent 
and 1.3 percent more for their groceries than households that 
earn slightly more; that is, households earning between $8,000 
and $30,000, who tend to pay the least for groceries among all 
income groups.
    Many studies find a correlation between limited access and 
lower intake of nutritious foods. These studies, however, are 
not sufficiently robust to establish a causal link between 
access and nutritional outcomes; that is, other explanations 
cannot be eliminated as a primary cause of lower intake of 
nutritious food. Access to affordable and nutritious food 
depends on supply, availability, and consumer demand.
    Understanding the market conditions that contribute to 
differences in access to food is critical to understanding 
which policy interventions may be effective in reducing access 
limitations. If high development costs for stores limit 
supermarkets in some areas, these subsidy programs or 
restructured zoning policies may promote new stores. If 
consumer demand factors, like inadequate knowledge of the 
nutritional benefits of specific foods, contributes to 
differences in access, then a public health campaign may also 
be a preferred strategy.
    Since the USDA report was released, ERS has developed a 
comprehensive mapping tool that allows users to examine food 
store availability and a number of other indicators of the food 
environment for each county in the continental U.S. This is 
called the Food Environment Atlas, and the Food Environmental 
Atlas is a recognition of how factors such as store proximity, 
food prices, food and nutrition assistance programs and 
community characteristics interact to influence food choices 
and diet quality.
    The Food Environment Atlas assembles statistics on three 
broad categories of food environment indicators: food choices, 
health and well-being, and community characteristics. The 
online atlas currently contains 90 indicators of the food 
environment and is available to the public. Most of the data 
are at the county level. A user can select an indicator--for 
example, the prevalence of obesity--and create a map showing 
variation in that indicator among counties across the U.S. or 
across the state. The atlas also allows users to get data on 
any and all county indicators for a particular county. The 
atlas is at the ERS website.
    Again, I would like to thank you for the opportunity to 
appear before you today and I look forward to answering any 
questions.
    [The prepared statement of Dr. Ver Ploeg follows:]

       Prepared Statement of Michele ``Shelly'' Ver Ploeg, Ph.D.,
 Economist, Economic Research Service, U.S. Department of Agriculture, 
                            Washington, D.C.
    Chairman Baca, Ranking Member Fortenberry, and Members of the 
Subcommittee, I would like to thank you for allowing me to testify 
before you today on the issue of access to affordable and nutritious 
food.
    Increases in obesity rates and diet-related diseases are major 
public health problems. These problems may be worse in some American 
communities because they lack access to affordable and nutritious 
foods. Previous studies suggest that some areas and households have 
easy access to fast food restaurants and convenience stores, but less 
access to supermarkets and larger grocery stores that provide more 
nutritious and varied selections. Differences in access may make some 
communities more reliant on stores and restaurants that offer fewer 
healthy food choices, such as convenience stores or food marts at gas 
stations. Limited access to nutritious food and relatively easier 
access to less nutritious foods may be linked to poor diets and 
ultimately to obesity and diet-related diseases.
    Concerned that some households lack access to affordable and 
nutritious food, Congress, in the Food, Conservation, and Energy Act of 
2008, directed the U.S. Department of Agriculture (USDA) to conduct a 1 
year study of `food deserts'. The USDA was directed to assess the 
extent of the problem of limited access, identify characteristics and 
causes, consider how limited access affects local populations, and 
outline recommendations to address the problem. The findings of the 
study are given in detail in a report entitled Access to Affordable and 
Nutritious Food: Measuring and Understanding Food Deserts and Their 
Consequences, which was released in June 2009 and can be found at 
http://www.ers.usda.gov/Publications/AP/AP036/. My testimony today 
summarizes the key findings of the report.
Methods
    Economic analysis was conducted on the extent, determinants, and 
consequences of food deserts. A variety of data and methods were used 
to assess the extent of limited access to affordable and nutritious 
food. To conduct the analysis of the prevalence of food deserts, a 
comprehensive database was developed that identified the location of 
supermarkets and large grocery stores within the continental U.S. Food 
access was estimated as the distance to the nearest supermarket or 
large grocery store. The analysis was refined by examining households 
without vehicles and specific socio-demographic subpopulations drawn 
from the 2000 Census. The key determinants of areas with low access to 
supermarkets and large grocery stores were also analyzed.
    Research also examined national-level data on questions of 
household food adequacy and access from the 2001 Current Population 
Survey. This information was complemented with national-level data on 
time spent traveling to grocery stores from the 2003-2007 American Time 
Use Survey. To consider the economic consequences of limited access, 
ERS also analyzed demand for certain nutritious foods for a sample of 
participants of the Supplemental Nutrition Assistance Program (SNAP) 
using data from the National Food Stamp Program Survey (NFSPS) of 1996/
1997. Variation in prices for similar foods purchased at different 
store types was also estimated.
Measuring and Characterizing Areas With Limited Access
    Overall, findings show that access to affordable and nutritious 
food is a problem for a small but significant share of the national 
population. Urban core areas with low access are characterized by 
higher levels of racial dissimilarity and income inequality. Lack of 
transportation infrastructure is the most defining characteristic of 
small towns and rural areas with low access.
    Direct questions from a nationally representative survey of U.S. 
households conducted in 2001 show that nearly six percent of all U.S. 
households did not always have the food they wanted or enough food 
because of access-related limitations. More than \1/2\ of these 
households also lacked enough money for food. It is unclear whether 
food access or income constraints were relatively greater barriers for 
these households.
    Households that live far from a supermarket or large grocery store 
and without easy access to transportation will have more limited access 
to affordable and nutritious food. Of all households in the U.S., 2.3 
million, or 2.2 percent live more than a mile from a supermarket and do 
not have access to a vehicle. An additional 3.4 million households, or 
3.2 percent of all households, live between \1/2\ to 1 mile and do not 
have access to a vehicle.
    Area-based measures of access show that 23.5 million people live in 
low-income areas (areas where more than 40 percent of the population 
has income at or below 200 percent of Federal poverty thresholds) that 
are more than 1 mile from a supermarket or large grocery store. 
However, not all of these 23.5 million people are defined as low-
income. If estimates are restricted to consider only the low-income 
people in low-income areas, then 11.5 million or 4.1 percent of the 
total U.S. population lives in low-income areas more than 1 mile from a 
supermarket.
Economic Consequences
    A related concern is that poorer households pay more for the same 
goods because they cannot access lower-priced retailers and thus, are 
more likely to purchase their goods in smaller, higher-priced stores. 
Past research on food prices was unable to match data on prices paid 
with the households that actually make the purchases. As a result, 
prior work focused on inferring the linkages between prices paid and 
household characteristics.
    The analysis conducted for this study uses proprietary household-
level data that contain information on food items purchased by 
approximately 40,000 demographically representative households across 
the United States. These data on household food purchases were used to 
examine differences in prices paid for milk, ready-to-eat cereal, and 
bread at supermarkets, convenience, discount, and other types of 
stores. Results show that consumers pay more for these goods at 
convenience stores than at supermarkets, holding constant 
characteristics of consumers such as income and education and 
characteristics of the products, such as size and fat content.
    Other research, however, shows low- and middle-income households 
are more likely to purchase food at supercenters, where prices are 
lower. Results also indicate that while some of the very poorest 
households--those earning less than $8,000 per year--may pay between 
0.5 percent and 1.3 percent more for their groceries than households 
earning slightly more, households earning between $8,000 and $30,000 
tend to pay the least for groceries, whereas higher-income households 
pay significantly more.
    How food store access is related to food shopping behavior, food 
purchasing and the prices paid for specific foods was also examined. 
The results show that most low-income consumers are able to access 
supermarkets, albeit with higher travel costs for those living farther 
away. For those with limited access to supermarkets, the results 
suggest that these consumers make fewer purchases of certain kinds of 
nutritious foods.
 Dietary Behavior and Health Outcomes
    Many studies find a correlation between limited food access and 
lower intake of nutritious foods. These studies, however, are not 
sufficiently robust to establish a causal link between access and 
nutritional outcomes. That is, other explanations cannot be eliminated 
as significant contributory causes of lower intake of nutritious food. 
A few studies have examined food intake before and after healthy 
options become available (either within existing stores or because new 
stores open). The findings are mixed--some show a small but positive 
increase in consumption of fruits and vegetables, while others show no 
effect.
Policy Considerations
    Access to affordable and nutritious food depends on supply 
(availability) and consumer demand. Understanding the market conditions 
that contribute to differences in access to food is critical to 
understanding which policy interventions may be effective in reducing 
access limitations. Consumer behavior and preferences and other factors 
related to the demand for some foods may lead to differences in what 
foods are offered where. Food retailer behavior and supply side issues 
such as higher costs to developing stores in underserved areas may also 
explain variation across areas in which foods are offered and what 
stores offer them. If high development costs for stores limit 
supermarkets in some areas, then subsidy programs or restructured 
zoning policies may promote new stores in areas of low access. If 
consumer demand factors, like inadequate knowledge of the nutritional 
benefits of specific foods, contribute to differences in access by 
reducing demand, then a public health campaign may be a preferred 
strategy. Several local and state level efforts are underway that could 
provide the basis to understanding which types of interventions work 
best I would note, as well, that the President's FY 2011 Budget 
proposes a healthy food financing initiative to address the issue of 
food deserts. This initiative includes funds for USDA activities.
Food Access Research Continues at USDA
    The current state of research is insufficient to conclusively 
determine whether some areas with limited access to certain kinds of 
food stores have inadequate access to nutritious food. Future research 
should consider improved methods to measure access levels, 
availability, and prices of foods faced by individuals and areas. The 
recently developed U.S. Food Environment Atlas at USDA provides a more 
comprehensive set of measures of access.
    The basis of the U.S. Food Environment Atlas is a recognition that 
factors--such as store/restaurant proximity, food prices, food and 
nutrition assistance programs, and community characteristics--interact 
to influence food choices and diet quality. The Food Environment Atlas, 
developed by the U.S. Department of Agriculture, assembles statistics 
on three broad categories of food environment indicators.

  <bullet> Food Choices.

  <bullet> Health and Well-Being.

  <bullet> Community characteristics.

    The online Atlas currently contains 90 indicators of the food 
environment and is available to the public. Most of the data are on the 
county level. A user can select an indicator--e.g., the prevalence of 
obesity--and create a map showing variation in that indicator among 
counties across the United States or across a state. Atlas users can 
identify counties with a combination of indicators--for example, those 
with persistent child poverty as well as high numbers of residents with 
limited access to grocery stores. The Atlas also allows users to get 
data on any and all of the county-level indicators for a particular 
county. The Atlas can be found at the following website: http://
www.ers.usda.gov/FoodAtlas/.
    Again, thank you for the opportunity to appear before you today, 
and I look forward to answering any questions.

    The Chairman. Thank you very much.
    Again, I would like to thank both of the witnesses for 
their testimony.
    At this time, I will begin with asking questions. Each of 
the Members will be allowed 5 minutes. I now recognize myself 
for 5 minutes and then will recognize the Ranking Member and 
the other individuals, as I called them earlier, for questions. 
I will begin by first thanking Under Secretary Concannon again 
for being here this morning.
    And I will begin with the first question. Do you think that 
the current criteria stores must meet in order to be eligible 
to receive the SNAP benefit goes far enough to ensure that 
these stores will carry fresh foods?
    Mr. Concannon. Mr. Chairman, thank you for that question. 
As I mentioned in my testimony, there are now 193,000 stores 
across the country that have been approved to process benefits 
in the SNAP Program, and about 80 percent of those stores are a 
supermarket that provides a wide variety of food products. So I 
have no concerns whatsoever about the supermarket portion of 
it. The 20 percent, a majority of stores, the smallest stores 
in the 20 percent as well, provide those range of foods, but I 
am concerned that it has been reported to me, at least 
anecdotally, that we have in some parts of the country, stores 
that are small and really just meet the minimum, but don't 
provide that much by range of options for the food groups. So, 
it is one of those items that deserves consideration in the 
upcoming reauthorization of the farm bill.
    The Chairman. Thank you. And can you describe to the 
Subcommittee the operating process for the Healthy Food 
Financing Initiative proposed by the Obama Administration?
    Mr. Concannon. Mr. Chairman, the Healthy Food Financing 
Initiative is one that is actually hosted at USDA and another 
one of the mission areas. But it is targeting--I can speak to 
it generally. It involves both the Department of Health and 
Human Services, the Department of the Treasury, and USDA. And 
there was a budget request pending for 2011 for $400 million. 
And the intent of that $400 million is to target food deserts 
across the country, cities as well as rural areas, reflecting, 
again, some of the targeting what the research here identified 
in terms of deserts. And this would be a combination of both 
grants, loans, incentives to create capacity over a period of 
years in these food deserts.
    And as was mentioned in the testimony heard here this 
morning, often the smallest stores or the food deserts, people 
not only have a harder time to obtain food, but they may likely 
pay more for it when they can. It is an effort to really 
institutionally attack that issue.
    The Chairman. Thank you.
    Michelle Ver Ploeg, it seems clear from your testimony that 
the USDA study was unable to establish a causal link between 
limited food access and lower intake of nutritious food. But 
even without the concrete data, everyone in this room 
understands the importance of access to nutritious food.
    In your opinion, how significant is the connection between 
the lack of access to healthy food and obesity?
    Dr. Ver Ploeg. Thank you for that question. As we know, 
about \1/3\ of the population of the U.S. is obese and another 
third is overweight. So clearly there is something bigger going 
on than just lack of access. However, for people that do lack 
access, it seems necessary that they--if we want them to eat 
healthier diets, it would be necessary for them to get those 
foods. So access, to me, is a necessary condition for improving 
people's diets, but it is not going to solve all of the 
problems of obesity in our country.
    The Chairman. Access is one thing, but education is 
another. And so we need to address it from an educational 
perspective, because you can have access to nutritional foods, 
but if you must also be educated and know the impact of 
unhealthy foods. So do you have any ideas or comments in terms 
of how we can do the kind of outreach and education?
    Dr. Ver Ploeg. So one of the items that Under Secretary 
Concannon reported on was the Healthy Incentive Program that is 
not targeted to the general population but targeted to SNAP 
participants. And the idea behind that is to encourage 
promoting fruit and vegetable consumption by giving discounts. 
That is one way that could be used to promote healthier eating.
    There are also public health campaigns. I know there is 
talk of labeling that could help people have better information 
on how many calories are in the foods they are consuming. Those 
are the sorts of things that would obviously change peoples 
choices and perhaps their demands for foods. And I should say 
price is always a big consumer demand determinant.
    The Chairman. Right. Labeling becomes very important 
because of the products that you are buying. If people know 
what they are buying, and its origin, they can assess potential 
health affects. For example, our country has requirements that 
are a lot stricter than some of the other countries. Is that 
correct?
    Dr. Ver Ploeg. That is an area that is out of my realm of 
knowledge, so I will have to pass on that.
    The Chairman. Mr. Concannon.
    Mr. Concannon. Mr. Chairman, to your question, one, there 
are a number of activities focused in the educational arena 
that we are a part of, both targeted at SNAP recipients to so-
called SNAP education aspects of it. But also our efforts with 
schools across the country, we are very mindful these days as 
the Child Nutrition Act is being reauthorized of the 
opportunity we have to influence children in the school years, 
and not limit that education to the hour or the half hour in 
the cafeteria, but to really impact the culture of the school.
    The USDA has something called HealthierUS School Challenge, 
of which there are more than 600 schools that I visited in 
different parts of--not the 600, I visited about half a dozen 
of them, I should say, across the country. They are model 
schools where, again, the nutritional quality is of the 
highest, the fruits and vegetables that were referenced by one 
of the Members here this morning in attending a school in his 
area, but competitive foods are outlawed in those schools and 
there is a focus on exercise. So I have been in schools where, 
again, it isn't limited to the cafeteria. It is made part of 
the math program; how many calories in a particular food, how 
do you measure, how much volume in a portion of food, where it 
is part of the physical ed activities, where I have actually 
seen children and heard the teachers talking about food while 
kids are exercising and it was--they are all smiling faces.
    It wasn't like visiting the Quantico Marine Base here, as I 
reflect on it. But even the art programs all focus on healthy 
foods.
    So, it is the conjoining of education, of culture, all of 
these things. And we think children, to the extent that 
children--the analogy I often think of are the efforts to 
reduce smoking in this country. It wasn't any one single thing. 
It was a variety of initiatives that ultimately succeeded in 
reducing smoking.
    I think, similarly on the issue of obesity, it is going to 
be access to healthier foods, more transparency, better 
education, lower amounts of processed foods and getting us to 
realize that bigger isn't necessarily better.
    The Chairman. Thank you very much, Mr. Concannon. I know 
that I have a series of additional questions that I will submit 
for the record. And hopefully you will be able to respond later 
on to some of these questions.
    But at this time, I would like to call on the Ranking 
Member, Mr. Fortenberry, from Nebraska.
    Mr. Fortenberry. Thank you, Mr. Chairman. It wasn't a long 
time ago where many of us were in the 4-H Program. We pledged 
our heads to clearer thinking and our heart to greater loyalty, 
hands to larger service, and, guess what, health to better 
living. It is not too long ago when we all said that pretty 
much regularly, those of us who had the opportunity to be in 
that extraordinary program. I think it is important to remind 
ourselves that one of the most pervasive, as well as 
traditional USDA programs, is the Cooperative Extension 
Service. And as we try to unpack the operational mechanics of 
how we move forward, whether it is on education or new 
programmatic implementation--and I want to turn to the Healthy 
Food Financing Initiative shortly--the traditional structures 
of USDA--that USDA can provide. I think that is very important 
that we not lose sight of, particularly as we are looking at 
new initiatives that might in a time of real budgetary 
constraints have to be fitted in or resources shifted to them 
that may be better applied as we move forward.
    In that regard, regarding the financing initiative, you 
covered a little bit of that ground, given the Chairman's 
question, and you anticipated, Mr. Chairman, in that regard. 
But I would like to hear a little bit more about how you 
perceive the implementation of that program to occur. You said 
grants, loans to build capacity to fill in the gaps of food 
deserts. But is this not all worked through yet? It is a broad 
policy framework that is under consideration. I would like to 
hear you unpack that further.
    Mr. Concannon. Yes. Thank you for that question. My 
awareness of it and knowledge it of is just at the 50,000 foot 
level, if that. It is in a separate area of the USDA that is 
engaged in another mission area, not food nutrition per se. And 
I know that dialogue and those conversations are taking place 
between, again, the Treasury, the U.S. Department of Health and 
Human Services, and USDA. But I am not directly involved in 
that.
    Mr. Fortenberry. But you see the USDA as being the primary 
driver of this and having the capacity to develop whatever loan 
program might develop or particular grant program, I assume?
    Mr. Concannon. Yes. It is my understanding the budget 
request of that $400 million, about $150 million is associated 
with the USDA. The other $250 million, a larger part of that is 
over in the Treasury Department, and then a portion of it also 
at Health and Human Services. So we really, with this kind of 
research of course, are informing the strategies that will be 
pursued, it is important to note. But the actual mechanics of 
implementation are areas in which I nor will our mission area 
be directly involved in that.
    Mr. Fortenberry. It is important to use the hearing to 
highlight the point that we have extraordinary structures in 
USDA that are countrywide, in every county effectively in the 
country. And so there is always a tendency with a new idea to 
add it on. But perhaps fitting it within the current frameworks 
of what we already have may be an efficient use of what may 
very well be a powerful new idea to fill in these gaps of 
capacity.
    Mr. Concannon. I think to that, Congressman--your 
question--I think the intent is clearly that, not to create a 
new structure within USDA. It is in Rural Development--is the 
mission area that I think will have primary responsibility in 
USDA. So there is not an intent on our part to create a new 
division per se.
    Mr. Fortenberry. Thank you.
    Let us turn quickly to, again, what has been touched on a 
bit, but the evidence that underserved areas will actually 
purchase more fruits and vegetables, given a supply of them, 
touch on the research that is available.
    Dr. Ver Ploeg. There is quite a bit of research that shows 
that areas that may be considered food deserts, there is an 
association between low purchase of healthy foods and living in 
those areas. We don't have great causal evidence that shows 
that might be more than an association. There is some evidence, 
from small studies where they opened up small stores or within 
a convenience store, have brought in some--just a shelf of 
precut vegetables and fruits--there are a few formative studies 
that show some encouraging signs, but those are very formative. 
The best evidence we have on supermarket openings comes from 
the U.K. So it may not be relative to the U.S., but it shows 
that in areas where a new store has opened, people have 
increased their consumption, but not by a great deal. That is 
the only evidence we have right now.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Fortenberry.
    I would like to call on the gentleman from Wisconsin, Mr. 
Kagen.
    Mr. Kagen. Thank you, Chairman. And thank you both for 
coming here this morning to present us with your ideas and your 
concerns and what you have been doing. I have just a few 
questions.
    In the farm bill, I put forward an amendment that was 
supported by the Republicans and the Democrats for $30 million 
of funding for a Childhood Obesity Program. Before we can 
consider funding any of the requests that you have, can you 
please tell me what you have done with the $30 million for the 
Childhood Obesity Program?
    Mr. Concannon. I think we would have to get back to you, 
Congressman, because I am not familiar with it off the top of 
my head, and my colleague here said we will have to get back to 
you very directly.
    I can speak generally on some of the strategies we have 
around reducing childhood obesity. One, I really want to make 
clear that there is--I have spent most of my career in state 
government I should say, but there is, I believe, unprecedented 
levels of cross Federal agency collaboration and cooperation 
underway. And we have persons detailed to us from the Centers 
for Disease Control in Atlanta where they have a major project 
on reducing--studying and reducing obesity. There has been much 
collaboration between the USDA, the FDA, the Federal Trade 
Commission and the CDC around the issue of marketing of foods 
to children between the ages of 2 and 17. And a report is 
forthcoming that will come to you, Members of Congress, by the 
15th of July, as directed in that farm bill. So those are just 
some areas.
    The HealthierUS Schools Challenge, we are very much in the 
middle of that. And the First Lady's program, Let's Move, has a 
number of elements that are both associated with transparency 
or educating parents about foods, but also encouraging 
activity.
    As I am sure you know, the problem of obesity is not just a 
function of the foods we ingest, but it is how little exercise 
people use, and there is a worry about the number of so-called 
hours that children are now spending either before a screen or 
television screen or a computer screen that concern us.
    So at a meeting I was at last Friday where Secretary Duncan 
from Education was present, he spoke to the concern of the 
diminished number of recess hours or activity hours that 
schools are experiencing these days. So it is some of both. So 
when we meet with schools, there is a requirement from the last 
farm bill for wellness policies in schools.
    Mr. Kagen. I understand that. I don't mean to have you 
occupy all of my time on that subject, but the answer you have 
given me is inadequate. I am happy that you are going to look 
into it. It was 2007, 2008. The money is there. The intent was 
there. And so you have the language, you have the 
appropriation, you have the money. And we would like to 
consider other programs. But, by golly, we are interested to 
know what you did with the $30 million that was specifically 
targeted at this childhood obesity epidemic. Not during the 
current Administration, but this is several years ago.
    So, thank you. And I am quite certain you are going to get 
back to me as rapidly as you can. Food has become not just an 
essential ingredient to life, but as an entertainment factor. 
And your real competition is--you are suggesting that the 
Administration is interested in crafting language that would 
limit the manner in which a business entity could market its 
goods to children; am I correct?
    Mr. Concannon. That report is coming from 4--and the 
Federal Trade Commission is leading that effort. But we have 
been actively participating with them on it. We were very 
supportive of the----
    Mr. Kagen. Thank you very much. And in the interest of 
time, one of the other hurdles that our farmers have in terms 
of growing locally grown products and getting them into a 
school system is the price competition from the major food 
manufacturers who receive subsidies from the USDA and from our 
government. And it is very difficult for locally grown food to 
get into the school system because of that price competition.
    I would hope at a further time you could give me some very 
specific ways in which you hope to move around that price 
barrier. And I will just remind all of you how difficult this 
is. In 1966, when I first entered politics, I was elected to be 
the most trusted person in my high school. I was the Student 
Council Treasurer. We had $253. There was no committee. It was 
just me. So I took it upon myself to purchase for $250 an Apple 
machine, and I put it in the hallway. Being a sophomore in high 
school, I went to track practice after a period, and all the 
seniors told me, ``Kagen, forget about politics, man, we wanted 
a Coca-Cola<SUP>'</SUP> machine. Don't run for Student Council 
President.''
    So I ducked out of politics and then, some years later, 
left my medical practice and came to the House. So now I am 
going back into these schools and I am taking out the 
carbohydrates and putting back the fruits and vegetables. I 
know what is going to happen. People won't like the texture and 
the taste. And it is a very competitive marketplace out there. 
But I will work very hard with you to find a way in which we 
can make it easier for our locally grown foods to appear at the 
cafeterias in our schools. Please get back to me as rapidly as 
possible on the $30 million that I secured in the farm bill for 
the Obesity Program.
    I yield back my time.
    The Chairman. Next, I would like to call on the gentleman 
from Oregon, Mr. Schrader.
    Mr. Schrader. Thank you, Mr. Chairman. I would just like a 
response to the food hub question I talked about in my opening 
statement, to the extent that the Department is aware of that 
nonprofit initiative in the Northwest--because it is spreading 
regionally--and if there are opportunities for similar 
partnerships to develop across the country. Are there matching 
dollars or incentives that could help broaden that program?
    Mr. Concannon. I am not aware of that specific project in 
Portland. I am aware that Oregon is one of the leading states 
in the country on a variety of issues related to SNAP or to 
WIC, our nutrition programs. But there are and will be 
opportunities for programs like that to both be supported and 
to be disseminated in the Child Nutrition Act and in our budget 
that is before Congress.
    There are proposals to fund the team, a national team, and 
to put resources with it for helping farm-to-school, as an 
example, to increase the access and to try to deal with some of 
the questions that have been raised on the logistics or ease of 
bringing these healthier foods into schools, as one example.
    Mr. Schrader. As a new Member of Congress not as familiar 
with the SNAP Program as many others, and slightly aware that, 
obviously, there are certain foods you can buy with your EBT 
card and some not, I would assume that we are at a level of 
sophistication where we can actually require the foods that are 
purchased with that card to not be above a certain carbohydrate 
or fat level. Is that being looked at at all?
    Mr. Concannon. Not at this time. The actual SNAP Program, 
the limitations on food are cooked food. Uncooked foods, the 
person may use their card for that. We think one of the most 
promising ways of dealing with the foods that SNAP recipients 
purchase--by the way, the evidence is they don't make very 
different purchases from the rest of us who may have more 
financial resources--is to both rely upon the SNAP education 
program and to see what happens in several of these pilots that 
Congress has funded for us where we are incenting--we are 
creating some incentives for people to buy healthier foods. 
Also in the budget that is before Congress for next year, the 
President has proposed $4 million for us to be able to equip 
every farmers market in the country with wireless technology, 
because that is one of the major barriers to be able to use 
your EBT card, farmers markets that don't have electrification.
    Mr. Schrader. Last question, actually, for Dr. Ver Ploeg. 
It would seem pretty clear from the study that you performed 
that access to supermarkets is not the issue. And that you 
referenced England's work also. So it seems to be behaviors and 
taste and that sort of thing.
    So what would you suggest that we do to correct those 
behaviors or change the taste, if you will? Education seems 
fine, but until you have some financial incentives, I am not 
sure education alone is going to do it.
    Dr. Ver Ploeg. I would say that access is a problem for 
some. It may not be a large portion, but somewhere between two 
and four percent of households. Again, it may not be the 
biggest problem for obesity. But for those people, it is a 
problem.
    And then with respect to policy, this is something that 
ERS--it is a research agency, so we are not really a policy 
agency. But I would say that education is important, price is 
important, and income is important for people.
    Mr. Schrader. Thank you very much. I yield back.
    The Chairman. Thank you very much, Mr. Schrader.
    At this time I would like to call on the gentlewoman from 
Pennsylvania, Mrs. Dahlkemper.
    Mrs. Dahlkemper. Thank you, Mr. Chairman. As I said in my 
opening statement, I have worked in a very intimate way with 
people on these issues over the years. I agree with you, Mr. 
Concannon, that this is going to take more than the U.S. 
Government to help solve this problem. It is a food industry 
issue, it is a school issue, it is a media issue, it is a 
parental issue, and government, and there are many other groups 
that are involved in this issue.
    Let me ask you a little bit about industry role. I am on 
the Agriculture Committee so I talk to a lot of food industry 
individuals. Where do you see the industry role at this point, 
and are you in any conversations with industry about helping to 
solve this issue? We are all in this together. It is going to 
take us bringing everyone together to help solve this very 
large issue.
    Mr. Concannon. Yes, Congresswoman, we agree. It is not just 
the purview and the responsibility of the government, per se, 
but industry has to help in this. These days, I am very mindful 
of the book that was published within the last year by the 
former FDA Commissioner that speaks to the history of processed 
foods in the United States from the 1960s to the present. I 
think one of the national newspapers, just within the last 
week, shows the percentage of processed foods that Americans 
eat compared to other countries. I think we were at the highest 
in that regard.
    So there is much dialogue going on. I know the White House 
has dialogued with industry. I know our Department has 
dialogued with industry. The work that is underway, for 
example, with the report that is going to be coming to you 
around marketing of foodstuffs to children between the ages of 
2 and 17 is a very important opportunity, because I reflect on 
my own experience just watching the Olympics here a couple of 
months ago. They would intersperse those Olympic activities 
with which burger chain was recommending or could sell larger 
burgers or bigger bags of fries. You are constantly bombarded. 
So, part of it is messaging, and part of it is the foodstuffs 
that are available to us.
    I know the First Lady was quoted directly with saying to 
industry: Don't just produce foods that don't have as dense a 
calorie content, but promote those foods as well. Promote the 
foods that are healthier for people.
    I think part of it is understanding. At a previous 
Congressional hearing, we had the Director of the Rudd Center 
at Yale read what sounded to me like a chemistry class, a 
paragraph, and he had just taken this off the back of a box of 
a very popular breakfast food. Even a conscientious parent 
trying to ascertain whether this is healthy for the child or 
not, unless you are really professionally trained as a 
nutritionist or a dietician or a chemist, you wouldn't know. I 
think industry has a major role to play.
    Mrs. Dahlkemper. Well, that leads right into my next 
question, which is actually for Dr. Ver Ploeg. I am trained as 
a dietician, and sometimes when I see the calorie contents when 
I really have to search for it at times for certain items, I 
myself am shocked. I think I am pretty good at at least having 
a rough idea of how many calories are in food.
    So have you done research--particularly, we just passed the 
healthcare bill, which is going to require restaurants to have 
calorie counts and nutrition information on the food that they 
serve--have you done research to determine does that make a 
difference; what kind of difference does it make; what are the 
results of providing that kind of transparency?
    Dr. Ver Ploeg. I think we have some research that is 
ongoing, but we haven't completed it yet. It is actually an 
area that I am not an expert in, but I would be happy to get 
back to you and update you on what we are doing on that.
    Mrs. Dahlkemper. I would appreciate that.
    You mentioned transparency before, Mr. Concannon. I do 
believe that will help. But I worked in early intervention. I 
used to take moms to grocery stores which were very close to 
their home. But it really is an education piece here. They 
didn't get the education from their own parents that maybe some 
of us did, and they weren't educated in school regarding these 
issues. So it is a very complex issue. It is nothing we can 
solve with one piece of legislation. But I appreciate you 
coming forward today. I would also appreciate knowing where the 
$30 million is on childhood obesity also.
    Thank you very much. I yield back.
    The Chairman. Thank you very much. I know that there are 
additional questions that we would all love to ask, but I know 
that we are running out of time. I would like to thank both of 
the panelists for coming in to testify. We will submit our 
questions in writing and hopefully you will respond back to 
them. So at this time, thank you very much.
     We would like to call panel two, our next panel, to the 
table. At this time I would like to again welcome our second 
panelists to testify here this morning. I would like to start 
with the first witness. I will introduce her, and then after 
she speaks, we will introduce the next witness and then we will 
have some of the other Members introduce each of the following 
witnesses so this way it doesn't get lost in the shuffle when 
we introduce you all at this point. This way they will begin to 
speak.
    The first witness that we have is Ellie Krieger. She is a 
New York Times best selling author and renowned registered 
dietician who specializes in nutrition and health 
communication. Thank you for being here today and at the 
reception last night. I enjoyed that reception as well. As host 
of the Food Network's Healthy Appetite, which I started 
watching as of last night--and maybe I should have been 
watching it more. But, Ellie, thank you for demonstrating that 
cooking healthy foods can be quick, easy, and delicious. It was 
delicious. Some of that food was good. It was just as good as 
that In-N-Out Burger that I had. She will also share unique 
strategies for eating well in challenging situations, such as 
this office. Ellie's can-do attitude has made her the go-to 
nutritionist in the media today. We are very pleased to have 
her with us. Thank you very much for taking time from your busy 
schedule to be here with us.
    Ellie.

         STATEMENT OF ELEANOR ``ELLIE'' KRIEGER, M.S.,
REGISTERED DIETITIAN AND HOST, HEALTHY APPETITE, FOOD NETWORK, 
                          NEW YORK, NY

    Ms. Krieger. Thank you, Chairman Baca. Actually, my goal is 
to make healthy food as delicious as an In-N-Out Burger. So it 
can be done. Also, thank you, Ranking Member Fortenberry and 
Members of the Subcommittee. Thank you for your kind 
introduction.
    My name is Ellie Krieger, and I believe I have a uniquely 
multifaceted perspective to offer you today. Professionally, as 
you mentioned, I am a registered dietician and host of Food 
Network's Healthy Appetite. I received my undergraduate and 
postgraduate degrees in nutrition from Columbia and Cornell 
Universities, and I served as an Adjunct Professor of Nutrition 
Education at NYU. I have also written three award-winning books 
on healthy living and cooking.
    Personally, I have a 7 year old daughter, so I have the 
vantage point of a mom juggling the demands of real life. And I 
have the perspective of a community leader, as I have 
spearheaded the formation of a wellness committee at my 
daughter's school, PS 75, in New York City. Her school is a 
perfect example of a mixed-community urban school. It is Title 
I school; 60 percent of the students qualify for free lunch. 
And it is a demographic that reflects those most at risk for 
diabetes, obesity, and food insecurity.
    The statistics on food scarcity are startling; 15 percent 
of all American homes faced food scarcity in 2008, and that is 
the highest number ever recorded. Nearly 17 million children 
confronted hunger. Studies show that children who suffer from 
hunger also suffer more often from colds, stomach aches, the 
flu. They are more likely to be hospitalized, have trouble in 
school, and, most significantly, more likely to become obese.
    As we well know, poor nutrition is not exclusive to the 
food insecure. It is a growing national problem. In all, only 
two percent of our children eat a healthy diet, and an 
estimated 17 percent of children are obese. But obesity and 
food insecurity seem, on the surface, like opposite problems, 
one of excess and one of scarcity, but they are really 
integrally connected. Food insecure homes often rely on 
cheaper, high-calorie foods to stave off hunger.
    The other day, I spent nearly a dollar on an organic apple, 
and I stopped to think if I were truly hungry and food 
insecure, would I maybe consider a different kind of dollar 
food menu item. I really might. But, luckily, these problems 
share a common solution: the broad and consistent availability 
of nourishing, affordable, high-quality food, and educating 
people to make smart choices.
    A cornerstone of nutrition education is not just to provide 
information, but to effect behavior change by reaching someone 
in their head, their heart, and their hands. That is with 
knowledge, motivation, and skills. I strive to do that through 
my show, Healthy Appetite, and all of my work. I hope that my 
show, along with other Food Network shows, can help reverse the 
loss of cooking skills among Americans and inspire them to 
prepare fresh, healthy foods at home.
    Food Network and its parent company, Scripps Network 
Interactive, have taken a leadership role in promoting healthy 
eating. Through its websites and television programs, Scripps 
teaches people to cook, and also offers a wealth of educational 
materials. Food Network has partnered with Share Our Strength 
to create 14 Good Food Gardens, outdoor classrooms that educate 
families on the importance of fresh, nutritious food and 
inspire healthy eating habits for life.
    Congress, of course, plays a critical role in promoting 
access to healthy food. Nearly one out of five Americans 
receives Federal food assistance, and 17 million children 
benefit from SNAP alone. Simply put, if it were not for 
government support and the actions of this Committee, we would 
have even more hungry and unhealthy children in this nation. So 
I am glad to see the Congress and the Administration are making 
Federal food programs healthier and more robust.
    By raising the SNAP monthly allotment and promoting the 
purchase of fresh produce and healthier food alternatives, the 
Committee has taken an excellent first step toward better 
eating.
    The upcoming renewal of the Child Nutrition Act is an 
excellent opportunity to further this work. As part of that 
renewal, Congress should adopt several substantive changes to 
the Food School Programs already being debated. I have 
supported setting national nutrition standards for all foods 
sold in schools and provided by schools, not just breakfast and 
lunch. We really need to strive to create a total environment 
of healthy living in the schools and set that example.
    I believe we need training for school food service 
personnel on healthy food preparation. Getting out of the rut 
of using unhealthy packaged food takes a little knowledge and 
know-how, and I recommend training be done by qualified 
nutrition professionals.
    I favor Federal funds for the creation of school gardens 
and additional farm-to-school programs. As the Food Network 
demonstrates, this type of experiential education is 
invaluable. It taps the head, heart, and hands in one fell 
swoop. I think, finally, Congress should enhance and expand the 
very important Summer Lunch Program.
    To wrap up, I encourage looking at several other nutrition 
issues as well. Congress should provide incentives to schools 
to implement wellness policies. Unfortunately, many of these 
exist solely on paper. In our own wellness committee, we had no 
idea that New York City even had a formal wellness policy until 
we really started digging online. It shouldn't be that buried, 
in my opinion.
    Congress should fund infrastructure improvements enabling 
schools to prepare these healthier foods. You would be shocked 
to see the closet-sized kitchen in my daughter's school. They 
have two burners and two ancient ovens, and they feed 700 
children two meals a day. If we are going to make changes in 
school food, we have to ensure that those preparing the food, 
those on the front lines, if you will, have the facilities to 
do so.
    Finally, the Federal Government should emphasize eating 
whole rather than processed foods. The numerical approach to 
healthy food, as we talked about looking at calories and food 
and carbohydrates, often leads people to eat processed food, 
while meeting the numerical definition of healthy, in the end 
are far less nutritious than whole foods. Educating people to 
take this macro approach to nutrition rather than a numerical 
approach, I believe, would be a tremendous step toward 
encouraging better food decisions.
    So I truly appreciate the opportunity to appear before you 
today. Thank you very much. I look forward to your questions.
    [The prepared statement of Ms. Krieger follows:]

   Prepared Statement of Eleanor ``Ellie'' Krieger, M.S., Registered 
    Dietitian and Host, Healthy Appetite, Food Network, New York, NY
    Good morning, Chairman Baca, Ranking Member Fortenberry, and 
Members of the Subcommittee. My name is Ellie Krieger, and I believe I 
have a uniquely multi-faceted perspective to offer you on the issue of 
childhood nutrition and wellness.
    Professionally, I am a registered dietitian and host of Healthy 
Appetite on Food Network. I received my undergraduate and post-graduate 
degrees in nutrition from Cornell and Columbia Universities. I held the 
position of director of nutritional services at the prestigious La 
Palestra Center for Preventative Medicine, where I worked with a team 
of physicians, psychologists and fitness specialists to create a 
holistic obesity treatment program. And I was an Adjunct Professor of 
Nutrition Education at the New York University Department of Nutrition, 
Food Studies and Public Health.
    In addition, I regularly speak at events around the country and 
have appeared as a guest expert on dozens of programs including Today, 
CNN, Good Morning America, The Dr. Oz Show, and others. I am a regular 
contributor to Fine Cooking, Woman's Health and Food Network magazines. 
And I have written three books on healthy living and cooking, Small 
Changes, Big Results; The Food You Crave; and So Easy: Luscious Healthy 
Recipes for Every Meal of the Week, two of which are New York Times 
best sellers and one for which I was honored with awards from the James 
Beard foundation and the International Association of Culinary 
Professions.
    Personally, I have a 7 year old daughter, so I have the vantage 
point of a mom juggling the demands of real life while trying to raise 
a healthy family. And I also have the perspective of a community 
leader, as I have spearheaded the formation of a Wellness Committee in 
my daughter's school, Public School 75 in New York City. The first act 
of the committee was to sign the school onto the HealthierUS Schools 
Challenge, which I learned about during my participation in the healthy 
kids fair on the White House lawn this past fall.
    My experience making changes at this grass roots level at my 
daughter's school has given me an understanding of the issues we face 
like none of my formal education could have. Her school is a perfect 
example of a mixed community urban school. It is Title I school with 
about 60% of the students qualifying for free lunch. Its demographics 
are 49% Hispanic, 30% African American, 13% White and 7% Asian. It is a 
strong community school that depends on public resources, with a 
demographic that reflects some of our children most at risk of obesity, 
diabetes, and food insecurity. The decisions made in this room and in 
Washington D.C. directly impact the children there.
    On the surface obesity, diabetes, and food insecurity seem like 
opposite problems--one of excess and one of scarcity. But in reality 
they integrally connected. According to the Food Research and Action 
Center: ``Households without money to buy enough food often have to 
rely on cheaper, high calorie foods to cope with limited money for food 
and stave off hunger. Families try to maximize caloric intake for each 
dollar spent, which can lead to over consumption of calories and a less 
healthful diet.'' \1\ These issues also share a common solution: the 
broad and consistent availability of nourishing, high quality, 
delicious food and the education and inspiration to help children and 
families make smart choices.
---------------------------------------------------------------------------
    \1\ See http://www.frac.org/html/hunger_in_the_us/
hunger&obesity.htm.
---------------------------------------------------------------------------
I. Hunger Is On the Rise in America
    The statistics on food scarcity are well-known to the Subcommittee, 
but they remain startling in a country like the United States. 
According to the U.S. Department of Agriculture's 2008 Household Food 
Security in the United States study, 15% of all homes in the U.S. were 
``food insecure,'' \2\ which equates to nearly 17 million households. 
Of that 15%, 5.7% faced a very low level of food security (amounting to 
nearly 6.7 million households).\3\ According to USDA, the remainder of 
the 17 million households were able to avoid food shortages by eating a 
less varied diet, using public food assistance programs, or 
supplementing their household food items with items from food pantries 
or soup kitchens. Unfortunately, these numbers are starkly higher from 
2007, and in fact they are the highest ever recorded by USDA since it 
began collecting data on food security in 1995.
---------------------------------------------------------------------------
    \2\ Food security is defined as ``consistent access to enough food 
for an active, healthy life for all household members at all times 
during the year.'' In real terms, food insecurity can mean running out 
of food without money to buy more, cutting portion sizes, or skipping 
meals.
    \3\ In households with very low food security, the food intake of 
some household members was reduced, and their normal eating patterns 
were disrupted because of the household's food insecurity.
---------------------------------------------------------------------------
    State-by-state numbers offer little comfort. In California, over 
the last 3 years for which the USDA has released its food security 
data, (2006 to 2008) an average of 12% of households in the state were 
food insecure and 4.3% had very little food security each year. Over 
that same period of time, an average of 10.4% of Nebraska households 
were food insecure each year, with 4.0% facing very low food security. 
These are not isolated numbers. Over that same time, according to the 
USDA:

  <bullet> In Minnesota, an average of 10.3% of homes were food 
        insecure each year; 4.1% faced very low food security;

  <bullet> In Oklahoma, an average of 14% of homes were food insecure 
        each year; 5.9% faced very low food security;

  <bullet> In Texas, an average of 16.3% of homes were food insecure 
        each year; 5.7% faced very low food security;

  <bullet> In Pennsylvania, an average of 11.2% of homes were food 
        insecure each year; 4.2% faced very low food security;

  <bullet> In Oregon, an average of 13.1% of homes were food insecure 
        each year; 6.6% faced very low food security; and

  <bullet> In Ohio, an average of 13.3% of homes were food insecure 
        each year; 5.2% faced very low food security.

In fact, most states had an average of at least 10% of their households 
face food insecurity each year, with around 3% to 4% of those same 
homes facing very low food security. And nearly all of the states have 
seen those numbers grow to some degree since 1995.
    These numbers can be expected to grow further as the data in future 
years measures the full impact of the recession. We all are 
uncomfortably aware of how many people are out of work and have lost 
their homes. What is even more striking is the number of underemployed 
in America, who may face new food security challenges that they have 
not been used to in the past. I expect that the 2009 USDA numbers will 
show marked increases in food insecurity throughout the country, and 
potentially millions of additional homes may be considered to have very 
low food security.\4\
---------------------------------------------------------------------------
    \4\ In fact, the Food Research and Action Center (www.frac.org) 
just announced that in January of this year, almost 40 million 
Americans sought SNAP/food stamp assistance, over 450,000 more people 
than in January 2009. As of the end of January, one in eight Americans 
received food stamp assistance.
---------------------------------------------------------------------------
    What is truly concerning to me, though, is the impact food 
insecurity has on our nation's children. Generally speaking parents 
will sacrifice their own food security to make sure that their children 
have enough to eat. Even so, USDA projected that in 1.3% of U.S. 
households in 2008 both adults and children suffered from inadequate 
food due to very low food security, up from 0.8% in 2007. In real 
numbers, 506,000 households in America could not provide enough food so 
that everyone living in that home--adult and child alike--could meet 
their basic nutritional needs. In 2008, nearly 17 million children 
lived at risk of facing food security issues at some point during that 
year, 5.7 million children were living in homes that faced very low 
food security for the adults in the home, and 1.1 million children 
suffered from the direct effects of very low food security.
    Food insecurity issues and hunger have a disproportionate impact on 
children, with effects well-documented by researchers. According to 
Share Our Strength, a national organization that, in partnership with 
Food Network, works hard to make sure no kid in America grows up 
hungry, childhood hunger impairs kids' health in significant and long-
lasting ways.\5\ Studies have shown that children who suffer from 
hunger are sick more often and are more likely to be hospitalized.\6\ 
They are more likely to come down with common ailments, like colds, 
stomachaches, and the flu. Most importantly for the future of the 
nation, children who suffer from hunger issues are more likely to 
suffer from childhood and adult obesity, and the harmful chronic 
consequences caused by obesity.\7\
---------------------------------------------------------------------------
    \5\ Much of the following information is explored in more detail on 
Share Our Strength's website, www.strength.org.
    \6\ See, for example, Cook, J.T., Frank, D.A., Berkowitz, C., 
Black, M.M., Casey, P.H., Cutts, D.B., Meyers, A.F., Zaldivar, N., 
Skalicky, A., Levenson, S.M., Heeren, T., Nord, M. Food Insecurity is 
Associated with Adverse Health Outcomes Among Human Infants and 
Toddlers. J. Nutr., 134:1432-1438 (June 2004).
    \7\ The link between hunger and childhood obesity was examined in 
Casey, P.H., Szeto, K.L., Robbins, J.M., Stuff, J.E., Connel, C., 
Gossett, J.M., Simpson, O.M. Child Health-Related Quality of Life and 
Household Food Security. Arch. Pediatr. Adolesc. Med., 159: 51-56 
(2005).
---------------------------------------------------------------------------
    Hunger also predisposes children to behavioral difficulties, and it 
impairs their ability to learn and perform academically.\8\ A lack of 
food can contribute to a child's lack of attention and inability to 
concentrate in a classroom. Children under the age of 3 who suffer from 
food security issues often cannot learn as much, as fast, and as well 
as other children of the same age. Children who do not regularly get 
enough food can suffer from behavioral and emotional problems, and 
teens who lack food security are more likely to have issues with their 
peers and have disciplinary problems at school. As a result, hungry 
children often achieve less than their peers and may be more likely to 
face the economic and social difficulties in adulthood that often lead 
to food insecurity. In many ways, hunger in children now becomes self-
reinforcing for future generations.
---------------------------------------------------------------------------
    \8\ See, for example, Hunger in Children in the United States: 
Potential Behavioral and Emotional Correlate, Pediatrics. Vol. 101 No. 
1 p. e3 (January 1998); Jyoti, D.F., Frongillo, E.A., Jones, S.J. Food 
Insecurity Affects School Children's Academic Performance, Weight Gain, 
and Social Skills. J. Nutr., 135: 2831-2839 (December 2005); Food 
insufficiency and American school-aged children's cognitive, academic 
and psycho-social development. Pediatrics. Vol. 108, p. 44-53 (2001).
---------------------------------------------------------------------------
    Numbers are just that--numbers. Often by focusing just on the data, 
we can lose some perspective about what the numbers mean for the 
nation. Last year, 49.1 million Americans suffered from a lack of food 
security. And almost 25% of children went to school hungry in 2008.
II. Even Where Food Is Sufficient, the Nutritional Value of What Is 
        Eaten Is Questionable
    While hunger and food security have to be of primary concern to all 
of us, even those homes that are secure in their yearly food supply 
face problems. It is no secret that obesity continues to rise in 
America. Of immense concern is the rate of obesity among children, 
which is increasing exponentially. According to information provided by 
the Centers for Disease Control and Prevention,\9\ an estimated 17 
percent of children and adolescents between the ages 2 and 19 are 
obese. Among pre-school age children (those 2 to 5 years old), obesity 
increased from 5% to 10.4% between 1976-2008 and from 6.5% to 19.6% 
among 6-11 year olds. Among adolescents aged 12 to 19, obesity 
increased from 5% to 18.1% during the same period.
---------------------------------------------------------------------------
    \9\ See http://www.cdc.gov/obesity/childhood/index.html.
---------------------------------------------------------------------------
    Childhood obesity has significant long-term effects for the nation. 
Again according to data documented by the CDC, obese children and 
adolescents often remain obese into adulthood--``[O]ne study found that 
approximately 80% of children who were overweight at aged 10-15 years 
were obese adults at age 25 years. Another study found that 25% of 
obese adults were overweight as children. The latter study also found 
that if overweight begins before 8 years of age, obesity in adulthood 
is likely to be more severe.'' \10\
---------------------------------------------------------------------------
    \10\ Id. (internal citations removed).
---------------------------------------------------------------------------
    While a number of factors that have contributed to this marked rise 
in childhood obesity, one significant factor is the change in the 
American diet. The consumption of processed foods and empty calories 
has increased, while the consumption of fresh fruit, vegetables, and 
lean meats has declined. Children now eat significant amounts of junk 
food as part of their diet, and consumption of high-calorie drinks has 
grown. Today's kids consume a diet high in saturated fat and sodium, 
but rarely eat enough fiber or whole grains to support a healthy 
lifestyle. It is no wonder that nearly one in three kids are overweight 
and one in five are obese.
    Even where parents want to provide their family with the most 
nutritious meals possible, they face real challenges because they live 
in a food desert. A food desert is an area that lacks ready access to 
supermarkets or other large grocery stores that stock affordable and 
nutritious food. The growth of food deserts around the country is 
astounding. Nationwide, USDA estimates that 23.5 million people, 
including 6.5 million children, live in low-income areas that are more 
than a mile from a supermarket. Of the 23.5 million, 11.5 million are 
low-income individuals in households with incomes at or below 200 
percent of the poverty line. Of the 2.3 million people living in low-
income rural areas that are more than 10 miles from a supermarket, 1.1 
million are low-income. Conversely, in many of these areas, there is 
ready access to less healthy food alternatives like fast food and 
convenience stores that stock processed foods high in fat and sugar.
    The correlation between a lack of access to nutritious food and 
less healthy eating should not be ignored when considering how to 
promote better food choices. Only 2% of children currently eat a 
healthy diet (moderate in saturated and trans fat, sodium, and calories 
with recommended amounts of fruit, vegetables, whole grains, and low-
fat dairy). Better nutrition, in the short term, has been shown to 
yield better academic performance, especially with regard to breakfast 
and can effect behavior. In the long term it is a cornerstone of a 
healthy lifestyle which can reduce the risk of diseases such as heart 
disease, cancer, stroke and diabetes which can ultimately be a great 
cost to our society.
III. Scripps Networks Interactive and Food Network Are Working to 
        Combat Food Scarcity and to Promote Healthy Eating
    There is no single solution to the problems of hunger and nutrition 
in America. It will take a combination of policy changes, private 
sector initiatives, and hard work to help Americans have access to 
adequate amounts of healthy, fresh food each day to support a balanced 
diet. It has taken decades to change how we eat, and it may take 
decades more to unlearn many of the bad habits we all have when it 
comes to food.
    Education, though, is one of the fundamental keys to helping 
American families change their eating habits and approach to food. 
Through my show Healthy Appetite and through the Food Network website 
and magazine, I inspire people to eat nutritious, fresh foods by 
providing delicious, accessible recipes as well as tips for navigating 
restaurants and grocery stores and managing a healthy lifestyle. I 
strive to follow the USDA guidelines for all of my recipes and teach 
the perspective of balance and moderation as opposed to dieting and 
extremes. Healthy Appetite is fueled by a passion for delicious healthy 
food and shows you how to have the foods you love in a healthier way.
    My hope is that my show, along with the other shows on the Food 
Network, can help reverse the seeming loss of cooking skills amongst 
Americans. As schools turn away from electives like home economics and 
families spend fewer meals at home eating together, it seems, at least 
from my perspective, like the nation has lost its cooking heritage. My 
hope is that my show and others can remind Americans that being in the 
kitchen is an asset both to themselves and to their families.
    I was taught during my master's program in nutrition that the goal 
of nutrition education is not simply to provide knowledge but rather to 
affect behavior change. The most effective way to do that is to reach 
someone in the head, the heart, and the hands. That is, to address 
knowledge, motivation, and skills. People need to be educated about 
good food, good nutrition, and the value of having a diet rich in fresh 
whole foods. They also need to remember what it is like to love to eat 
well, be motivated to change their diet, and to be inspired to try new 
foods. Finally, people have to be taught how to prepare healthy foods 
in their own kitchens. I strive to incorporate all three of these goals 
into Healthy Appetite.
    Food Network, and its parent company Scripps Networks Interactive, 
also are playing a key role in trying to change the eating habits of 
Americans. Scripps is the leader in family-friendly lifestyle 
programming and seeks to promote healthy food choices across its 
various TV channels and websites. Through its websites and television 
programming, Scripps serves as a resource for educational materials 
about healthy eating. At the same time, as people watch my show and 
others on Food Network, I hope that they are inspired by new and 
different recipes and are motivated to go into their kitchen and fix a 
meal. Finally, both Scripps's websites and Food Network shows teach 
people the skills necessary to prepare food at home--those same skills 
that seem to have been lost in recent years.
    Food Network has several television shows devoted to exploring 
nutrition in the home and helping families create healthy meals with 
inexpensive and readily-available foods. Besides Healthy Appetite, many 
episodes of Rachael Ray's 30 Minute Meals focus on preparing vegetarian 
dishes and other meals that encourage people to incorporate fresh 
fruits and vegetables and other nutritious whole foods into their daily 
meal plans. Likewise, Boy Meets Grill with Bobby Flay emphasizes 
lighter meal preparation by grilling and the use of fresh, local 
ingredients. In May, Scripps will launch a new network, Cooking 
Channel, which will include a new show hosted by Emeril Lagasse titled 
Fresh Food Fast.
    On the web, where Scripps's food-related websites are the highest 
rated and most visited on the Internet (with about 13 million unique 
visitors each month), FoodNetwork.com and its sister website, 
HealthyEats.com, both provide a vast amount of information to promote 
better food choices and nutrition education. The Healthy Eating section 
of FoodNetwork.com features Meal Makeovers, which takes comfort foods 
and reinvents them with lighter ingredients and substitutions for 
healthier eating. Healthy & Fast, another section of the 
FoodNetwork.com website, features advice from dietitian Dana Angelo 
White and Food Network chefs on ways to prepare fast and fresh weekday 
meals. On HealthyEats.com, Food Network nutrition specialists provide 
consumers with the latest tips, nutrition news, low-calorie recipes and 
easy ideas for adding fresher, more wholesome foods to your life, 
including information on eating healthy during pregnancy and gluten-
free eating.
    Food Network also partners with not-for-profit organizations as 
part of its commitment to promote food access and childhood nutrition. 
Share Our Strength is Food Network's national public affairs partner, 
with the two organizations joining together to create the Good Food 
Gardens initiative. The mission of the Good Food Gardens is to educate 
families on the importance of fruits, vegetables and other fresh, 
nutritious foods--key ingredients to ending childhood hunger. Using the 
Teich Garden Systems, Food Network's Good Food Gardens are educational, 
outdoor classrooms that offer children fun, hands-on gardening 
experiences that inspire healthy eating habits for life. Food Network 
has underwritten the creation of 14 Good Food Gardens across the 
country, with four more to be opened in 2010. Current Good Food Garden 
locations are:

  <bullet> Boys & Girls Clubs of San Francisco, CA;

  <bullet> Center for Community and Family Services, Altadena, CA;

  <bullet> Care & Share Food Bank, Colorado Springs, CO;

  <bullet> Joseph Arthur Middle School, O'Fallon, IL;

  <bullet> West Side Elementary School, Greer's Ferry, AR;

  <bullet> Children Aid Society, New York, NY;

  <bullet> SEED School of Washington, D.C.;

  <bullet> Theodore Roosevelt High School, Washington, D.C.;

  <bullet> ArtSpace Charter School, Swannonooa, NC;

  <bullet> Boys & Girls Club of Palm Beach, West Palm Beach, FL;

  <bullet> Community School 211 The Bi-Lingual School, New York, NY;

  <bullet> Fulton Houses, New York, NY;

  <bullet> Harlem Children's Zone, New York, NY; and

  <bullet> Naoma Donnelley Haggin Boys & Girls Club, Delray Beach, FL.

    Beginning in 2010, Food Network and Share Our Strength will expand 
our educational partnership, developing initiatives to focus on three 
critical areas: (1) Operation Frontline; (2) healthy school breakfasts; 
and (3) education on smart food choices with food stamps. Food Network 
is particularly happy to be a part of Operation Frontline, a notable 
success for Share Our Strength. The program provides seven specialized 
curricula that cover nutrition and healthy eating, food preparation, 
budgeting and shopping. Operation Frontline's culinary and nutrition 
volunteers teach these high-quality, cooking-based courses at a variety 
of community-based agencies--including Head Start centers, housing 
centers and after-school programs--with neighborhood locations that 
make it easy for families to attend. Share Our Strength's data on the 
program reveal the value of nutritional education:

  <bullet> 87% of Adults report improving their cooking skills after 
        graduating from an Operation Frontline course, which means 
        they're better equipped to make healthy meals for their 
        families at home.

  <bullet> 96% of kids who take Operation Frontline's Side By Side 
        course enjoyed cooking alongside their parents during class, an 
        important element in continuing to prepare and eat healthy 
        meals together as a family and teaching necessary skills to 
        future generations.

  <bullet> After participating in Operation Frontline, at least 69% of 
        adults said they were eating more fruit and vegetables than 
        before the course.
IV. Congress Must Be Cognizant of Food Access and Nutrition Issues as 
        It Develops National Food Policies
    Congress plays an essential role in promoting access to healthy 
foods, particularly through Federal food assistance programs. Nearly 
one out of every five Americans uses one of the USDA's food assistance 
programs each year. According to USDA's own study of food security, 55% 
of all food insecure households receive food assistance from either the 
School Lunch program, SNAP/food stamps, WIC, or some combination of 
these programs. About 20% of food insecure homes also turned to food 
pantries to help supplement the food they had at home, and 2.6% ate one 
or more meals at a soup kitchen sometime during the year.
    Federal food assistance programs are also vital to preventing 
hunger amongst children. Information gathered by Share Our Strength 
about how children use Federal food assistance programs is startling:

  <bullet> Nearly half of American children will receive food stamp 
        support in their lifetime.

  <bullet> 17 million children benefit from SNAP assistance on average 
        each month.

  <bullet> An average of 9.2 million American women and children under 
        the age of 5 received WIC assistance each month last year.

Simply put, if it was not for government support through these 
programs, we would have even more hungry kids in this nation.
    The most important food support programs for children in this 
country are the National School Lunch and National School Breakfast 
programs. Again, according to data relayed by Share Our Strength, 19.5 
million American children ate free or reduced-price lunches each school 
day last year. As with the indices of hunger discussed above, that 
number has been increasing; last year, 859,000 more children utilized 
the free or reduced-price school lunch program per day compared to 
2008. 8.8 million children on average used the free or reduced-price 
school breakfast program each school day in 2009, but 10.1 million 
children across the nation who were eligible for free or reduced-price 
school breakfasts did not receive them last year, even though they 
received free or reduced-price school lunches.
    I am glad to see that Congress and the Obama Administration are 
taking proactive steps to make the school lunch program, and all of the 
Federal food support programs, healthier and more robust. The steps 
taken by this Committee to reform the SNAP/food stamp program through 
the Food and Nutrition Act of 2008 (part of the 2008 Farm Bill) were 
quite welcome. Unfortunately, low-income families often try to stretch 
their food budget by purchasing cheaper, more caloric foods that while 
filling, contribute to obesity and other problems that can be 
alleviated with a healthier diet.\11\ By raising the SNAP/food stamp 
monthly benefit allotment and promoting the purchase of fresh fruits, 
vegetables, and healthier food alternatives, this Committee and the 
Congress have taken a good first step toward encouraging families to 
eat healthier meals and educate children about healthy eating. 
Additionally, the $1 billion in the bill to provide support for the 
purchase of fruits and vegetables by schools will help to deliver fresh 
foods to students.
---------------------------------------------------------------------------
    \11\ The Food Research and Action Center has documented the 
relationship between hunger and obesity. See http://www.frac.org/html/
hunger_in_the_us/hunger&obesity.htm.
---------------------------------------------------------------------------
    As the mom of a school-aged child, I am particularly happy that 
First Lady Michelle Obama has focused her attention on the epidemic of 
childhood obesity. I think her work to get the private sector to agree 
to set standards for what is sold to students at school is welcome, as 
well as her encouragement to those same companies to produce healthier 
foods and reveal more nutritional information to consumers. I am also 
very interested in the upcoming renewal of the Child Nutrition Act this 
year and applaud the Senate Agriculture Committee's action on the 
Healthy, Hunger-Free Kids Act of 2010 last month. I think that bill 
contains some very good ideas about how we should approach healthy 
eating in schools:

  <bullet> The bill would set national nutrition standards for all 
        foods sold by schools, not just meals. It also creates an 
        incentive for schools to comply with heightened nutritional 
        standards for their meals.

  <bullet> The bill would provide additional training to school food 
        service personnel on healthy eating.

  <bullet> The bill would provide Federal support for the creation of 
        school gardens to educate kids about fresh fruits and 
        vegetables.

  <bullet> The bill would also provide funding to schools to help them 
        purchase fresh, locally-sourced produce to be used in school 
        breakfasts and lunches.

    I strongly support the move by the bill to set nutritional 
standards for all foods sold in schools, particularly for snack foods. 
Snacks now account for 27% of children's daily caloric intake and much 
of that is of low nutritional value. We should strive to create a total 
environment of healthy living in the schools, both curricular and 
extracurricular, by providing standards for vending machines, a la 
carte foods, snacks, and after-school offerings. I also really 
appreciate the Senate's work on the summer lunch program. It is 
important to provide healthy food assistance to school children 
throughout the year, and school summer lunch programs are often very 
under-utilized opportunities for kids to get healthy meals. I hope the 
Congress moves forward with this legislation this year.
    I think that the Healthy School Meals Act of 2010, introduced by 
Representative Polis a few weeks ago, offers a few good ideas on 
childhood nutrition and food availability. Healthy eating should start 
young, and I think giving schools additional support to help them 
provide vegetarian meal options will expose kids to new, healthier 
foods. I also would encourage Congress and the Committee to look at 
several other issues related to food and nutrition when considering 
reforms to its food assistance programs:

  <bullet> Congress should require or provide incentives for the 
        employment of or consultation with qualified nutrition 
        professionals to aide in implementing school food service and 
        wellness policies. Congress also should consider providing 
        incentives to schools and school districts to implement, 
        assess, and enhance these wellness policies.

  <bullet> Congress should help fund, or encourage states to fund, 
        infrastructure improvements that will enable schools to prepare 
        and store healthier foods and provide adequate movement space 
        for children to be active.

  <bullet> Congress should support and enhance nutrition and physical 
        education programs especially those that are experiential, 
        inspirational and skill building, such as cooking workshops, 
        food growing, farm visits, and similar events.

  <bullet> Congress should encourage Federal food assistance programs, 
        along with the U.S. Department of Agriculture, to emphasize the 
        nutritional value of including whole foods in your diet rather 
        than processed foods. Often we take a numerical approach to 
        determining what is healthy by only looking at things like fat, 
        sugar, and calories. Unfortunately, that numerical approach 
        encourages people to continue to eat processed foods that, 
        while meeting the numerical definition of what might be 
        considered healthy, are far less nutritious than comparable 
        whole foods. Educating people to take a macro approach to 
        nutrition, rather than a numerical approach, would be a 
        tremendous step toward encouraging much better food decisions.

    I truly appreciate the opportunity to appear before you today on 
behalf of Scripps Networks and the Food Network. Together, we can make 
this country a healthier place to live. I look forward to your 
questions.

    The Chairman. Thank you very much, Ellie.
    Just to remind the rest of the members, I know that we have 
5 minutes each, and I will allow a little liberty there in 
allowing you to go beyond the 5 minutes, because I know that 
you have taken the time to be here and this is very valuable 
information. I just wanted to remind you of that.
    Next I would like to call on Vicki Escarra, President and 
CEO of Feeding America in Chicago, Illinois.

  STATEMENT OF ROCCO DiSPIRITO, COOKBOOK AUTHOR AND CHEF, NEW 
 YORK, NY; ACCOMPANIED BY VICKI B. ESCARRA, PRESIDENT AND CEO, 
                  FEEDING AMERICA, CHICAGO, IL

    Ms. Escarra. Good morning. Thank you, Mr. Chairman, and 
Members of the Subcommittee, for the opportunity to talk to you 
as well about the problem of healthy food access for millions 
of hungry Americans and how the Feeding America Food Bank 
Network is working on this problem.
    I must begin by thanking you all, especially you, Mr. 
Chairman, for your leadership with the recent farm bill, really 
supporting healthy nutrition programs. So on behalf of our 
network, thank you.
    With me today is Rocco DiSpirito. As a member of our 
entertainment council, Rocco is very interested in helping to 
end hunger in America. He is an award-winning chef, an author, 
and dietician for all Americans. He will tell you about some of 
the recent findings that we have released in our National 
Hunger Study that face and actually show the challenges that 
poor people face in achieving healthy diets.
    I would like to just mention a few highlights before I turn 
it over to him, and that is that Feeding America is the largest 
hunger relief organization in the United States. It is also the 
largest charity that combines public and private partnerships. 
We are over 200 members. We support 61,000 agencies that reach 
37 million Americans, 14 million children. We work with roughly 
one million volunteers.
    A little bit about the Federal Commodity Assistance 
Program. It is essential to our network. We very much 
appreciate TEFAP and CSFP. Out of the almost 2.7 billion pounds 
of food that we delivered through our network last year, 25 
percent of the food that we delivered came from Federal 
commodities.
    We also know and we have talked a bit today about the many 
low-income Americans who are eligible for SNAP don't 
participate in this critically important program. We see them 
every day in our pantries. You all know that. Rocco will talk 
more about that in just a moment. But a very interesting 
statistic is that we found that only 41 percent of our client 
households reported that they are participating in SNAP, while 
88 percent were actually eligible. So there is big opportunity 
there. More than half of our food banks are doing aggressive 
outreach around SNAP programs.
    SNAP is not the only program that suffers from gaps in 
coverage. Many poor children are without access to child 
nutrition programs when they are out of school: during summer, 
after school, weekends, extended holidays, and such. And so we, 
as well, are very supportive of what is before you all now with 
the Child Nutrition Act reauthorization bill and are very much 
supporting the President's commitment to end childhood hunger 
by 2015.
    I know that we are all concerned about the kinds of food 
that people receive through nutrition programs and the Feeding 
America Network is doing our part. There is more to do in 
making sure that kids and working families across this country 
get healthy, nutritious food. In 2009, our food banks 
distributed over 430 million pounds of privately donated fresh 
fruits and vegetables.
    It is interesting, because we did a piece of work with 
Boston Consulting that was just completed a month ago, that 
shows that over 5-6 billion pounds of produce are grown but not 
brought to market in this country. And so we are working very 
closely with private industry to get the dollars to get those 
fruits and vegetables to families that need them.
    Before I conclude, I want to just touch briefly on the 
crisis our food banks are facing very soon. We are working very 
closely with USDA and with Congress to actually get more money 
around commodities. We are seeing declining dollars as a result 
of money that we saw from the stimulus package. And so more 
about that in the days ahead.
    But, simply put, you all know that the Brookings Institute 
did an analysis with OMB and CBO that projects unemployment 
rates will stay between eight and ten percent for the next 2 
years, so we are not going to see a decline in the need that is 
out there anytime soon.
    Concluding thoughts: I would just say that food banks and 
our local feeding agencies are often the first to see the 
devastated faces of people who never imagined that they would 
be seeking help at food pantries, shelters, or soup kitchens. 
And so we want to thank you so much for having an opportunity 
to share with you our work and our facts today.
    Thank you.
    [The prepared statement of Ms. Escarra follows:]

  Prepared Statement of Vicki B. Escarra, President and CEO, Feeding 
                          America, Chicago, IL
Introduction
    Thank you Mr. Chairman and Members of the Subcommittee for the 
opportunity to be with you today to talk with you about the problem of 
food access for low income populations and the role that food banks 
play in providing access to healthy and nutritious foods. I also want 
to thank you and your colleagues for your leadership in the fight to 
end hunger in this nation.
    As you know, our network and those we serve are greatly dependent 
upon the nutrition and commodity donation programs authorized by the 
Farm bill. We are very grateful to your Committee for the truly 
historic nutrition title in the last Farm bill (the Food, Conservation, 
and Energy Act of 2008), and for your on-going support for these 
critically important programs that help feed and nourish the hungry of 
this nation.
    With me today is, Rocco DiSpirito, who is a member of our Celebrity 
Council. Rocco is a renowned and wonderful chef and a dedicated 
advocate in the fight to end hunger and promote nutritious and healthy 
diets for all Americans. Rocco will talk about his commitment to ending 
hunger, sharing some stories of people who have been served through our 
programs. He also will provide information on our hunger study and 
discuss some of the challenges that poor people face in achieving 
healthy diets.
    I have submitted full written testimony for the record and will 
briefly highlight the major points of that testimony and then turn it 
over to Rocco for his remarks. If we are lucky, he may even share some 
of his gastronomic secrets.
    As President and CEO of Feeding America, I am pleased to be able to 
share with you information on the many creative and innovative ways 
that our 200 food banks provide access to nutritious foods for over 37 
million people served by more than 62,000 local charitable feeding 
organizations.
Food Banks and the Access Challenge
    Addressing food access is an integral part of the mission of 
Feeding America food banks. In addition to food boxes and congregate 
meals at pantries, soup kitchens and shelters, our network reaches out 
into local communities as well through mobile pantries, community 
gardens, senior centers, afterschool and out-of-school programs.
    The main sources of Federal support for food banks are The 
Emergency Food Assistance Program (TEFAP) and the Commodity 
Supplemental Food Program (CSFP). Though only a small part of our 
overall food distribution, food provided through these programs 
provides the firm foundation for most of our anti-hunger efforts. These 
programs make it possible for our network to distribute millions of 
pounds of nutritious foods to the food pantries, shelters, soup 
kitchens, and senior nutrition programs. They also support the farm 
economy by providing an outlet for surplus or price supported 
commodities.
    Feeding America food banks are the largest user of commodities 
provided through The Emergency Food Assistance Program (TEFAP). This 
program provides a consistent source of food that allows many feeding 
agencies to keep their doors open, and as noted below, helps us 
leverage private, charitable donations to significantly expand the 
total amount of food and resources we are able distribute through our 
food bank network.
    In FY 2009, Feeding America food banks distributed a total of $2.2 
billion worth of food to local charitable feeding agencies; 
approximately $436 million of this total came from commodities bought 
with The Emergency Food Assistance Program (TEFAP) and the Commodity 
Supplemental Food Assistance Program (CSFP) funding.
    The reliable Federal support provided for nutrition programs and 
policies allows our network to tap into a wide array of private 
donations and partnerships with corporate donors and sponsors that help 
to stretch Federal dollars many times over.
    Last year the Feeding America network distributed over 2.6 billion 
pounds of food to hungry people. Federal commodities made up about 25 
percent of this total; donations to local food banks brought in some 33 
percent; national partnerships provided 28 percent and we purchased 
some 15 percent of all the food distributed. This shows the multiplier 
effect that a relatively small investment of Federal commodities can 
have, and demonstrates a remarkably high return for the millions in 
this country who rely on food banks and their community feeding 
organizations.
    In addition to providing nourishment to those in need, our network 
is heavily involved in promoting and helping hungry people to access 
other nutrition programs, like SNAP, Child Nutrition, and WIC.
Filling the Gaps
    Low rates of participation in the Supplemental Nutrition Assistance 
Program (SNAP) are another area where food banks are working to improve 
access. Recognizing the enormous importance of SNAP to meeting the goal 
of ending hunger, our network has invested heavily in efforts to help 
our eligible clients gain access to SNAP benefits. As the Committee 
well knows, too many people who are eligible for SNAP benefits are not 
receiving them. USDA data show that about \1/3\ of those who are 
eligible for SNAP do not participate in this program (the proportion is 
much higher for elderly).
    Our own data from the recent study of Feeding America clients 
(Hunger in America, 2010) confirms low rates of participation among 
potentially eligible households. According to this study, 88 percent of 
households served by our food banks reported incomes below 130% of the 
Federal poverty level, the income cut-off for SNAP eligibility. Yet, 
only 41% of our client households were participating in SNAP.
    Our food banks are committed to addressing this problem by 
conducting outreach and working with local Federal, state and local 
SNAP agencies to offer on-site application assistance to clients 
struggling with the difficult and time-consuming process of qualifying 
for these critically important benefits. Food bank workers and 
volunteer are receiving rigorous training to help potentially eligible 
families learn about SNAP and its benefits. They offer on-site 
assistance to help clients fill out applications so that they can be 
quickly certified by public agencies and receive SNAP benefits. We hope 
that our SNAP partnership with USDA and with state and local 
authorities will continue, and that it can be expanded through waivers 
and other methods to help more eligible households secure SNAP 
benefits.
    Many of our food banks are expanding efforts to fill the gaps in 
child nutrition and other programs, as well. With support from the 
Federal child and adult care food program, our network operates 
afterschool nutrition programs for children in low-income areas. These 
Kids Cafe<SUP>'</SUP> programs offer nourishing snacks or meals and 
activities that keep children safe after school. More recently, we have 
undertaken efforts to reach poor children through weekend nutrition or 
BackPack programs that provide nutritious meals for poor school 
children to take home on weekends. Much more needs to be done to 
improve access to healthy foods for the millions of low income children 
when schools are out of session and child care facilities are not 
available to them.
Safe and Nutritious Food
    Quality is a priority for the Feeding America network of food 
banks. They work hard to ensure that the food which is bought or 
donated and distributed to those in need is safe and nourishing.
    Food banks strive to design food packages and meals that are 
balanced, nourishing and protein rich. In addition to providing healthy 
foods, our network helps educate clients about nutrition and the value 
of a healthy diet. This work includes education and instruction from 
registered dieticians and community nutritionists, as well as 
distribution of recipes and hands-on cooking lessons for adults and 
children. Utilizing grant awards for innovative programs, food banks 
are developing creative ways to instruct clients about the value of 
good nutrition and how to incorporate healthy eating into their diets 
with limited resources. SNAP nutrition education funding also is being 
utilized to develop instructional classes on healthy eating and cooking 
for families that qualify for SNAP benefits.
    Over the years we have expanded storage capacity and refrigerated 
trucks to increase distribution of fresh foods, especially fruits and 
vegetables. This allows our food banks to intensify efforts to raise 
donations of, and funding for greater quantities of fresh produce. Our 
commitment to the cause of healthy eating is demonstrated by the 
extraordinary increases in the amounts of fresh produce distributed by 
network food banks.
    Over the past 10 years, the volume of privately funded and donated 
fresh fruits and vegetables that Feeding America food banks distribute 
to the needy has nearly tripled--growing from 150 million lbs. in 1999 
to over 430 million lbs. of fresh produce in 2009. Accompanying this 
are community garden projects and leasing arrangements with local 
farmers to harvest their food products.
    Finally, our national office closely monitors product recalls and 
issues recall alerts to food banks immediately when there is a USDA or 
industry food product recall. In every case, food banks and affiliated 
agencies go through their inventory to remove and destroy recalled 
products. This may sound simple, but it involves a significant 
investment of time and effort when the food product, like the recent 
peanut recall, is contained in a variety of end products like cereals, 
nutrition bars and other foods.
Commodity Distribution Programs
    TEFAP: As you know, the 2008 Farm bill contained a substantial 
increase in mandatory funding to buy commodities for TEFAP. This 
increase helped offset erosion in the value of funding for commodities 
that had been frozen at the same level for the previous 5 years. More 
significantly, it offset much of the loss in bonus commodity donations 
that had been falling dramatically for several years and which 
emergency feeding agencies had come to rely upon.
    The funding increase in the new Farm law was a blessing and helped 
emergency feeding agencies replenish their declining stocks, at least 
for awhile. By FY 2009, however, as economic conditions continued to 
worsen and more and more people were seeking food assistance, emergency 
feeding agencies again were facing food shortages. The Congress 
included $100 million in additional funding for TEFAP commodity 
purchases for FY 2009-2010 in the American Recovery and Reinvestment 
Act (ARRA). This has enabled many emergency feeding agencies to 
continue serving the growing numbers of people coming to them for help.
    In 2010, economic conditions, although improving, are not expected 
to significantly alter the bleak unemployment figures, which continue 
to hover around 10% nationally and much higher in hard hit regions of 
the country. The additional commodities bought with the ARRA funding 
will run out early this April. Meanwhile, changes in the farm economy 
and a cap on the use of Section 32 funds for bonus commodity purchases 
are expected to substantially reduce bonus commodity donations to 
TEFAP. Bonus commodities provided for emergency feeding programs in FY 
2010 are expected to be about $181 million, less than half the FY 2009 
level, and are projected to fall even lower in FY 2011.
    There is no indication that the numbers of people coming to food 
banks for help (already at record levels) will abate while unemployment 
remains high, which most economists predict will be the case for some 
time to come. Many food banks and emergency feeding agencies already 
are struggling and well may be facing the prospect of empty or 
seriously depleted food stocks by the end of the year if no additional 
commodities are forthcoming.
    Feeding America estimates that an additional $250 million in 
commodity assistance is needed to cover the TEFAP commodity shortfall 
this year and to ensure that service can be maintained for the rest of 
this fiscal year. We recommend that the Congress approve this 
``emergency funding'' as quickly as possible and hope that the House 
Agriculture Committee will support this proposal.
    Infrastructure Grants: The Administration budget request proposes 
to zero out the $6 million in funding for TEFAP infrastructure grants 
that were authorized by the 2008 Farm bill and finally funded by FY 
2010 agriculture appropriations. These grants, just recently announced 
by the Administration for FY 2010, are critically important to help 
food banks with the costs of maintaining and improving their facilities 
and equipment and ensuring safe food storage and handling. Many of our 
food banks, particularly those located in rural areas are struggling to 
update their facilities and equipment. Efforts to increase the amount 
of fresh fruits and vegetables for distribution are hindered by 
outdated refrigeration and storage units. Moreover, the poor economy in 
many regions is handicapping efforts to raise sufficient private 
funding for capitol improvement projects. We hope that the Committee 
will support the continuation of funding for these projects when the 
House takes up FY 2011 agriculture appropriations legislation.
    Commodity Supplemental Food Program (CSFP): More than \1/3\ of 
Feeding America food banks operate CSFPs in states approved for this 
program. We are pleased that your Committee has long-supported the 
CSFP, which is critically important to so many needy elderly and young 
mothers and children. The addition of new states to this program last 
year has opened the way for many more hungry people to receive the 
nourishment they need. It is our hope that caseloads in states with 
programs can be increased and that over time more states and localities 
will be able to offer CSFPs. The decline in bonus commodities available 
to this and other nutrition programs is worrisome, and we hope that 
this does not impede progress in reaching the many people, especially 
seniors, who require the nutritious supplemental food packages provided 
by the CSFP.
Innovative Programs for Children
    Child Nutrition programs are the foundation upon which to build a 
nation where all of our children have access to the nutritious foods 
essential to help them learn and thrive and lead healthy and productive 
lives. It is critically important that comprehensive child nutrition 
reauthorization legislation be enacted this year, and that enough 
funding be provided to make this happen.
    Too many low-income children in this country are unable to access 
child nutrition programs when they need them. For example, only 2.2 
million children participate in the Summer Food Service Program, which 
is targeted to children living in low-income areas. This compares to 
some 19 million low-income children receiving free and reduced price 
school lunches during the school year. Summer food and child care 
feeding programs are handicapped by excessive sponsor requirements, 
proscriptive eligibility rules and administrative and paperwork burdens 
that limit access to these programs and reduce cost efficiencies. At a 
time when state and local governments are struggling with budget 
cutbacks, these administrative barriers hinder sponsorship of Federal 
nutrition programs that could help millions of children without adding 
fiscal burdens to states and communities.
    Recognizing the many gaps in our child nutrition programs, our food 
banks are extensively engaged in promoting and feeding children through 
innovative child nutrition programs. Along with providing food to over 
14 million children through our food pantries, shelters and soup 
kitchens, our food banks operate more than 1,600 Kids Cafes<SUP>'</SUP> 
serving more than 115,000 children each year. These after school 
programs are able to operate with support from the Child and Adult Care 
Food program and private donations. They are run in a wide variety of 
local settings like Boys and Girls clubs, churches, community centers, 
and schools. Kids Cafe<SUP>'</SUP> programs had their origin in 
Savannah, Georgia, in 1989 after two young brothers were found late one 
night in a housing project community kitchen looking for something to 
eat.
    More recently, our food banks have taken on the issue of gaps in 
our child nutrition programs by initiating weekend feeding programs for 
low income children. These programs, commonly known as BackPack 
programs, operate in partnership with local schools and community 
agencies and provide child-friendly, non-perishable, nutritious foods 
for children to take home on the last day before a weekend or school 
holiday. BackPack programs originated in Little Rock, Arkansas after a 
school nurse contacted the local food bank to ask for help when she 
noticed that many children were coming to her on Mondays complaining of 
stomach aches and dizziness. There now are more than 140 Feeding 
America members and partner organizations operating 3,600 BackPack 
programs that serve more than 190,000 children.
    The Administration FY 2011 proposes to increase funding for child 
nutrition programs by $1 billion annually (or $10 billion over 10 
years) to make changes to these programs that will help achieve the 
President's goal of ending childhood hunger by 2015. Feeding America 
fully supports the President's ambitious and achievable goal and budget 
proposal.
    Feeding America recommends that changes to child nutrition programs 
be accomplished this year to expand their quality and reach to all 
children, and that these changes fill the gaps in current services for 
low-income children. Our priorities call for (1) expanding the reach 
and quality of foods for hungry children in schools, child care, After 
school and summer sites; (2) providing start-up funding and outreach to 
increase the number of Summer Food Service programs in unserved and 
underserved areas; (3) funding innovative programs, like the BackPack 
Program, to help hungry children when they do not have access to 
nutrition programs, and (4) better coordinating programs and 
streamlining and simplifying rules that prevent or hinder the operation 
of child nutrition programs.
    We hope that the Agriculture Committee of the House will support 
new funding to make the needed improvements to child nutrition programs 
so that all of our children can grow and learn and lead healthy and 
productive lives.
Concluding Thoughts
    Food Banks and local feeding agencies often are the first to see 
the devastated faces of those who never imagined that they would be 
seeking help at a food pantry, shelter, or soup kitchen. The charitable 
sector has truly stepped up to try and serve the growing numbers of 
those in this nation who are hungry. Nonetheless, as we learned in the 
Great Depression and are reminded of in the current Great Recession, 
charity alone cannot meet the need.
    The government and charitable sector must work together and Federal 
nutrition programs must be the solid foundation upon which to finish 
the work of finally ending the scourge of hunger in this nation. No one 
in this country should have to wonder where their next meal will come 
from, or how they will afford to buy nutritious foods for their 
families.
    Thank you so much for allowing me to present this testimony. I hope 
you will not hesitate to contact me or my colleagues in our Washington 
policy office if we can be of assistance in helping you and the 
President finally put an end to hunger among children and for all of 
those living in out great nation. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you very much.
    Before we go on, I would just like to state that Rocco, in 
2003-2004, had an NBC reality show, The Restaurant, and was a 
contestant on the seventh season of ABC's Dancing with the 
Stars. So some of us are very envious of that. My wife watches 
it every Monday night. I said maybe I should be out there 
dancing with the stars then she would be watching me. Thank you 
very much. He also appeared as guest judge on Bravo's Top Chef 
and NBC's Biggest Loser.  With that, Rocco.
    Mr. DiSpirito. Thanks for establishing my impressive 
credentials. Before I get started, I just want you to know that 
In-N-Out Burger is one of the only quick-serve restaurants that 
happens to use a couple of fresh ingredients. So don't feel too 
bad about your choices. They are actually pretty good.
    Thank you for having me here today to share my thoughts 
about the challenge of food access for low-income Americans and 
food bank programs. I am a chef and author of several 
cookbooks; most recently, one directed at making healthy food 
choices. I am shocked and appalled by the number of people in 
this nation who are hungry and unable to secure the nourishing 
foods that most of us take for granted.
    In 2008, over 49 million people were found by the 
Department of Agriculture to be food insecure, or hungry. That 
is an increase of 13 million, or two percent, above the 2007 
figures. It represented 16.4 percent of the civilian 
population, and included 17 million children. These findings 
were before the huge spike in unemployment occurred in 2009, so 
God only knows what we are dealing with now.
    Feeding America and food banks have been struggling with 
this alarming rise in hunger. I have seen it myself. I have 
been to the food banks in New York and I have met the lovely 
people who are their clients. They are actually running out of 
food now. There was a time when they didn't run out of food, 
and now they are.
    Let me share a few facts from their national study, Hunger 
in America, 2010. The study looks at the numbers of people 
using food banks in 2009, but it is about much more than 
numbers; it puts a face on hunger in 2009 of the 37 million 
people that sought food assistance from Feeding America food 
banks. Children made up nearly 14 million, as we said earlier, 
of all food bank clients, a 50 percent increase since 2005. 
Among racial and ethnic groups, the greatest increase in terms 
of number of people was among adult Hispanic clients.
    More than 11 million of the adults served by food banks 
were unemployed, 3.2 million of them for just less than a year; 
41 percent of households reported that a member received SNAP 
benefits. Recipients reported a variety of reasons why they 
needed emergency food assistance. Among them were difficulty 
choosing between buying food and paying for utilities, heating, 
or medical bills. That is 6.7 million households. Having to 
choose between medicine or medical care and food, five million 
households; buying food or making the rent or mortgage 
payments, these are not choices any of us would like to make.
    And the real people behind these numbers--I will identify 
them by first names only--Lisa and David and their two young 
kids needed food bank assistance when they lost their family 
business and couldn't get by on David's low-wage job. Candy and 
James had their home foreclosed on after Candy lost her job. 
Crystal, a college student, needs food from the pantry for 
herself and her brother to pay the rent and stay in school. 
Healthy eating is a challenge for all Americans, especially for 
the low-income people and families. Busy schedules too often 
make fast foods the easy menu choice, particularly when parents 
are not at home for meals. The location of a grocery store, as 
we talked about earlier, variety of and food prices can limit 
access to healthy foods.
    Understanding nutrition and the right foods and how to 
prepare them is also a factor in poor diets. But the most 
serious problem for low-income families is that their limited 
income and resources prevent them from having access to the 
food they need. As the USDA experts have reported, many low-
income people have diets that fall short of the recommended 
servings of fresh fruits, vegetables, whole grains, and low-fat 
dairy products.
    Feeding America food banks are engaged in efforts to 
increase the amount of fresh fruits and vegetables. In 2009, 
network food banks distributed over 430 million pounds of 
donated fresh produce, nearly triple the level distributed in 
1999. They are also developing nutrition and education programs 
that stress the importance of fresh produce, whole grains, 
dairy, and good health. I have actually participated in a 
couple of them. And I have to say that the clients were very 
eager to learn about cooking, preparation of nutritious foods. 
And we are very excited about it.
    I think we should expand nutrition education and 
instruction as an essential way to help people access and 
consume the right foods. Feeding America food banks have 
developed innovative and creative programs across the country 
to help families learn how to make the best use of the foods 
they receive. They are also offering instruction on the 
importance of nutrition to health and how to use limited food 
dollars and SNAP benefits to achieve a balanced diet.
    I have a lot more thoughts but I know we are running out of 
time. I just wanted to end with this. U.S. hunger costs America 
$126 billion a year. According to some people, we can end this 
problem for $33 billion a year. Hungry children learn less 
effectively. Hungry adults have more difficulty getting jobs 
and keeping them. Hunger causes diseases that cost tens of 
billions of dollars; 49 million Americans who are food insecure 
spent $13 less a week on food than the non-hungry. That is the 
$33 billion shortfall.
    Thank you so much for allowing me to offer my thoughts 
today. I appreciate it.
    [The prepared statement of Mr. DiSpirito follows:]

 Prepared Statement of Rocco DiSpirito, Cookbook Author and Chef, New 
                                York, NY
Introduction
    Good morning, and thank you for inviting me to share my thoughts 
about the important topic of the hearing you are holding today. As you 
know, I am a chef and author of several cookbooks that offer recipes 
for health and flavorful eating. I am also a citizen of this country 
who is shocked by the number of people in this nation who are hungry 
and unable to secure the healthy and nourishing foods that so many of 
us take for granted.
    I am a strong proponent of healthy foods and good nutrition, and I 
find it difficult to reconcile the fact of the alarming obesity rate in 
this country with the data showing that there are so many hungry 
people. But as we all know, obesity is about more than poor food 
consumption and there is more than just one villain in this story. 
Changing one's diet cannot take the place of exercising; nor can 
plunking down at a television, or computer or game terminal for hours 
on end. Moreover, I know that eating healthy requires challenges that 
many in this nation, rich and poor, find difficult to meet. For those 
who are without the means to achieve adequate amounts of food, the 
challenge may be nearly impossible.
    Vicki and her colleagues at Feeding America have helped me 
understand the problem of food access as it relates to those served by 
the network food banks. They also have outlined the special challenge 
this presents for low-income populations whose diets require greater 
amounts of fresh fruits, vegetables, whole grains, and low fat dairy 
that may be difficult to find or afford.
    The findings of the recently released Study, Hunger in America, 
2010 provides national and local date on those seeking help from 
Feeding America food banks and their local charitable feeding agencies. 
It helps to inform us about the causes for poor access to nutritious 
foods. The following are some of the findings of this study.
Hunger in America, 2010
    The worsening economy and an unemployment rate hovering at ten 
percent nationally and higher in some areas brought a sudden and 
dramatic rise in the number of people seeking food assistance from the 
Feeding America food bank network. Many of those coming to food banks 
in recent months never imagined that they would be seeking food 
assistance at their local pantries and soup kitchens. In fact, many are 
first time users, or people who formerly volunteered at the local food 
pantries of food banks. Many hope that their emergency situation will 
be temporary, and for some this is true but, many others will continue 
to need help for themselves and their loved ones as they struggle with 
chronic illness or disabilities, falling wages, fixed incomes, and/or 
inadequate social security and other benefits. The homeless continue to 
need help from shelters, soup kitchens and food banks. Their number is 
growing to include a whole new class of people who have been caught in 
the downward spiral of housing foreclosures, lost jobs, high mortgages 
and rent, and heavy debt loads.
    The Feeding America study, completed this year (Hunger in America, 
2010) confirms the unprecedented growth in demand for help from food 
banks and their agencies. This study found that in 2009 food banks and 
their local affiliates were serving some 37 million people, an increase 
of 46% over the study findings for 2005 (Hunger in America, 2006). 
Children made up 13.9 million of food bank clients, a fifty percent 
increase above the number of children served in 2005.
    Among racial and ethnic groups, the greatest population group 
increase--66%--was among Hispanics, with numbers rising from 1.8 
million in 2005 to 3 million in 2009.
    Over 11 million of those served by food banks in 2009 were 
unemployed--with 3.2 million of them unemployed for less than 1 year, 
and less than half (41%) of household members reported that someone in 
the household received SNAP benefits.
    When queried about the reason for needing food assistance:

  <bullet> 6.7 million households reported difficulty choosing between 
        buying food and paying for utilities or heating bills;

  <bullet> 5 million households reported having to choose between 
        medicine or medical care;

  <bullet> 5.7 million households reported the choice between buying 
        food and making rent or mortgage payments;

  <bullet> 4.3 million households reported at least one member in poor 
        health;

  <bullet> 3.5 million reported not having health insurance for a 
        family member; and

  <bullet> 6.7 million reported having unpaid medical or hospital 
        bills.

    Unlike a lot of other hunger studies, the Feeding America Hunger 
study is about much more than numbers. It puts a face on hunger, and it 
is a face that many of us can recognize.

        Many of those needing help from food pantries are young 
        families, like Lisa and David and their two children. They lost 
        the family business and couldn't make ends meet even after 
        David found a low-paying job. They needed the local food pantry 
        in the Boston area to supplement their SNAP benefits until 
        David got a promotion and wage increase.

        Candy and James, a middle aged couple, started going to St 
        Paul's Place in Maryland about 10 months ago after Candy lost 
        her job and they had to leave their home because of 
        foreclosure.

        Mary, a senior citizen from Wyoming is diabetic and has spinal 
        arthritis. Despite this, she cuts her own wood to save on 
        utilities. Mary's Social Security doesn't cover her medical, 
        household and food expenses. She needs the Salvation Army food 
        pantry food box to stretch her grocery budget so she can get 
        the food she needs to stay healthy.

        Crystal, a college student in Arkansas studying to be a nurse 
        needs food provisions from the local food pantry for herself 
        and her brother so she can pay the rent and stay in school.

        Katherine, a working mother with two children needs help from 
        the local food pantry in Oklahoma where she gets food and 
        clothing to help her cover heavy medical expenses for her two 
        children, both of whom suffer with serious medical conditions.

        Daniel is 5 years old and the youngest of a family of eight. He 
        and his family came to the local church pantry in Colorado in 
        2008 because it offered a safe place to play and have a meal. 
        Daniel's father is recently unemployed and his mother is 
        putting herself through school by working at a discount store.

        Robin and Russ of Iowa and their four children lost everything 
        when their home was washed away in the Midwest floods of 2008. 
        The emergency shelter set up by a nearby school helped them 
        with a place to stay and they received food and emergency food 
        stamps to help get them through.

        Leanna is a grandmother and volunteer. She relies on the food 
        bank for those times when her disability check and SNAP 
        benefits can't cover monthly expenses.

        Zoey, a young mother of four and her husband lost their rental 
        home after hurricane Gustav. They live out of a motel room and 
        turn to a local soup kitchen for warm meals and bags of food.

        Ginger, a single mother of four in Idaho needed help from the 
        Women and Children Only shelter after her abusive husband left 
        her and her children with no car and $10.77. She is starting 
        her own business in the evenings and works during the day at 
        the local Department of Education.

        Edward, has a chronic illness and is raising four children. His 
        modest disability pay and food stamps are not enough to feed 
        the family and he receives groceries from the local food pantry 
        run through the San Antonio Food bank.

        Angelina is 88 years old and the sole caregiver for her husband 
        of 67 years who has leukemia and diabetes and needs medications 
        and a special diet that is nearly impossible to afford. When 
        their fixed incomes can't cover the mortgage, insurance and 
        utilities, Angelina gets help from St. Theresa's Food Pantry in 
        Rhode Island.

        Lavern, a divorced mother raising six children, lost her 
        construction job and relies on Reaching Out Community Services 
        Food Pantry in New York to supplement her monthly social 
        security and SNAP benefits and meet high rent and utility 
        bills.

        Steve and Judy, a retired couple, rely on Logan Food Pantry's 
        monthly food distribution to make ends meet when their social 
        security and disability checks don't cover their high medical 
        bills.

    The tragedies behind these stories often find hope in the food 
pantries, shelters, and soup kitchens across the country. And, I am 
very humbled to be able to speak on behalf of the Feeding America 
network and the millions of those that they serve.
Food Access and Healthy Eating
    As a chef and long time proponent of healthy living, I am a strong 
advocate of helping people to maintain balanced and nutritious diets 
and to consume meals that are both healthy and appealing. For many 
young families and working parents it is hard to find the time for 
shopping and food preparation. Competing school, work, and other 
activities and schedules often make fast foods the easiest menu choice. 
This does not have to be so if families have the wherewithal to buy 
enough food, understand its nutritional value and long term health 
benefits and know how to prepare and cook meals. This is a big IF for 
low-income families. The challenges for them are much greater. They 
have limited resources to pay for housing, utility and medical and 
other necessities, which often win out in competition against food 
spending.
    Moreover, for many low income households, the location of a grocery 
store can be a challenge along with the often limited variety of fresh 
foods available for sale and the higher food prices in neighborhoods 
that only have small grocery and convenience stores. Many low wage 
earning families are working night and weekend shifts, or several jobs 
that limit the time they have to spend on buying and preparing meals. 
Finally, too many people lack knowledge and access to information about 
the practical aspects of achieving a healthy diet. Too often, people 
are told what not to eat, but less often what they should eat, what 
foods to buy, and how to prepare them.
    Nutrition Education: Expanding nutrition education and instruction 
is an important way to help people access and consume ``the right 
foods.'' Feeding America food banks are developing innovative and 
creative programs throughout the country to help families learn how to 
make the best use of the food they receive, the importance of nutrition 
to health, and how to use limited food dollars and SNAP benefits to 
achieve a balanced diet.
    The Food Bank of Delaware employs two Registered Dieticians with 
SNAP Nutrition Education funds. A Calcium Banking module teaches 
children and adolescents the benefits of including calcium rich foods 
in their diets. Children are given deposit tickets for ``bone banks'' 
that reflect the number of servings of dairy foods a child consume each 
week. A favorite of mine is The ``Kids In the Kitchen'' lesson, which 
gives children chef hats and teaches them how to prepare their own 
smoothies and fruit and yogurt parfaits. Children also learn how to 
follow a recipe and measure ingredients.
    As part of its SNAP outreach work, Food Finders Food Bank in 
Lafayette, Indiana has developed a partnership with Purdue University, 
which provides for a 3 week community nutrition rotation by students 
who work and learn about barriers to SNAP participation and increase 
awareness of the importance of nutrition. The program incorporates 
recipes for foods distributed by food pantries.
    In Texas, the Tarrant Area Food Bank's SNAP outreach staff partners 
with state Health and Human Service Commission to conduct SNAP outreach 
and develop and distribute nutrition education materials to help SNAP 
recipients understand the value of healthy eating.
    As public awareness of the link between diet and health has grown 
along with the disturbing increase in obesity, growing numbers of food 
banks are engaging dieticians and nutritionists to help clients with 
their diets. Kids Cafes<SUP>'</SUP> provide nutrition education for 
children in afterschool care, BackPacks contain instructional material 
on nutrition and proper food handling, and programs provide healthy 
diet instructions for those with medically related dietary needs. 
Increasingly local community feeding agencies offer recipes and cooking 
classes.
    These and many other food bank programs are ensuring that in 
addition to receiving food packages, the people they serve receive 
information and instruction about how to stretch their food dollars, 
understand the importance of good nutrition, the amounts of specific 
foods they should consume for a balanced diet, and recipes for healthy 
eating.
    Income, Access, and Affordability: The recent USDA-ERS, report 
discussed at this hearing found that 11.1 million low income people 
were living in low-income areas located more than 1 mile from a 
supermarket, or so-called Food Deserts. In rural and small town areas 
the report found that the most defining access problem was lack of 
transportation infrastructure to get to grocery stores.
    While location and access to grocery stores is an issue, the ERS 
report suggests that it is less of a problem than lack of money. Their 
report found that while 6% of all U.S. households reported they did not 
have food they wanted or needed because of access problems--more than 
half reported that this was because they lacked money for food.
    Although food prices in this country are among the lowest in the 
world, the variation in food prices among foods and even for the same 
food can vary according to the location. In general, supermarkets and 
large grocery store food prices are lower than those of small grocery 
and convenience stores. But even among supermarkets, food prices can 
vary substantially, as reported by the ERS.

                Food Costs Vary Across the United States
   (Source: Amber Waves, Nov. 2008, Can Low Income Americans Afford a
                             Healthy Diet?)
------------------------------------------------------------------------
                         Half Gallon    Head, Iceberg    29 oz. can of
      City/State         whole milk        Lettuce          peaches
------------------------------------------------------------------------
           8Highest    (Boston) $2.51      (D.C.-VA)    (San Fran., CA)
                                               $1.79              $2.47
                   Lowes(Pittsburgh)   (Jackson, MS)   (San Antonio, TX)
                               $1.45             .90             $1.390

                  Los Angeles-$2.34           $1.28               2.24
           Beach, CA
    San Antonio, TX             1.88             .99               1.39
     Pittsburgh, PA             1.45            1.19               1.85
        Jackson, MS             1.98             .90               1.57
           Ames, IA             1.71             .92               1.55
     Cincinnati, OH             1.90            1.02               1.69
        Atlanta, GA             1.75            1.24               1.63
    Springfield, MO             1.86             .97               1.93
------------------------------------------------------------------------

Filling the Gaps
    Numerous Federal nutrition programs have gaps that food banks and 
emergency agencies try to fill. In some cases benefits are not 
adequate; in others administrative requirements and excessive 
application and eligibility requirements are barriers.
    I am not an expert on the SNAP program, but it seems clear that 
benefits for many are not adequate for achieving a healthy and 
nutritious diet. The examples from the Hunger Study that I cited about 
why people needed food bank help illustrate the point that many SNAP 
benefits do not last through a month.
    I cannot help wondering if the basis for determining the benefit 
levels and food plan for achieving a healthy diet is not part of the 
problem. I understand that SNAP benefits for those with some income are 
reduced on the basis of data from 50 years ago that showed American 
households spent 30 percent of their income on food. The current 
comparable figure is closer to 10%. If this is the case and if benefits 
need to be reduced to reflect American food spending habits, it seems 
to me that the more current lower percentage reduction makes more 
sense.
    Speaking of children, I also am troubled by the fact that so many 
poor children are unable to access child nutrition programs during 
periods when they are out of school, or after school. Vicki's testimony 
refers to the millions of low-income children who do not have access to 
Summer Food Service Programs when schools are not in session. Many poor 
children also go without nutritious foods on weekends and holidays when 
schools are not in session. Fewer children have access to the 
nutritious foods provided by child care food programs because sponsors 
are finding it difficult to operate programs under the unnecessarily 
complex and confusing administrative requirements. Removing these 
barriers seems to me an easy solution to this problem.
    Finally, I applaud all efforts to improve people's understanding of 
the relationship between good nutrition and good health. Nutrition 
education is extremely important and I hope that funding will continue 
for programs to help people understand the value of a balanced and 
nutritious diet and how to achieve it.
Concluding Thoughts
    I believe that all Americans should be able to eat healthy and 
enjoy their food. That is why I have written about ``Real Life 
Recipes,'' and authored the book, ``Now Eat This! 150 of America's 
Favorite Comfort Foods, All Under 350 calories.''
    For me, cooking is a passion and food is the exciting ingredient. 
For many, however, cooking is a chore and obtaining enough food is a 
challenge. This is especially true for those without the resources and 
time to spend finding the right foods to improve their diets. While we 
may not be able to address all of the reasons why people do not have 
access to healthy foods, we do know that a major reason is insufficient 
income and resources. Given this, it seems reasonable to improve 
nutrition programs so that those with limited means can enjoy the same 
benefits of healthy and nutritious foods as you and I. More knowledge 
about food and its safe handling and preparation is needed as well, 
especially among those with limited incomes who cannot afford to make 
bad choices.
    Our nutrition programs can do more to educate children and their 
parents on the value of nutrition and how to achieve a healthy diet on 
a limited budget. The SNAP program can do more to make sure that 
benefits truly reflect modern consumption and food expenditure patterns 
and give people the information they need to make healthy choices. 
Finally, our food banks need Federal support to obtain the nutritious 
foods essential to a balanced diet, and the capacity to safely store 
and distribute them.
    I hope that the Committee will continue to work to examine Federal 
nutrition programs with an eye toward improving the ability of families 
to obtain the nutritious foods and the knowledge about a healthy diet 
that is essential to a healthy life.
    Thank you again, for inviting me to testify before your 
Subcommittee on this important issue. I will be glad to answer any 
questions you might have.

    The Chairman. Next, I would like to call on Mr. Fortenberry 
to introduce our next witness.
    Mr. Fortenberry. Thank you. I would like to welcome Mr. 
Randy Wattermann from West Point, Nebraska. Randy represents 
the Nebraska Food Cooperative. He is the founding Chairman and 
the current Treasurer of the Cooperative. He is a former Board 
Member and Treasurer of the Nebraska Sustainable Agriculture 
Society. Randy also is the owner of a family business in West 
Point, and his previous professional experience is in the field 
of banking, and is currently in software technology.
    Randy Wattermann holds a bachelor's of science with high 
honors in agriculture and managerial economics from the 
University of California-Davis. Again, he is from West Point, 
where I was privileged to attend a big meeting last Saturday. I 
would like to welcome you, and we look forward to your 
testimony.

           STATEMENT OF RANDALL WATTERMANN, FOUNDING
           CHAIRMAN, MEMBER, BOARD OF DIRECTORS, AND
      TREASURER, NEBRASKA FOOD COOPERATIVE, WEST POINT, NE

    Mr. Watermann. Thank you, Congressman Fortenberry, and 
thank you, Chairman Baca, for inviting us. And following along 
the In-N-Out theme, when I go back to visit my family in 
California, I always make sure to visit an In-N-Out Burger at 
least once. It is good.
    Thank you for the introduction. I do live about an hour and 
half north of Omaha, in rural northeast Nebraska, on a farm. So 
I have a different perspective, having come from California. We 
have been there now 12 years. So I have both the urban and the 
rural perspective.
    Early in 2005, at the Nebraska Sustainable Agriculture 
Society's Annual Conference, a group of Nebraskans, both 
farmers and consumers, listened to Robert Waldrop, President 
and Founder of the Oklahoma Food Cooperative, give an inspiring 
address regarding his local foods vision and the experiences of 
the startup of his co-op 3 years earlier in Oklahoma. So from 
that beginning, our group in Nebraska was motivated to meet 
over the next year as a steering committee to flesh out a 
vision for a Nebraska version of the Oklahoma Food Cooperative. 
Then a year later in 2006, we were incorporated. In July of 
2006, the first delivery cycle was initiated and Nebraska's 
online, year-round farmers market and local food distribution 
service was launched.
    From that initial order cycle that contained ten orders 
totaling $326, the NFC has continued to grow to where our 
recently completed cycle in April was 169 orders, sales over 
$10,000. Over the past year, we crossed the $100,000 mark, and 
Oklahoma is over the million dollar mark. So it does work to 
bring together buyers and sellers of local foods.
    So what exactly is our purpose at the Nebraska Food 
Cooperative? Our mission statement says: To foster a local food 
community, promote a culture of stewardship by cultivating 
farmer-consumer relationships, promoting the enjoyment of 
healthful food, increasing food security through diversity, and 
enhancing overall rural sustainability.
    So our goal is to create the market, bringing together 
buyers and sellers in a way that would otherwise not take 
place. In a rural state such as Nebraska, where the populace is 
spread out over large distances, it becomes problematic for 
direct-market producers to be physically present at farmers 
markets each week in the population centers of Omaha and 
Lincoln. You can't be both places at once. Instead, what we 
have done is provide a method to list items available for sale 
online and provide a method for transporting and distributing 
those products when they are purchased. In doing this, we are 
kind of reestablishing the semblance of the food distribution 
infrastructure that existed decades ago--local products 
consumed locally.
    So how does the co-op work? Once a month during the winter 
season, and then on a biweekly basis during the growing season, 
the order window opens to start off the delivery cycle. During 
the 1 week order window, shoppers peruse items online by each 
producer. And not only are there item descriptions and there 
are pictures available, but a questionnaire that is completed 
by each producer that has items for sale so that they can 
transparently provide the information to the shoppers. They can 
make informed decisions as to which producers, which items for 
sale best match with their individual standards, priorities, 
needs, budgets, et cetera.
    Once that 1 week order window comes to a close, the 
producers then create a printout of all the items that have 
been ordered from them. They print the routing labels from the 
software online, and those goods are prepared for safe and 
appropriate transport on delivery day to one of NFC's hubs. 
Once those are checked in at the hubs, volunteers--this is a 
volunteer organization--sort them by storage type--frozen, dry, 
refrigerated--and get them ready for the customers to pick up.
    Increasing food security through diversity is one of the 
goals that we have. Increasing the number of local food 
sources, increasing and regaining the knowledge of how to feed 
ourselves locally enhances food security.
    While the vast majority of food consumed by Nebraskans, I 
understand, is, unfortunately, imported from other areas of the 
country, having these alternate supply sources and delivery 
methods protects against a future food security emergency in 
the country or region. It also increases the viability of the 
rural Nebraska economy, especially as fuel and transportation 
costs continue to rise.
    As the NFC's producers grow in quantity and in the 
stability of our supply, the Cooperative looks for 
collaborating with local institutional buyers. Right now we are 
more retail-oriented, but we are talking to institutional 
buyers and we have a few customers. But we are wanting to 
increase to places like school districts, nursing homes, 
restaurants, similar entities, to increase their awareness of 
and willingness to consider purchase of locally produced meats, 
vegetables, fruits, and other value-added products.
    Congressman Fortenberry mentioned the Good, Fresh, Local 
Sustainable Food Project by the UNL, University of Nebraska-
Lincoln's dining services. That is a great example of this. I 
can go into that later in questions.
    In the urban areas of the state, we continue to look for 
opportunities to partner with organizations that reach out to 
some of the underserved populations. One example is Community 
CROPS in Lincoln, Nebraska, which works to create urban garden 
plots for immigrants and other area residents, and then the 
Food Co-op acts as one outlet for those producers to be able to 
market some of the product they raise.
    We also work with Together, Inc., of metropolitan Omaha to 
create local food baskets which are donated to families in 
need.
    In Nebraska, outdoor farmers markets are limited by weather 
to the May to October time frame. With our model we build on 
that, making many local goods available year-round. As the 
supply increases of produce, which is seasonal, we hope to have 
availability of other frozen and canned products throughout the 
winter months. Some of our near- and mid-term challenges evolve 
around transitioning from an all-volunteer organization to one 
with a sustainable business model. Towards that end, we are 
looking at hiring a part-time general manager to oversee the 
growth and organization of the Cooperative, once sufficient 
funding can be identified. I think I will just leave it at 
that.
    In spite of the challenges we have, we know people want to 
know more about our food. They want to know where it is coming 
from, who is growing it. And the added benefit of supporting a 
local economy by keeping a larger share of money circulating 
closer to home is another motivating factor, as is increasing 
our food security.
    Thank you very much.
    [The prepared statement of Mr. Waterman follows:]

 Prepared Statement of Randall Wattermann, Founding Chairman, Member, 
  Board of Directors, and Treasurer, Nebraska Food Cooperative, West 
                               Point, NE
Nebraska Food Cooperative--Past, Present, Future
    Early in 2005, at the Nebraska Sustainable Agriculture Society's 
annual conference, a group of Nebraskans--farmers and consumers alike--
listened to Robert Waldrop, President and founder of the Oklahoma Food 
Cooperative (www.oklahomafood.coop), give an inspiring address 
regarding his local foods vision, and the experiences of the start-up 
of the Co-op 3 years earlier. (Mark Hutchison, through the University 
of Nebraska, Lincoln's Food Processing Center had conducted some 
surveys and had arranged for Mr. Waldrop to come and speak. Mark also 
continued to provide invaluable insight and guidance during the Co-op's 
formative years.)
    From that beginning, the group was motivated to meet over the next 
year as a steering committee to flesh out a vision for a Nebraska 
version of the Oklahoma Food Cooperative. A year later, the Nebraska 
Food Cooperative (NFC) was incorporated. In July of 2006, the first 
delivery cycle was initiated, and Nebraska's online, year-round 
farmers' market and local food distribution service was launched!
    From the initial order cycle that contained ten orders totaling 
$326, the NFC has continued to grow to the point where the recently 
completed delivery cycle on April 8, 2010, totaled 169 orders and sales 
were over $10,700.
    So what, exactly, is the NFC's purpose? Our mission statement is 
``To foster a local food community and promote a culture of stewardship 
by cultivating farmer-consumer relationships, promoting the enjoyment 
of healthful food, increasing food security through diversity, and 
enhancing overall rural sustainability.''
    Our goal is to create a market--bringing together buyers and 
sellers in a way that would otherwise not take place. In a rural state 
such as Nebraska, where the populace is often spread out over large 
distances, it becomes problematic for direct-market producers to be 
physically present at farmer's markets each week in both Omaha and 
Lincoln, where the main population centers are located. Instead, by 
providing both a method to list items available for sale and a method 
for transporting and distributing those products that are purchased, 
the NFC has created a vehicle for re-establishing a semblance of the 
food distribution infrastructure that existed decades ago--local 
products consumed locally!
    So how does the co-op work? Once a month during the winter and on a 
biweekly basis during the growing season, an ``order window'' opens to 
start off a ``delivery cycle.'' During the 1 week order window, 
shoppers peruse online the items offered for sale by each producer. Not 
only are item descriptions and pictures available, but a questionnaire 
completed by the producer describes their operations, their 
philosophies, and their practices. NFC's goal is to transparently 
provide information to each shopper, so they can make informed 
decisions as to which producers, and which items for sale, best match 
with their individual standards, priorities, needs, budget, etc.
    Once the 1 week order window comes to a close, the producers then 
create a printout of all the items ordered from them, and they print 
routing labels for each customer's goods. These goods are then prepared 
for safe and appropriate transport on delivery day to one of NFC's 
hubs, or are picked up by NFC's driver if they are located on or near 
the existing delivery circuit.
    Once the goods are checked in, volunteers sort them by storage type 
(frozen, refrigerated, dry, etc.), by pick-up locations, and by 
customer name. The orders are grouped and delivered to the various 
pick-up points in Omaha, Lincoln, and surrounding area, and in the 
evening the customers who placed orders stop by to pick up and pay for 
their orders (payment via Paypal is also an option). Within several 
days after the delivery cycle is completed, NFC mails payments to all 
of the producers for their sales that month. Both shoppers and 
producers pay a 10% invoice fee which funds NFC's operations and 
overhead. While we are incorporated as a for-profit cooperative, at 
this time our goal is to cover expenses plus any capital needs, rather 
than looking to make a profit at the Co-op level.
    Membership in NFC is available in several options:

    (1.) Voting (must be Nebraska resident): $100.00 for one share of 
        common stock--plus $20.00 annual fee thereafter.

    (2.) Non-voting: $40.00 annual non-voting member fee.

    (3.) Visitor: No membership fee but $6.00 visitor fee will be added 
        to each order.

    Members can be producers or shoppers both!
    As described in the mission statement, increasing food security 
through diversity is one of NFC's goals. Increasing the number of local 
food sources, and increasing/regaining the knowledge of how to feed 
ourselves locally enhances food security. While the vast majority of 
food consumed by Nebraskans is, unfortunately, imported from other 
areas of the country, having alternate supply sources and delivery 
methods protects against a future food security emergency in the 
country or region. It also increases the viability of the rural 
Nebraska economy, especially as fuel and transportation costs continue 
to rise over the long term, which causes foods trucked in from distant 
areas of the country to increase in cost.
    As NFC's producers grow in quantity and in the stability of their 
supply, the cooperative looks forward to collaborating with local 
institutional buyers such as school districts, nursing homes, 
restaurants, and other similar entities to increase their awareness of 
and willingness to consider purchase of locally produced meats, 
vegetables, fruits, and other value-added products. In Nebraska, the 
University of Nebraska, Lincoln's Dining Services has shown great 
leadership in this area with the development of its extremely popular 
``Good, Fresh, Local'' Sustainable Food Project. Periodically 
throughout the school year, themed events are planned in the dining 
commons that focus on Nebraska producers and the local products they 
provide. This increases awareness among the college students of the 
importance of supporting local farms and eating fresh, healthy foods.
    In the urban areas of the state, NFC continues to look for 
opportunities to partner with organizations that reach out to under-
served populations. One example is Community CROPS, located in Lincoln, 
Nebraska, which works to create urban garden plots for immigrants and 
other area residents. NFC serves as one outlet for those producers to 
be able to market the products they raise. We've also worked with 
Together, Inc. of Metropolitan Omaha to create local foods baskets, 
which are donated to families in need.
    In Nebraska, outdoor farmers markets are limited by weather to the 
May-October timeframe. With NFC's model, many local goods are available 
year-round, and as supply increases, we look forward to the 
availability of frozen and/or canned produce being available during the 
winter months.
    Some of our near- and mid-term challenges revolve around 
transitioning from an all-volunteer organization to one with a 
sustainable business model. Towards that end, we are looking at hiring 
a part-time general manager to oversee the growth and organization of 
the cooperative, once sufficient funding can be identified.
    Currently, NFC operates with two ``hub'' locations, one in Lincoln, 
and one in Omaha, where producers drop off their orders for further 
routing and distribution to final pick-up points. We have outgrown the 
capacity of the two locations, and are contemplating the lease/purchase 
of warehouse space in a rural community between Lincoln and Omaha, 
thereby consolidating the distribution into one larger center, while at 
the same time providing additional benefit to the local rural economy. 
Looking forward, we hope to be able to expand our service westward, 
with much interest currently being shown in the Kearney area.
    We continue to collaborate with other organizations that are 
supportive of reestablishing a local foods production and distribution 
infrastructure. Challenges include raising sufficient equity capital to 
fund planned growth, identifying and paying for the human resources 
needed to execute NFC's plans and vision, and managing the continuing 
challenges that producers face in complying with the increasing 
regulatory burdens associated with the production of food of all 
kinds--even on a small scale.
    In spite of these challenges, demand for local, fresh, and 
healthful products continues to outpace supply. People want to know 
more about where their food comes from, and who is growing it. The 
added benefit of supporting the local economy by keeping a larger share 
of money circulating closer to home is another motivating factor, as is 
increasing our food security.
    The future for NFC looks bright, and we look forward to enjoying 
the fruits of our success!

    The Chairman. Thank you very much, Mr. Wattermann, for your 
testimony this morning.
    Next, I would like to call on the gentlewoman from 
Pennsylvania to introduce our next witness. Mrs. Dahlkemper.
    Mrs. Dahlkemper. Thank you, Mr. Chairman, Ranking Member, 
Members of the Subcommittee, I am pleased to introduce our next 
witness, a fellow Pennsylvanian, Mr. Jeffrey Brown.
    Mr. Brown is a fourth generation grocer. He is President 
and CEO of Brown's Super Stores, Inc., a growing ten store 
supermarket chain trading under the ShopRite banner. His 
company employs 2,100 associates and has been recognized as one 
of the best places to work by the Philadelphia Business Journal 
and the Philadelphia Inquirer, to only name a few.
    Mr. Brown is an officer and Member of the Board of 
Directors at the Philadelphia Youth Network, a Member of the 
Board of Directors for the Pennsylvania Food Merchants, and on 
the Boards of both the New Jersey Food Council and the 
Philadelphia Urban League. Furthermore, he was recently 
recognized by the National Grocers Association as the 2010 
recipient of the Thomas K. Zaucha Entrepreneurial Excellence 
Award, a top national honor in the grocer industry. He has been 
cited for his expertise in solving the food desert crisis 
challenging so many low-income communities today.
    Last, he is the founder and Chairman of Uplift Solutions, a 
501(c)(3) public nonprofit formed to assist governments, 
nonprofits, and food businesses in resolving food desert and 
related challenges.
    It is with pleasure that I introduce Mr. Jeffrey Brown.
    The Chairman. Jeffrey, before you speak, I just wanted to 
also state, I know Bobby Rush is here, and he complimented what 
you are doing. I met with Secretary Vilsack this morning at 8 
a.m., and he spoke very highly of you and your program. He says 
that is a model that should be used everywhere throughout the 
United States. So I was quite pleased to hear him, and I told 
him you are going to be a witness here this morning.

  STATEMENT OF JEFFREY N. BROWN, FOUNDER, PRESIDENT, AND CEO, 
           BROWN'S SUPER STORES, INC., WESTVILLE, NJ

    Mr. Brown. Thanks for the feedback. What you are going to 
find out is we are very dedicated to being right with all of 
you, solving this food desert crisis.
    With that being said, thank you, Mr. Chairman, and 
distinguished Members of the Subcommittee, thank you for 
inviting me to testify today.
    Just a little background on the problem. Millions of low-
income Americans have inadequate access to fresh food at 
competitive prices. We have already spoke that that is pretty 
much how you define a food desert. This situation has resulted 
in their obesity and the epidemic of their obesity being much 
greater than our country's current problem of obesity.
    I want to emphasize that this food desert situation is 
real. I have seen it firsthand and have spent a good part of my 
career trying to solve this problem in Philadelphia. The 
Pennsylvania Fresh Food Financing Initiative is a program that 
has widely been recognized as the most effective effort in 
ensuring that all communities have access to healthy food at 
competitive prices. The food desert problem is being solved in 
Pennsylvania, and I really do believe that this is a solvable 
problem for our whole country.
    The solution: I think a National Healthy Food Financing 
Initiative would not only solve the food desert problem, but 
would be a tremendous boost to our economy, as all of these new 
supermarkets would employ people, would employ people to 
construct them and service them and work the stores, certainly 
something we could use today. The program would shift food 
consumption towards fresh food, things like fruits and 
vegetables, chicken and fish. And those foods would be grown by 
our own American farmers.
    So this is an idea that has so many paybacks for our 
country. We already spend so much public money on trying to 
address these very problems, but without allowing so many of 
the low-income consumers a way to use what we have given them 
effectively, a lot of what we have spent doesn't really solve 
the problem. I am concerned if we don't fix this problem there 
will be a continued deterioration of our health as a country, 
and the financial burden of that on our healthcare system will 
certainly affect every American.
    When I talk about how to solve this problem, I think you 
need to start out with the social problems, besides food 
access, that exist in many low-income communities. They are a 
burden on the citizens, but they are also a burden on the 
businesses that try to serve the citizens. Such problems as 
violence, drugs, excess high school dropout rates, all add to 
the challenge of correcting this problem.
    One of the complications of operating a successful 
supermarket in this type of community is it usually requires 
customization that many supermarket operators are currently 
unfamiliar with and not organized to accommodate. The result of 
these constraints is that inner city communities and lower-
income rural communities, as well, frequently pay the most for 
food. It is disturbing. The smaller stores offer it at very 
high prices, as I said.
    In my own personal experience being involved in the 
communities of the people I have served, I have learned a great 
deal about how to operate successfully in the very communities 
that many other supermarkets have been unable to operate, and, 
at the same time, contribute to positive social change.
    A close relationship and understanding of each community is 
critical for our mutual success. Just to give you a little 
background, our employees are all unionized. Our pay scale is 
the same in urban lower-income communities as suburban 
communities. We provide health benefits and other benefits 
after a vesting period. We hire the majority of all of our 
staff locally and have developed innovations in hiring and 
training to include employees that were formally incarcerated, 
which is another challenge in a lower-income community. We 
employ about 250 people in each of our urban stores.
    Since the creation of the Fresh Food Financing Initiative, 
the four stores we have added have added 1,000 jobs to the City 
of Philadelphia, directly related to having this program. Some 
of these workers are working for the first time in their life, 
and, as sad as it may seem, sometimes they are working for the 
first time in their family's recent history.
    I am now committed to helping solve this problem of food 
deserts nationally. I have had hundreds of people from across 
the country, including Secretaries of Agriculture and Commerce 
visit my stores. Investors, state and city officials, and 
community people from across the country have also been our 
guests.
    In order to further our efforts, last year we launched a 
public 501(c)(3) nonprofit called Uplift Solutions. Uplift 
Solutions provides technical advice and training to 
governments, nonprofits, food retailers, and manufacturers 
interested in getting on board to help us solve this problem. 
It also is developing new innovations to solve some of the 
social issues that make operating a grocery store so difficult 
in these communities.
    We are currently developing an in-store health clinic that 
would offer services to help our clients make better eating 
choices and get them authorized for the public assistance 
programs that they are qualified for but often never sign up 
for, like SNAP. I believe once they are signed up, their chance 
of having a more productive diet would increase quite a bit.
    As far as our recommendations, I recommend a bipartisan 
approval of the Healthy Food Financing Initiative and related 
2011 budget. On a technical matter, I suggest modifying new 
market tax credits, which is part of the Healthy Food 
Financing, not to be subject to alternative minimum tax, 
similar to how historical tax credits work, because it makes a 
very big difference in the amount of actual resources you have 
to solve the problem.
    I also suggest that the Department of Labor provide some 
flexible training dollars to help the new supermarkets that get 
created from the Healthy Food Financing to train their new 
employees so they are equipped to keep those jobs and be 
successful.
    Thank you for your time and interest in solving our 
country's food desert challenge. I look forward to answering 
your questions; especially some of the things that were 
questioned even in the earlier panel, I might be able to shed 
some additional light in. I also want to encourage you to call 
upon me if I can serve in any other way to help solve this 
problem and even to come visit me in Philadelphia and let me 
show you what we do. Thank you.
    [The prepared statement of Mr. Brown follows:]

 Prepared Statement of Jeffrey N. Brown, Founder, President, and CEO, 
               Brown's Super Stores, Inc., Westville, NJ
    Mr. Chairman and Distinguished Members of the Subcommittee, thank 
you for inviting me to testify. My name is Jeffrey Brown. I am 
President and CEO of Brown's Super Stores, Inc, and a proud fourth 
generation grocer who brings years of experience in the food business 
to our discussion today. My family operates ten supermarkets trading 
under the ShopRite banner in the Philadelphia region. We employ 2,100 
people with locations in both suburban and inner city Philadelphia. In 
addition to my role as CEO, I am on the Board of Directors of Wakefern 
Food Corporation, the wholesale, marketing, and distribution arm for 
ShopRite supermarkets. I have partnered and worked with the 
Pennsylvania Fresh Food Financing Initiative (FFFI), which has been 
recognized widely as the most effective effort at ensuring that all 
communities have access to quality food. Moreover, I bring an 
entrepreneurs view of how to solve the issue of `food deserts,' which I 
define as neighborhoods with inadequate access to fresh food at 
competitive prices.
    I want to emphasize three things. First, the problem of food 
deserts is real. Second, it is a problem that is being solved in 
Philadelphia and can be solved throughout the United States. And 
finally, the solution to this problem will have positive impacts on our 
economy and more importantly, on the health of our citizens.
    In my testimony today I will: explain some of the historical 
constraints to success in cities; speak about how the Pennsylvania 
program has worked; explain why a quality food market is an essential 
element in re-building the social fabric and economy of many inner city 
and rural communities; and ask for your support of a national Healthy 
Food Financing Initiative, based on the Pennsylvania model.
Barriers to Urban Markets
    There are a variety of reasons that supermarkets left many urban 
areas. As families migrated to the suburbs, retailers followed to 
pursue attractive modern retail developments. Available land in suburbs 
allows for larger stores at competitive rents, free parking for 
customers and a well-educated workforce. Conversely, real estate and 
insurance costs in urban areas are higher and training an unprepared 
workforce is more difficult. Social problems we read about everyday 
such as violence, drugs, and high school dropout rates, also effect a 
grocer's ability to operate a successful business. There is also a 
belief by some businesses and lenders that urban investments will fail, 
as many have in the past. Finally, there has often been a lack of 
information about the opportunities in the city, including familiarity 
with new, immigrant populations; an understanding of how much income 
there really is that goes to food consumption and, an appreciation for 
the possibilities of adapting suburban store models and inventory to 
this new context.
    The result of these constraints is that inner city communities are 
frequently served only by small stores unable to offer the variety of 
fresh foods that most of us take for granted. They offer food and other 
goods at very high prices, resulting in the poor paying the most and 
being restricted to a diet primarily made of processed foods that tend 
to be higher in calories. As a result, some of our country's poorest 
citizens living in these food deserts, have become sick and obese 
placing additional costs on the healthcare system, and making it even 
more difficult to rise above the challenges of poverty. This is not a 
sustainable social situation. The goal of the FFFI was to understand 
this problem and work with retailers throughout the state--urban and 
rural--to solve the problem in a more socially optimal way.
The Pennsylvania Fresh Food Financing Initiative
    I along with other supermarket operators met with state 
Representative Dwight Evans from the Pennsylvania Assembly and Jeremy 
Nowak, from The Reinvestment Fund (TRF), to brainstorm about how this 
challenge might be overcome. We eventually mapped out the FFFI and I 
became the first to test the program opening a store in Southwest 
Philadelphia. This location had failed by a previous food retailer due 
to gun violence in front of the store and other community challenges. 
Today this store is successful, and I have become a true believer in 
this program and its potential to improve our country.
    FFFI is a collaboration of public, private, and civic institutions 
created initially through the organizing efforts of The Food Trust. The 
result was a public-private partnership where the Commonwealth of 
Pennsylvania invested an initial $30 million grant that was matched 
with $90 million of private money raised by TRF. The match came from a 
variety of sources including banks, investments through Federal New 
Market Tax Credits, equity from the entrepreneurs, and even some 
philanthropic resources.
    Since 2004, the year of the FFFI launch, the program has approved 
financing for 81 stores ranging from full-service 70,000 square foot 
supermarkets to 900 square foot shops; and from traditional 
entrepreneurs to co-ops and farmer's markets. This has resulted in 
projects whose total development costs exceed $150 million, adding 1.5 
million square feet of new development, creating approximately 4,800 
full and part-time jobs, and improving the fresh food access to more 
than 400,000 people. There are four things that account for the success 
of the program:

    (1) Smart Subsidy: Based on the analysis of development cost 
        obstacles, particularly in the inner city, FFFI provides both 
        flexible debt financing and small subsidy grants. The grants 
        were used to write down certain costs that entrepreneurs could 
        not reasonably incur. These costs included such things as 
        workforce training and land assembly.

    (2) Flexible Financing: FFFI provides a range of financing products 
        from leasehold improvements and equipment loans to acquisition 
        and construction financing for both short term and permanent 
        uses. The financing is shaped around the need of the 
        entrepreneur and the requirements of other financing entities 
        involved in the project. While access to capital was less of an 
        issue 5 years ago when the program began, it has become a more 
        significant issue today, even for established, multi-store 
        operators.

    (3) Market Expertise: The manager of the program--TRF--is one of 
        the nation's top community investment institutions. They are an 
        experienced business and real estate finance underwriter. They 
        approached FFFI as any good investor would and consequently 
        they have built a very strong track record of business 
        sustainability. This strong record can only be built by 
        identifying and supporting strong supermarket operators that 
        can adapt their business models to underserved communities.

    (4) Impact Transparency: The program has been careful to count what 
        they finance in terms of job creation, commercial real estate 
        value, and total development costs. It has undertaken studies 
        on the impact of supermarkets on local housing values, cost 
        issues related to urban stores, and the location of employees 
        that receive retail jobs at the stores. My stores have 
        participated fully in these studies in order to help highlight 
        our success and educate others from the many challenges we all 
        face.

    The Pennsylvania FFFI has provided financing for four of my stores. 
They have enabled me to provide high quality goods and services to 
communities that were not available prior to my entry.
A National Healthy Food Financing Initiative
    The Pennsylvania FFFI has been cited as an innovative model by the 
U.S. Centers for Disease Control and Prevention, the National 
Conference of State Legislatures, Harvard's Kennedy School of 
Government, and the National Governors Association. All of us in 
Pennsylvania are proud that the First Lady has pointed to our efforts 
in Pennsylvania as a model that she wants to replicate, as part of her 
anti-obesity effort. Access to fresh food is clearly one important part 
of ensuring a healthier country, particularly at a time when we are 
worried about the cost of healthcare and providing quality food 
alternatives is essential.
    A national program can build on the demonstrated successes of 
Pennsylvania. Today there are a variety of states--Louisiana, Illinois, 
New Jersey, and New York to name a few--that are already initiating 
similar programs. A national effort could support those local efforts 
with flexible capital. I am pleased that President Obama has called for 
$400 million in the Fiscal Year 2011 budget--spread across Treasury, 
USDA and HHS--to support local efforts. This effort has broad support 
by civic groups, economic development agencies, and the retail trade 
associations.
    TRF recently developed a model that determined approximately 23 
million Americans are living in communities without access to high 
quality fresh food, the majority of which live in low-income 
communities. TRF officials tell me that based on the metrics from the 
Pennsylvania experience, each billion dollar Federal commitment, if 
matched by an equal private sector investment, has the potential to 
result in the following:

  <bullet> Improved access to healthy food for more than 15.3 million 
        people living in low/moderate income Census tracts.

  <bullet> The creation or improvement of more than 2,100 stores.

  <bullet> The creation or rehabilitation of nearly 50 million square 
        feet of retail space.

  <bullet> The creation and retention of 29,000 full-time and 119,000 
        part-time jobs.
The Brown's Super Stores Experience: Building Community Assets
    As I became more involved in the life of the communities I serve, I 
have learned a great deal about how we can operate a successful 
business and also create positive community change through listening, 
showing respect, and offering high quality products and service. A 
close relationship with each community is critical to our mutual 
success.
    If you were to visit my store on 52nd and Jefferson Streets in West 
Philadelphia you would think that you were in a high-end market. Our 
stores have extensive varieties of fresh produce, meats, and fish, and 
we sell our products at the same price and quality standards as our 
suburban locations. The workers are well trained and courteous, with 
union jobs offering the same pay scale as our suburban stores and 
providing benefits after a short vesting period. We hire the majority 
of our staff locally and have developed innovations in hiring and 
training to include employees that were formerly incarcerated. Our 
company also makes an effort to purchase merchandise from local 
suppliers, including assisting many local minority entrepreneurs in 
starting businesses to supply us with the unique merchandise our 
customers prefer. We employ about 230 people in our West Philadelphia 
store, many working for the first time and some working for the first 
time in their family's recent history. The entry of our store, which is 
on the site of a former industrial brownfield, enabled the development 
of a Lowes Home Improvement store on the same site, along with dozens 
of other retail stores. This store is a profitable and has improved the 
lives of tens of thousands of its customers, employees and the 
surrounding community.
UpLift Solutions: A New Resource to Help Overcome Food Desert 
        Challenges Nationally
    I am now committed to helping solve the problem of food deserts 
nationally. I have had hundreds of people from across the country, 
including the Secretaries of Agriculture and Commerce, visit my stores. 
Investors, philanthropists, city officials, and community people from 
across the country have also been my guest at one or more of my urban 
locations.
    In order to further our efforts, last year I launched a public 
501(c)(3) nonprofit organization called UpLift Solutions 
(www.upliftsolutions.org). Uplift provides technical advice to 
governments, nonprofits, and food retailers/manufacturers interested in 
helping to solve this problem. It is also developing new innovations 
that can solve related social problems often found in low income 
communities. These include programs to help improve safety and well 
being of community members. We are currently developing an in-store 
health clinic offering behavioral modification services and social 
services to help our clients make better decisions to improve their 
health and get the support of government sponsored benefits (like 
SNAP).
Recommendations to the United States Congress
    The team that invented and successfully implemented the FFFI in 
Pennsylvania, including TRF and myself, worked with the White House 
staff to develop the national program championed by The First Lady 
Michelle Obama and incorporated in the President's 2011 proposed 
budget. We recommend the following:

  <bullet> Bipartisan approval of the Healthy Food Financing Initiative 
        and related 2011 budget. This involves the 2011 budgets for the 
        Treasury, USDA and HHS.

  <bullet> Modify New Market Tax Credits so they are not subject to 
        alternative minimum tax, similar to how historic tax credits 
        currently function for income tax purposes. This change will 
        result in NMTC becoming more valuable.

  <bullet> Modify the Labor budget to allow for some flexible training 
        dollars to fund startup training for new supermarket employees 
        in low income communities, created by the healthy food 
        financing initiative. These employees require significantly 
        more training to get them to desired standards.

  <bullet> Create a budget in either USDA or HHS for flexible social 
        venture funding for innovative projects that have the potential 
        to increase our progress in solving food desert, related 
        unhealthy eating behavior or the lack of access to healthcare, 
        delivered thought expanded supermarkets servicing low income 
        communities. Our in-store clinic concept is a good example of 
        the kind of project that could improve the health of low income 
        Americans very effectively.

    Thank you for your time and interest in solving our countries food 
desert challenge. I look forward to answering your questions and I 
invite you to come visit us in Philadelphia and see our operation first 
hand.

    The Chairman. Thank you, Mr. Brown.
    Next, we have Diana Endicott, Farm to Market Coordinator, 
Good Natured Family Farms<SUP>TM</SUP>, Bronson, Kansas.

   STATEMENT OF DIANA ENDICOTT, PRESIDENT AND FARM TO MARKET 
COORDINATOR, GOOD NATURED FAMILY FARMS<SUP>TM</SUP>; MARKETING 
   MANAGER AND CO-OWNER, RAINBOW ORGANIC FARMS, d.b.a. GNFF, 
                          BRONSON, KS

    Ms. Endicott. Thank you, Chairman Baca and Members of the 
Committee, for providing me the opportunity to be here today. 
My name is Diane Endicott and I am the President and Farm to 
Market Coordinator for Good Natured Family Farms<SUP>TM</SUP>. 
My husband Gary and I own and operate a 400 acre organic farm 
in Bronson, Kansas, located about 80 miles south of Kansas 
City. Our farm consists of beef cattle, hay and grain crops, 
tomato greenhouses, and we also own and operate a USDA 
federally inspected meat processing plant.
    I am here today to share with you how Good Natured Family 
Farms<SUP>TM</SUP> has grown to include more than 150 local 
family farms, selling $4 million of local farm fresh foods to 
Ball's Food Store's 29 supermarkets located in Kansas City. In 
addition, how we are creating our dream of making local farm 
fresh foods making them available and affordable to vulnerable 
communities and children at risk.
    Good Natured Family Farms<SUP>TM</SUP> is an alliance of 
150 family farms. The farms range in size from truck gardens 
and five head of cattle to thousand acre orchards and 200 head 
cattle ranchers. Some of the farms are third- and fourth-
generation family farms, and others are young beginning 
farmers.
    Good Natured Family Farms<SUP>TM</SUP> is also the brand 
for the alliance. The 150 family farms grow and produce a full 
line of local fruits and vegetables, all natural meats, 
farmhouse cheeses, farm fresh milk, local honey, free range 
eggs, tofu, jams and jellies, and other farm foods. Our market 
for these farm fresh foods is a Kansas City, locally owned and 
operated, third generation, 29 store supermarket chain called 
Ball's Food Stores. The creation of the Good Natured Family 
Farms<SUP>TM</SUP> brand and our sound partnership with Ball's 
Food Stores has established an effective model to bring locally 
grown foods from small family farms to the mainstream 
supermarket shelf.
    The farm to supermarket shelf is a long way. From 
production, grading, processing, packaging, aggregation, 
distribution, to marketing, pricing, quality, and food safety, 
the challenges are many and too numerous to cover here. I will 
focus on two areas that help to ensure our success. First, Good 
Natured Family Farms<SUP>TM</SUP> alliance is, first and 
foremost, about the farmers. We keep as much of the food dollar 
at the farm as possible. Therefore, each of the farms own and 
operate the facility where their locally grown food is 
processed and packaged, or they use a small-sized local 
processing facility. For example, the fruits and vegetables are 
washed, graded, and packed on the farm.
    The dairy farmers own and operate their milk and cheese 
processing plants. And our farm processes all of the beef for 
the all-natural beef co-op. In addition, the farmers maintain 
ownership of the product from the farm to delivery at the 
supermarket warehouse.
    Second, and equally important, Ball's Food Stores owns and 
operates a warehouse in Kansas City. This allows the farmers to 
deliver their products to one central location, where Ball's 
central warehouse distributes the local foods to the 29 
supermarkets. Good Natured Family Farms<SUP>TM</SUP> provides 
the brand identity, coordination, quality standards, food 
safety, pricing, labeling and other logistical needs. Good 
Natured Family Farms<SUP>TM</SUP> alliance had sales of $4 
million in 2009. In addition to keeping 150 family farms 
viable, we helped generate 30 jobs in small-scale rural 
processing plants.
    Now we are ready to use this model and provide the same 
local farm fresh foods to Kansas City's vulnerable communities. 
To achieve our goal, the Kellogg Foundation and the USDA's 
Small Business Innovative Research is funding our project 
called Good Food + Good Business = Food Futures. Good food is 
defined as green, healthy, fair and affordable. The grants help 
us conduct outreach, education, and logistics to effectively 
reach vulnerable communicates.
    The project has three methods to make locally grown food 
available and affordable to vulnerable communities in Kansas 
City's inner urban core. First, we are partnering with inner 
city neighborhood churches to create the Good Food Box. This is 
a box of farm fresh foods delivered to church members on a 
weekly basis. Payment can be made using nutrition assistance 
programs such as SNAP and WIC.
    Second, we are teaming up with inner city businesses, such 
as Hallmark Cards, to expand our workplace wellness Community 
Supported Agriculture Program.
    Third, we are expanding our Farm to School Program, called 
BistroKids, at Head Start Center's Title I schools.
    The process to make the food affordable is what we call the 
art of the supply chain: Own the warehouse and distribution and 
shorten the supply chain. By going directly to the consumer, 
distribution ad retail margins can be adjusted, allowing us to 
reach vulnerable communities.
    The main hurdle Good Natured is working on to overcome is 
the purchase of a refrigerated warehouse and distribution 
center in Kansas City's inner city Green Impact Zone. Ball's 
central warehouse is at full capacity. Therefore, in order to 
grow, Good Natured Family Farms<SUP>TM</SUP> will need to have 
an additional warehouse and distribution facility. The dilemma 
is getting financing for the bricks and mortar. To help us with 
this, we are in the process of applying for a USDA Rural 
Development Business and Industry Loan and seeking other loans 
and/or grant funds for startup operational costs.
    The warehouse and distribution bottleneck is being 
experienced by many local farms and marketing groups across the 
country. A for-profit producer and employee-owned and operated 
local food warehouse and distribution center in Kansas City's 
urban Green Zone will, number one, provide jobs in the urban 
core; two, allow the farmers to keep more of their food dollar; 
three, provide a bridge to connect the urban and rural 
communities; and, most importantly, will start the 
transformation of a food system to one that supports the health 
and well-being of our most vulnerable communities and children 
at risk.
    I want to thank you for allowing me to share our story with 
you. I hope it will shed some light on the need of local food 
warehouses and distribution centers to make local farm fresh 
foods available, accessible, and affordable to our most 
vulnerable communities.
    We are also attaching a document for the record, including 
a graphic describing Good Natured Family Farms<SUP>TM</SUP> 
Local Supply Network from production to consumption; a 
description of our vulnerable community program's outreach; and 
information about a vision for a warehouse for local food 
distribution in the Kansas City Green Impact Zone. Thank you.
    [The prepared statement of Ms. Endicott follows:]

   Prepared Statement of Diana Endicott, President and Farm to Market
Coordinator, Good Natured Family Farms<SUP>TM</SUP>; Marketing Manager 
                                  and
       Co-Owner, Rainbow Organic Farms, d.b.a. GNFF, Bronson, KS
    Good morning, Chairman and Members of the Committee. Thank you for 
addressing such a timely and important topic of the access and 
availability of healthy food to our families most in need. My name is 
Diana Endicott; I am the President and farm to market coordinator of 
Good Natured Family Farms<SUP>TM</SUP> (GNFF). My husband, Gary, and I 
own and operate a 400 acre organic farm in Bronson Kansas, located 80 
miles south of Kansas City. Our farm consists of beef cattle, hay and 
grain crops, tomato greenhouses, and we also own and operate a USDA 
federally inspected meat processing plant. I am here today to share 
with you how Good Natured Family Farms<SUP>TM</SUP> has grown to 
include more than 150 local family farms selling $4 million of local 
farm fresh foods to Balls Food Stores 29 supermarkets located in Kansas 
City. In addition, how we are creating our dream of making our local 
farm fresh foods available and affordable to vulnerable communities and 
children at risk.
     Good Natured Family Farms<SUP>TM</SUP> is an alliance of over 150 
local family farms. An alliance is an interconnected network of family 
farms to pursue common goals and to meet critical business needs while 
remaining independent family farms. Under the Good Natured Family 
Farms<SUP>TM</SUP>' alliance umbrella there are various business forms, 
including; cooperatives, Amish and Mennonite communities, individual 
family farms, family farms who have pooled their resources together to 
form corporations or LLCs, and even nonprofits. The 150 family farms 
are located within a 200 mile radius of the Kansas City metro area. The 
farms range in size from truck gardens and five head of beef to 1,000 
acre orchards and 200 head cattle ranches. Some of the farms are third 
and fourth generation family farms and others are young beginning 
farmers.
    Good Natured Family Farms<SUP>TM</SUP> is also the brand for the 
alliance. The 150 family farms grow or produce a full line of fruits 
and vegetables, all-natural meats, farmhouse cheeses, farm fresh milk, 
local honey, free range eggs, tofu, jams and jellies, and other farm 
fresh foods. Our market for these farm fresh foods is a Kansas City 
locally owned and operated third generation 29 store supermarket chain 
`Balls Food Stores'. The creation of the Good Natured Family 
Farms<SUP>TM</SUP> brand and our sound partnership with Balls Food 
Stores has established an effective model to bring locally grown food 
from small family farms to mainstream supermarket shelves.
    From the farm to the supermarket shelf is a long way. From 
production, grading, processing, packaging, aggregation, distribution, 
to marketing, pricing, quality, and food safety; the challenges are 
many and too numerous to cover at this time. I will focus on the two 
areas that have help ensure our success. First, Good Natured Family 
Farms<SUP>TM</SUP> alliance is first and foremost about the farmers. We 
keep as much of the food dollar at the farm as possible. Therefore, 
each of the farms owns the facility where their locally grown food is 
processed and packaged or uses a small-size local processing facility. 
For example, the fruits and vegetables are washed, graded and packed on 
the farm, the dairy farmers own and operate their milk and cheese 
processing plants, and our farm processes all of the beef for the beef 
co-op. In addition, the farmers maintain ownership of the product to 
the point of delivery to the supermarket warehouse. Second, and equally 
as important, Balls Food Stores owns and operates a warehouse in Kansas 
City. This allows the farmers to deliver their products to one central 
location where Balls Central Warehouse distributes the local foods to 
their 29 supermarkets. Good Natured Family Farms<SUP>TM</SUP> provides 
the brand identity, coordination, quality standards, food safety, 
pricing, labeling, and other logistical needs.
    The Good Natured Family Farms<SUP>TM</SUP> alliance had sales of $4 
million in 2009. In addition to helping keep 150 family farms viable, 
we helped generate approximately 30 jobs in small scale rural community 
processing plants.
    Now, we are ready to use this model and provide the same local farm 
fresh foods to Kansas City's vulnerable communities. The W.K. Kellogg 
Foundation is funding our project called Good Food + Good Business = 
Good Futures; good food is defined as green, healthy, fair, and 
affordable.
    To achieve our goal to make good food accessible to the vulnerable 
community and children at risk the W.K. Kellogg Foundation and USDA 
SBIR is funding our project called Good Food + Good Business = Good 
Futures; good food is defined as green, healthy, fair, and affordable. 
The project has three methods to make locally grown food available and 
affordable to vulnerable communities in Kansas City's inner urban core.
    First, we are starting a program to identify opportunities to match 
local family farm producers and consumers living in those food deserts. 
We are partnering with Ivanhoe Neighborhood Council and creating the 
Good Food Box--a program that will empower the faith-based community to 
work with Good Natured Family Farms<SUP>TM</SUP> and distribute Good 
Food to their congregation.
    Second, we are teaming-up with Hallmark Cards to expand our 
Community Supported Agriculture, and their employees joining the CSA 
may choose to sponsor Good Food Boxes for a limited number of families 
living in vulnerable communities.
    Third, we are expanding our Farm to School program at Plaza de 
Ninos where BistroKids' talented staff worked with Guadalupe Center and 
Family Conservancy to bring Good Food to Head Start children.
    The main hurdle Good Natured Family Farms<SUP>TM</SUP> alliance is 
working to overcome is the purchase of a refrigerated warehouse and 
distribution center in Kansas City's Green Impact Zone. Balls Central 
Warehouse is at full capacity; therefore, in order to grow, Good 
Natured Family Farms<SUP>TM</SUP> will need to have an additional 
warehouse and distribution facility. We are in the process of applying 
for the USDA Rural Development Business and Industry Loan and seeking 
other loan and/or grant funds for startup operational cost.
    To commercialize and make the Good Natured Family 
Farms<SUP>TM</SUP> program economically sustainable, we have been 
blessed to have the support of several USDA grants and loans. Our main 
support is the often overlooked Small Business Innovative Research 
program (SBIR). In addition, we have utilized USDA SARE, USDA VAPG, and 
Kansas Agriculture Product Development loan program.
    However, the dilemma is these USDA programs and the Kellogg 
Foundation does not provide grants or loans for bricks and mortar. This 
warehouse and distribution bottleneck is being experienced by many 
local farm and marketing groups across the country. A producer and 
employee owned and operated local food warehouse and distribution 
center in Kansas City's urban green zone will provide jobs in the urban 
core, allow the farmers to keep more of their food dollar, provide a 
bridge to connect the urban and rural communities, and most importantly 
start the transformation of a food system to one that supports the 
health and wellbeing of our most vulnerable communities and children at 
risk.
    I want to thank you for allowing me to share our story with you. I 
hope it will shed some light on the need of local food warehouse and 
distribution centers to make local farm fresh foods available, 
accessible, and affordable to our most vulnerable families.
     Please visit http://ngfn.org/resources/research-1/innovative-
models/ and see what the Wallace Center has published about our work. 
Also, additional information can be found at (http://goodnatured.net) 
and (www.henhouse.com).
    We are also attaching a document for the records including a 
graphic describing GNFF local supply network from production to 
consumption; a description of our vulnerable communities program; and 
information about our vision for a warehouse for local food 
distribution at the Kansas City Green Impact Zone.
    Thank you!
                               Attachment
Rainbow Organic Farms (ROF) d.b.a. Good Natured Family 
        Farms<SUP>TM</SUP> (GNFF) Local Supply Network from production 
        through consumption.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
     Thank you very much, Ms. Endicott.At this time we will begin with 
a series of questions. I will recognize myself. Each of the other 
Members will have 5 minutes to ask a question as well. I will begin 
with Ms. Krieger.
    Thank you for your thoughtful testimony. It is critical to have an 
example of healthy dieting and cooking in the mainstream media. And we 
are all thankful for the lessons you have shown and have taught 
millions of viewers not only from the nutritional standpoint, but for 
teaching us how to cook. Some of us have never cooked before. By 
watching your show, at least one can learn to cook. I think our 
significant others would appreciate it if we did do more of that 
cooking in a healthy way.
    With that, I would like to begin by asking the first question. It 
seems that you have a very comprehensive show on the Food Network. How 
do you suggest that we educate and pass on information on nutrition you 
and the network offer to people without access to cable network or 
Internet?
    Ms. Krieger. Well, Internet is available at libraries, of course, 
so that is always a possibility.
    But, I mean, so offering this programming essentially is what you 
are asking----
    The Chairman. Yes, to----
    Ms. Krieger.--but for people who don't have access.
    The Chairman. Access to a cable network. You have a great program, 
but a lot of them don't have access to it. So what do you suggest that 
we do?
    Ms. Krieger. Right. I mean, not being an executive of the Food 
Network, I can't really answer how they would distribute their 
programming in those venues.
    But we can, sort of, take those inspiring cooking lessons and bring 
them to schools as part of the nutrition education and get families 
involved on that level, having parents and kids cooking together and 
using cooking as an education tool, as a hands-on experiential 
education tool. So, yes, we are doing that with the farms in the 
schools. And Food Network has these Good Food Gardens at Share our 
Strength.
    But even bringing this hands-on passion, it is about--and one of 
the things that television does very well is inspire passion, inspire 
people to act. I think we can bring that passion into this hands-on 
activity to help inspire children to eat healthfully. I know my 
daughter, when I cook with her, she wants to try it. She wants to have 
her dad try it. She is excited about it.
    I think harnessing that passion for cooking that people have from 
the media or wherever they have seen and bringing that into the schools 
where it is really--and other programs, other community programs.
    The Chairman. Okay. Ellie, you mentioned your daughter. Given your 
hands-on experience at your daughter's school, what, if any, obstacles 
have you encountered that we as a legislative body can address?
    Ms. Krieger. Yes, thank you for asking that.
    I was really amazed to be at this ground level and see what is it 
taking to make changes in her school. I think really I am shocked at 
the facility, the lack of facilities to prepare healthy food. I 
actually offered to donate a steamer to the school, and there is just 
no room for it because the kitchen is the size of a walk-in closet.
    And I feel like we really need to look at that whole chain when we 
are asking these people--now they are not going to open up, maybe, a 
bag of something and just put it on a tray and bake it. They are going 
to be asked to peel vegetables or do other food prep techniques. There 
may be different storage facilities. I think those sort of facilities 
are very important to consider. Some schools have more than others. She 
is at an older school; the building is very old. But I think that is 
one thing.
    And then, also having professional expertise to help implement some 
of these nutrition policies and education, so that we can say, all 
right, we want however many hours of nutrition education in the schools 
or we would like people to start their wellness policies, but who is 
doing this? And so, in her school, we are fortunate enough--I am a 
nutrition professional and cook, and, actually, another one of the 
other parents who is on the nutrition committee, the wellness 
committee, is a professor of nutrition at Columbia. And we are putting 
our hours into this. What do schools do that don't have that kind of 
human resource?
    And so I feel that, even if there were district-wide nutrition 
wellness professionals, cooks, some combination of health professional, 
to help facilitate these changes in the school, because you have to 
have the people to do it.
    The Chairman. Okay. Thank you.
    And I know that we all have a lot of questions, and I am going to 
ask my next question for Rocco.
    In your experience as a chef, working around people and food, what 
are the best ways for us as a society to get people, especially those 
in underserved communities, to better invest in what type of food they 
eat and how these foods are prepared?
    Mr. DiSpirito. I think, as Ellie mentioned, schools are a great 
opportunity. I have participated in a number of in-school programs, 
from Days of Taste to other ones where you get chefs like me--and there 
are a lot of us who are willing to go in and teach people how to cook. 
It is what we do for a living. It is what we love to see. It makes us 
happy to watch other people cook and eat. I think there are thousands 
of chefs just like me and just like Ellie who would be willing to go in 
and teach kids how to cook.
    I work with Dr. Oz. You mentioned him earlier. He has a 
HealthCorps, and he hosts Teen Iron Chef, and it is one of the most 
exciting things that has happened to these kids. And I see tremendous 
eagerness on the part of children to learn how to cook, a willingness 
to experiment with vegetables and fruits. And, with some ingenuity, 
chefs like us can actually disguise some of the fruits and vegetables 
and turn them into interesting foods for these kids.
    I think that they can bring those lessons home to their parents. I 
think a lot of times the kids that we are talking about have parents 
that are working, both parents that are working or a single-parent 
home. And those parents need to relearn the culture of cooking for your 
family. And it can come from, sort of, the bottom up, the children to 
the parents, instead of the other way around.
    You know, cooking for another human being is one of the nicest 
gestures you can make. There are very few things that you can do that 
show how much you care and love and want to nurture someone than to 
feed them something. You know, a baby is born, the first thing that 
happens is it gets fed. And to think that in such a wonderful country 
that there are people who don't have that opportunity every single day 
is really heartbreaking.
    I know part of it is the education on cooking and what is 
nutritious and how do you prepare nutritious meals. But the other half 
of that is getting the food to the people who need it. So I am a big 
fan of volunteering, and I know all of my peers are, as well, and 
volunteer consistently.
    I think what we would love to see is a bigger program that we can 
all be a part of that maybe is government-sponsored and run, starts 
with the Federal Government, a national kind of program that we can all 
be a part of. Because there are a lot of local, small, individual 
things going on, and there might be an economy of scale and a benefit 
to the country as a whole if there were a larger organization that we 
could all give our time to.
    Does that answer your question?
    The Chairman. Yes. Thank you very much.
    And I know that I have run out of time, so at this time I will call 
on Mr. Fortenberry of Nebraska.
    Mr. Fortenberry. Great. Thank you, Mr. Chairman.
    Thank you all for your very insightful testimony and your passion 
for this very important topic. If I don't get to ask you all a 
question, I am grateful for your input here. It has been a very good 
hearing thus far.
    Ms. Krieger, let me also direct a first comment to you, as well. I 
also have a 7 year old daughter. I think you would be pretty proud to 
know that, as I was scrambling to get out of the house yesterday to 
catch a flight fairly early, at 7 a.m., she looked up at me and--she 
was in the kitchen, and she said, ``Daddy, can I cook an egg for you?'' 
So that is not to credit anything to me; that is my wife's good 
management of the household.
    But, nonetheless, families are busy. I think there is a growing 
awareness, I know there is a growing awareness and a desire among many 
people to eat more healthfully and embrace a more holistic lifestyle, 
particularly in terms of nutrition. But there is always a constraint on 
time, and then there is the drive-through, and good intentions 
sometimes get diverted.
    Make a little bit of this practical, if you can, some just easy, 
practical formatting changes for lifestyle distinctions any of you 
might want to add. If any of you have any other comments in that 
regard, it might be helpful.
    Ms. Krieger. I think we make it more complicated than it needs to 
be. Simple food is delicious food. So if you take a piece of salmon and 
you put it on the grill and it takes 4 minutes to cook and you sprinkle 
some lemon juice on it, that is a healthy start to your dinner, with a 
side of broccoli that has been steamed and maybe sprinkled----
    Mr. Fortenberry. Does it have to be broccoli?
    Ms. Krieger. No. Well, what is your favorite vegetable? Whatever it 
is. Fresh green beans or cherry tomatoes cut up, drizzled with a little 
bit of olive oil.
    The Chairman. Remember, Rocco said disguise it.
    Ms. Krieger. And, actually, I sometimes sneak vegetables in, but I 
think we don't give our children enough credit. One nutrition education 
plan that I have organized is--and I actually had the fortune to bring 
to the front lawn at Michelle Obama's Healthy Kids fair was, ``Eat the 
rainbow every day.'' So if we don't tell our kids, ``Eat your 
vegetables'' or ``You might not like them, but eat them because they 
are good for you,'' if we take this approach of exploring food texture, 
taste, some you are going to like, some you not, your tastes might 
change. Eat the rainbow every day, and take this passionate approach to 
it--that translates to them. I have seen that firsthand. So there is 
that.
    But, one of the things I do is give pantry lists, for example. Keep 
this in your pantry; then when you are in a pinch, you can create a 
healthy meal in 10 minutes with these items. Say, some whole grain 
pasta and some frozen shrimp and a can of low-sodium tomatoes. You can 
make a wonderful meal. So it doesn't have to be complicated.
    And breaking it down, absolutely. And that is what these classes, 
theoretically, should really be doing. And, actually, I neglected to 
mention a program that I think is a wonderful program, Operation 
Frontline<SUP>'</SUP>. The Food Network is now partnering with Share 
Our Strength. And this is exactly what they are doing. They are doing 
programs in the community centers, in schools, with families, children 
and parents, and they are bringing this passion for cooking, teaching 
these skills with affordable, readily available foods. And then what 
they are doing is, ultimately, the data is really showing an increase 
in consumption of fruits and vegetables, an increase in cooking at 
home. I think these programs can make a really big difference. I think 
we have a good, kind of, start with this Operation 
Frontline<SUP>'</SUP>.
    Mr. Fortenberry. Excellent. I think your pointing out that only two 
percent of the children have a healthy, balanced diet in spite of all 
of our efforts is a very important finding from the hearing.
    Let me turn quickly to Randy Wattermann.
    Again, Randy, thank you for being here. You talked about the growth 
of the Nebraska Food Cooperative. But growth, in terms of trajectory of 
sales, do you have some ideas of what we are looking at here? And then 
how do you advertise or make consumers, as well as producers, aware of 
the potential linkages that can occur there?
    Mr. Wattermann. Sure. The Oklahoma model was about 3 years ahead of 
us, and so we looked to them for our trajectory. So we are at $100,000 
now, and they are at about a million now. So we hope to continue on our 
trajectory, probably at a little bit slower pace because we are all-
volunteer, even the board. You know, we don't have somebody that is 
being able to put their full time to it. We have looked into grants and 
things. And one of the more difficult things is to actually find a live 
person to run something. So instead, we have to do the piecemeal 
approach, which is fine. I mean, we are growing, we are happy with it. 
But that is where our trajectory is going.
    As far as getting the word out, we measure every single 
registration that comes in as to how are people hearing, how are people 
signing up, how are people registering to become a member. And online 
searches is the number one thing. I mean, there are people looking for 
``local food, Nebraska'' and we come up. I mean, we are not even at the 
point where we are trying to be proactive in our search engine 
optimization or anything like that. We are just out there, and they are 
finding us.
    But then the standard things are articles in the local newspaper, 
just continuing to network with people in different organizations in 
Omaha and Lincoln to let everybody know that we are out there.
    Mr. Fortenberry. Great. Okay. Thank you.
    Quickly, Ms. Endicott, you gave a fascinating overview of this new 
form of cooperative that you have developed with the family farm 
network, the Good Natured Family Farms<SUP>TM</SUP>.
    You talked about the barrier in terms of a stocking facility or 
warehousing facility. But talk about the barriers for a smaller farm 
that might want to participate in such a new market concept, but in 
terms of setting up its own processing facility.
    Ms. Endicott. A couple of things is: Number one is being able to 
understand the rules and regulations that they need to meet. And then 
the second thing would be, after they understand the needs, the 
requirements, it would be access to capital, especially in the rural 
areas. Our banks are set up to not fund that type of agriculture. It is 
a greater risk type of agriculture, type of processing or value-added 
agriculture.
    So I think that those would be the main two, would be understanding 
the rules and regulations and then access to capital, specifically with 
our banking system not being set up to fund those kinds of endeavors.
    Mr. Fortenberry. Do you find a growing interest among small- as 
well as medium-sized farmers, even potentially large farms, in 
undertaking such a new value-added type of enterprise?
    Ms. Endicott. Across the board, yes. Even some of the larger, what 
we call mid-tier-range farms, when it gets into processing, access to 
capital is continuing to be--even with, like, the Business and Industry 
Loans with Rural Development, even the Federal, the guaranteed loans, 
there still is hesitance out there in the rural communities, especially 
in the Midwest. I mean, I am speaking for our area. We are not on the 
East Coast or the West Coast, but in the Midwest there is a reluctance 
because we are grain and cattle.
    Mr. Fortenberry. Are you seeing the growing demand, though, as 
mitigating that risk potential?
    Ms. Endicott. We have the market. The market demand is there. I 
still continue to think that access to capital is going to continue to 
be a problem. I have not really seen any change in access to capital.
    Mr. Fortenberry. All right. Thank you very much.
    The Chairman. Thank you.
    I know that if we have a chance to ask a second series of 
questions, we will go around and ask some additional questions. So, at 
this time, I would like to call on the gentlewoman from Pennsylvania, 
Mrs. Dahlkemper.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    During the first panel, I made a comment that it is going to take 
all of us together to solve these eating, food, wellness issues. And we 
have the media, we have private enterprise, we have the agriculture 
industry, we have a nonprofit--well, I guess you are a for-profit in 
your cooperative; is that true, Mr. Wattermann?
    Mr. Wattermann. Well, yes, we are operating like a nonprofit, but 
we are a----
    Mrs. Dahlkemper. Well, anyway, it is going to take all of us to 
come up with the solutions to move ahead.
    I do have a few questions.
    Mr. Brown, I am from Pennsylvania. There may be a lot of people in 
this room who don't really understand Pennsylvania. I live in Erie. So 
I am farther away from Philadelphia than I am here in Washington to 
Erie. So it is quite a distance. I will come down, though, to visit 
your stores. I am looking forward to that.
    The PA FFFI, the Fresh Food Financing Initiative. I know that it 
has been an issue--it has been around for, what, 3, 4----
    Mr. Brown. Seven years.
    Mrs. Dahlkemper. Seven years, okay. Well, in my area of 
Pennsylvania, nobody is really participating. And it seems a lot of, 
kind of, north of I-80, I guess I will say, the northern tier of the 
state is not participating as much.
    What do you see as the issues with that? And, as we would possibly 
look at going Federal with this type of program, what would be the 
issues?
    Mr. Brown. Well, it is interesting, there are obstacles to making 
this work, and some of the obstacles aren't related to the money 
itself. There could be assistance that people need, and that is one of 
the reasons we set our nonprofit up, is to go and look at what the 
obstacle goals are and see if we can't figure out a way to overcome 
them.
    The other thing is coordination of everyone's effort is a big 
issue. The Federal program that is considered, resources are coming 
from three different agencies or departments of the government. And it 
is important we figure out how to coordinate everything in a central 
point, because, again, grocers are hesitant to do this. And if we can, 
let's say, for example, let the CDFI be the ultimate coordinator with 
the goals that we all have in mind, they could try to help.
    And I know that, in Pennsylvania, Representatives and Senators have 
called me and said, ``Hey, I am in an area that doesn't have any 
stores, has a big food desert. Can you come up and take a look?'' And I 
have worked through Representative Evans and others to see if we can't 
figure something out. I know in Pittsburgh we were able to get a store 
in an area that didn't have one before.
    So I think that the one key learning of this is, there are a lot of 
obstacles to do this and there aren't a lot of experts. But we are 
trying to build up the capacity to provide that implementation 
expertise that is needed and why your area didn't get what it was 
needed, in my view.
    Mrs. Dahlkemper. I appreciate that. And I appreciate you beginning 
that nonprofit and being there to assist others in this endeavor.
    I want to talk to Ms. Escarra a bit about the Feeding America, 
Second Harvest Food Bank, which I used to know. And, as I know, you 
changed your name recently. Actually, Sister Christine Vladimiroff is 
from my hometown of Erie, and she was Executive Director there for a 
while. So I am very familiar with your organization. And we have a very 
large Second Harvest Food Bank in my hometown of Erie that serves quite 
a few different counties.
    You talked about the Federal commodities, and let me just ask you 
about that. As you are looking forward, what changes would you like to 
see in terms of being able to provide healthier foods, increasing the 
food that you have available to you, in terms of Federal policy?
    Ms. Escarra. So, I would begin by saying that we have worked really 
hard to have a good relationship with USDA, and have one and are 
thankful for that. As I mentioned, there is so much produce that 
currently is grown but not produced. And so we are working closely with 
them to get more fresh fruits and vegetables into our network. You 
know, close to 500 million pounds went in this past year. But there is 
a huge opportunity with regard to that.
    I also mentioned that we saw a nice increase, clearly from the work 
that was done by Congress on the farm bill with USDA. But also I saw 
some increases right at $250 million with the stimulus package. Our 
food banks will really need that assistance as that money is starting 
to come down, all of which provides a very, for the most part, shelf-
stable, good, healthy food for families that need it.
    Just a quick closing, kind of, comment to answer your question. I 
feel a real need to say this. You know, there are 17 million children, 
almost one in five children in this country today are living with food 
insecurity. That is a national crisis. It is one that I can tell you we 
take really seriously. And so, trying to find a way to not only provide 
healthy food to them but to provide access to them is a critical issue 
on our agenda.
    The final thing I wanted to mention, in line with Ellie, is we are 
doing a piece of work with Sesame Street which really gets at the 
question that was brought up earlier around families that don't have 
access to TV. Sesame Street is doing a full media campaign in working 
with many of us that will get food out, targeted at children between 0 
and 5, families that support them, caregivers, grandparents. But it 
goes across all media--print, out of home, radio, television.
    And I can tell you, I have two daughters; my kids grew up with 
Sesame Street. It is a great brand. It really is going to get at food 
insecurity, nutrition, and obesity all at once, because they are all 
connected.
    Mrs. Dahlkemper. Well, thank you very much. And thank you for 
mentioning those 17 million children. Because we can talk about 
percentages, and maybe it doesn't seem that high. But when you talk 
about 17 million children in a country as wealthy as we are, it just 
should never be.
    But thank you very much to all the witnesses.
    The Chairman. Thank you.
    And, again, I want to thank all of the witnesses.
    I have some additional questions I would like to ask. I would like 
to start with Mr. Brown.
    You know, in Pennsylvania, the Fresh Fruit Financing Initiative 
seems to have found a concrete way to tackle the issue of food deserts. 
And I am pleased to hear this. This is a business model that the White 
House is interested in expanding on a national level.
    Can you explain for the Subcommittee, what are the standards the 
FFFI currently has in place to ensure that businesses that apply for 
financing are committed to providing healthy, nutritional, fresh 
fruits?
    Mr. Brown. A big part of success is the design, and it is the 
simplicity of the design and the flexibility of it. What the state did 
was pick a CDFI they trusted that had good judgment and said, ``Go find 
the operators that can be sustainable and successful but also deliver, 
not only fresh food, but the ones who will have the best impact on the 
local communities they serve without the existence of a lot of hard 
rules.''
    And so, the reinvestment fund, the CDFI in Pennsylvania went and 
looked for projects. And if they didn't believe the entrepreneur was 
going to be successful, or they didn't believe the entrepreneur was 
going to care about the community, they didn't choose that project. And 
when we look at a national initiative, I think the whole success is 
based on picking the right CDFI and having them understand the concept 
of what we want to get done.
    The reason I think that is so important is because this is so 
complicated that flexibility is so important to doing this. And if the 
CDFI we picked did things we don't like, we should fire them and get 
someone new for the subsequent budget year, and hold them accountable 
to get us the results we want.
    The Chairman. Okay. Thank you.
    This is a question I have for all of you. Any of you that want to 
jump in and give an answer, I would appreciate that.
    Unfortunately, most SNAP recipients have a limited amount of 
benefits, and we all know that, each month they must stretch in order 
to provide enough food for their households. So they buy a lot of 
starch food. This means that they have less healthy options. I know 
many of our SNAP recipients would love to buy fruits and vegetables if 
they could more easily afford them. And think of all the seniors out 
there who would want more fresh blueberries to help their memory.
    So my question for you is a big one. What can we do to make 
nutritious food, especially fresh fruits and vegetables, more 
affordable?
    Mr. Brown. Why don't I start out?
    One of the things I would like to see is, I would like to be able 
to work with the USDA a little closer and to experiment with some 
ideas. I think we could come up with a way to do that besides fresh 
fruit financing. But I have to say, fresh fruit financing, a national 
program, would certainly do that. Because what we sell fresh fruit and 
vegetables for, meats and poultry and whatnot, a lot cheaper than any 
other option they have ever had before, because we are a large grocery 
store that is built to do volume. We need to sustain our model, do 
enough volume. And we do that through having competitive prices.
    So I really do think that, as these thousands of grocery stores 
that we are missing get built, you are going to see the prices of these 
commodities come way down.
    The Chairman. And many of our seniors would like to participate, 
but they know very well they are limited based on their income--fixed 
income--and the dollars that are available. And they are trying to 
stretch, because, as it was stated earlier, some of them are having to 
pay their mortgage, their payments, their electricity bill, 
prescription drugs that they have. And all of a sudden we are trying to 
say, all right, seniors, we want you to maintain a healthy environment 
because, if not, then the cost of the burden falls back on us in the 
health area, because ultimately we end up paying, as taxpayers, one way 
or the other.
    Would anybody else would like to address that?
    Mr. Brown. I would like to just add one more comment. I am sorry if 
I interrupted anyone.
    There was a question about whether we saw a causal relationship 
between people's health and their obesity, if there are any studies or 
facts that existed. And I just wanted to let you know that PolicyLink 
issued a study of all the studies. And it ends up, over 20 years, there 
are 132 studies that documented a causal relationship between the lack 
of having a grocery store with competitive prices and people's weight.
    And so I would like to submit for the record their work, which I 
think is probably the ultimate authority today on this issue. So we 
have this here for you guys.
    The Chairman. Okay. Thank you.
    [The document referred to is located on p. 88.]
    Ms. Escarra. So, I have two points I would like to make.
    The first is I would like to really answer the question from the 
back-end first, and that is that \2/3\ of the Americans that live in 
this country that qualify for SNAP--only \2/3\ are actually signed up. 
There is another third that we really need to do more to get them 
involved in benefits.
    Because if you look at the benefits, they have certainly improved 
with the latest farm bill and the stimulus package, but still a family 
of four that is living right at 130 percent of the poverty line, which 
is what qualifies for SNAP, is really making about $28,000 a year and 
they get benefits of about $325 a month. So stretching those dollars is 
important.
    I won't get into the economic return to the economy because it is 
one of the more positive stories. But the thing that I would offer is, 
we need to get more corporate involvement in helping us really bring 
that produce in to communities that need it. And we have a lot of 
corporations today that are interested in partnering with us. As the 
hearing began, this is not a situation that is going to take place with 
any one entity working; it is going to take all of us working together. 
More and more corporations are stepping up to bring produce to families 
that need the help.
    The Chairman. Okay. Thank you.
    And here is a question that I would like to address to all of you. 
Any one of you can answer this.
    As we all know, nutrition education and modeling of healthy eating 
behavior in our schools is vitally important to winning the fight 
against child obesity. We now see most of our children--of course, we 
have talked earlier about the lack of exercise, the lack of activity 
that is going on within the schools.
    But what, in your opinion, is the most necessary policy change that 
we must have--and I state ``that we must have''--in the upcoming Child 
Nutrition Act reauthorization to help end the childhood obesity crisis 
in America? Because it is a crisis. And we know that, ultimately, it is 
costing an awful lot in health dollars.
    Any one of you that would like to address that?
    Ellie?
    Ms. Krieger. Yes, thank you.
    I think one key thing is education, as you say. And there really is 
no formal nutrition education right now that is in any kind of cohesive 
form. It is very, sort of, catch as catch can. And I know new 
legislation is coming out, is being contemplated or--I am not sure 
exactly what stage it is at, but mandating the nutrition education, 
that a certain number of hours be implemented.
    And there are many, many nutrition programs out there that have 
been formed at an academic level, education curricula that weave in 
science education. Because learning about cooking, learning about 
nutrition, learning about food is learning about science, it is 
learning about math. So it is not like we even have to tack this on as 
an extra, ``Okay, we need 50 hours of this also,'' for the teachers to 
implement. But there are many available curricula that already weave it 
into science education, to math education. And so it can really be 
woven in in that way and taken advantage of.
    And then we really need the people who are going to do this. How do 
we implement the education? Do we just tell teachers now, ``Okay, teach 
this also''? So, I would really love to see nutrition professionals 
being used more in schools, in school settings. Maybe not one per 
school or making a big commitment there on that level, but at least 
district-wide or something like that, that can help train teachers to 
do these curricula, organize cooking classes, help train the food 
service personnel, someone who knows how to do these things that can 
bring it all together to make, what I said in the beginning, is a whole 
healthy environment for our students.
    We can't just change the lunch but then give them a snack that is 
completely inappropriate, which is happening at my daughter's school 
today. It is driving me crazy. So it is in this sense a whole, holistic 
approach, a whole school approach.
    The Chairman. Right. But, Ellie, do we implement it at the 
elementary level, the intermediate or the secondary level?
    Ms. Krieger. As soon as possible.
    The Chairman. I mean, because there are changes and transfers. 
There are kids that come from one place or another. And so, they are 
missing out on the nutrition. So you may have a program that is 
structured--and earlier it was said that we should have national 
nutritional standards that should be applied. And then how do we apply 
those? And what kind of national nutritional standards do we need to 
develop? And how do we incorporate those into the educational system in 
developing master plans to allow the teaching, whether it is at the 
elementary level or even pre-school level and then on into the 
elementary and then into the intermediate and then secondary level?
    Ms. Krieger. I think it is very clear that habits form early. The 
research is very strong in this area. I don't have the exact numbers at 
my fingertips, but what you eat when you are 4 years old is what you 
are probably going to be eating when you are an adult. And what you eat 
when you are 8 years old, it just increases the probability of what you 
are going to eat later in life.
    So the sooner we can expose children to different foods, to the 
glory of food, without even giving them early-age, obviously, facts and 
figures, just getting them tasting, getting them involved, getting them 
to be exposed, that is going to make a tremendous difference. And then 
later, obviously, incorporating it into other kind of curricula.
    Ms. Escarra. May I add one more thing?
    The Chairman. Sure.
    Ms. Escarra. And that is, I think it is three parts. I think it is 
education. I think it is better access to good, healthy food. I think 
written into the bill has got to be a part around physical activity.
    The Chairman. Thank you.
    Go ahead.
    Ms. Endicott. Yes, I am sorry. I might add that the school lunch 
reimbursement rate, no matter what we want to do, we have to be able to 
have the funding to purchase the food. We all can agree that fresh food 
is more expensive to purchase right now. So immediately we need to look 
at the school reimbursement rate. I know in our Farm to School program, 
we have to have it subsidized.
    And then also, just to refer back to the earlier question that you 
asked about the seniors having access, in Kansas City we don't have the 
great opportunity to have supermarkets in our food desert urban areas. 
So what we are doing in the intermediary part is partnering with 
churches. Because you have the food supply chain, and that chain has a 
cost, from the farm all the way to the consumer. And the only way to 
make that food affordable is to take some dollars out somewhere. And so 
what we are basically doing is taking the food from the farm into the 
churches and then allowing them to disperse it with their WIC and EBT 
cards, their SNAP programs.
    So we are trying to have a more direct supply, and that way we can 
kind of cut the distribution costs and the retail markup. And that 
would be kind of an intermediary until we get the supermarkets into the 
urban core.
    The Chairman. Okay. Thank you.
    Would anybody else like to respond?
    Mr. Wattermann. If I can make one quick comment, I wanted to follow 
up on something that Ellie said earlier on, describing her elementary 
school's kitchen and how inadequate it was. And this is just an example 
of something that actually worked. And it goes back to the University 
of Nebraska, Lincoln, dining services. They had the will to want to 
prepare good, fresh food for their students, the college students. But 
literally, as she described, I mean, theirs wasn't that small, but they 
had no more equipment nor know-how of how to take food from scratch and 
make it into something good.
    Nebraska had a small grant program that worked. It actually enabled 
them to buy the equipment. They identified it, they bought it. And now 
they have the equipment to be able to take food from the farm and turn 
it into food that they can feed to the students. So it works. And that 
is a concrete example I wanted to share.
    The Chairman. Thank you.
    I know that my time has expired. So I am going to call on Mr. 
Fortenberry, the Ranking Member.
    Mr. Fortenberry. Well, again, thank you all for appearing.
    Just two quick questions.
    Mr. Wattermann, Mrs. Lummis from Wyoming had to leave, but she had 
a question for you. I told her that I thought it was doubtful, but she 
asked if the Nebraska Food Cooperative was able to accept SNAP 
benefits.
    Mr. Wattermann. Not at this time. We have talked on the seniors 
being able to buy at farmers' markets with our representative in 
Lincoln, and I guess we are not eligible because we are kind of 
nebulous. We are not a physical farmers' market. We are kind of an 
Internet farmers' market. So I guess there is something we run afoul of 
there. And, honestly, we are open and willing to do that but don't know 
where to go.
    Mr. Fortenberry. Well, okay. That is a good answer, actually. It is 
one of the barriers that are out there.
    And, quickly, let me turn again to Ms. Endicott. Regarding the Farm 
to School program, Representative Kagen, who is not here, but from 
Wisconsin, and myself offered an amendment to the last farm bill, and 
it is in the farm bill, that allows for an institutional buying 
preference for local foods. It is my understanding regulations are 
still being written around that, but, nonetheless, that should be an 
assistance to the earlier comments that you made.
    Ms. Endicott. Yes.
    Mr. Fortenberry. But can you provide us with some more details on 
how you got started in that regard?
    Ms. Endicott. My husband and I sold our landscaping business in 
Dallas, Texas, and we moved to Kansas City to take over the family 
farms. And we started selling food to our local supermarket. And over 
the past----
    Mr. Fortenberry. Specifically the school program.
    Ms. Endicott. Oh, specifically the school part. I am sorry.
    The school part was--basically, we had a program called Bistro Kids 
that was a chef selling and preparing food to private schools. And we 
were the food provider for that program, specifically into upscale 
private schools. And then we had the idea--we had been working with the 
Kellogg Foundation, and I said, well, what we need to do is we need to 
take this program and we need to bring it into Title I schools.
    And so, with their assistance of a planning grant, we were able to 
go into the Head Start schools and actually replicate the same, 
identical program. We were not able to afford to do it the entire week, 
so we had what we called Fine Dining Fridays, which included more than 
just the food. It was all about the tablecloths and local flowers.
    And then the Kansas University Medical Center came along and they 
said, ``Oh, we see what you are doing. We would like to study this.'' 
And so they probably have one of the first studies out that has just 
been completed on behavioral outcomes from this type of work.
    That is pretty much how we got started. And now we are hoping to go 
into the second year and expand the program.
    Mr. Fortenberry. How did the children react?
    Ms. Endicott. It was very, very good. We had a little bit of a 
problem with outreach to the parents. And the idea is to carry this 
program home. So what we ended up doing--and, again, the supermarket 
came to our rescue and helped us provide the product that--for example, 
spaghetti squash. So what we would do is not only serve spaghetti 
squash but we had an educator in the classroom that would talk about 
spaghetti squash. A farmer would come and talk about the squash. And 
then we would actually--and probably the most beneficial part of this 
is we were actually able to send squash and a recipe home.
    For example, chestnuts, roasting chestnuts in the winter. We were 
actually able to send the product that--one of the key products, local 
products, we were actually able to send it home.
    Corn on the cob--I thought everyone understood corn on the cob. I 
mean, I didn't know that people did not eat corn on the cob during 
July. And so we had a process of taking the corn, and bagging 12 ears 
of corn up, and sending it home with the kids with instructions on how 
to do it. And the kids got to shuck the corn.
    So it was very obvious that it has to be two-part: educating the 
kids, but then more, also equally important, is actually providing food 
for the kids to take home so they could have that home component. That 
seemed to be very successful.
    Mr. Fortenberry. Well, that is one of my favorite times of the 
year, and my family's as well, when we get that locally grown sweet 
corn coming in.
    Ms. Endicott. Some of the kids had never had corn on the cob. It 
had always come out of a can.
    Mr. Fortenberry. That is very interesting.
    Well, we have gone way over time, so I am going to stop my 
questions and commentary there. But, again, thank you all for your 
passion in this regard and your contribution to public service by 
appearing here today, but also in terms of what you are doing back home 
to implement the broader ideas here that we want to see our country 
embrace.
    So thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Ranking Member.
    I am going to take the privilege and ask one more question. And 
this is to Rocco.
    You know, the First Lady talked openly about the small changes that 
she made in the way her family ate to achieve some long-term results. 
We all know that many changes are difficult and it requires individual 
commitment.
    On that point, the Federal Government may not be effective in 
trying to promote personal change. As a food expert, what is your sense 
of what it is going to take, outside the government program, to promote 
change on individual levels, as far as healthy eating is concerned?
    And, Ellie, you may try to answer that, too, as well.
    Mr. DiSpirito. I think we are talking about the same thing. It is 
grassroots, it is community, it is volunteerism, it is everyone who 
cares, everyone on this panel asking their friends, family, neighbors 
to spread the word.
    I think you will find that children are especially eager to learn 
from people they perceive to be experts. I know if you are on 
television and you are cooking, they are very eager to learn from you, 
and you can make a big impact. I think the government could tap into 
the group of chefs in the media and form a coalition, and we would be 
happy to travel from school to school and implement a program where we 
would introduce kids to great nutrition and teach them what a vegetable 
looks like and what a potato looks like, and their parents as well.
    I applaud that second part of your effort because getting it back 
to the home is really important. Because we have definitely skipped a 
generation when it comes to understanding cooking, ingredients. And a 
lot of parents today can't teach their kids what we would hope to start 
at home.
    Earlier we were talking about when it should start. It should start 
at home in infancy. I don't think that a lot of--I think that capacity 
is missing with a lot of American homes right now.
    So, this kind of thing is really where it needs to start. But we 
could always use a little help from you guys.
    The Chairman. Ellie, do you want to say anything else to that or 
not?
    Ms. Krieger. I think the idea of the small changes makes it very 
accessible to people. People perceive this idea that they have to 
change their diet as this, like, massive--I mean, we have a big job to 
do in terms of the obesity epidemic as a whole. But on a personal 
level, it does not have to be this massive cloud of change that has to 
topple your life and you have to do a 180 turn now. Really, small 
changes make a huge difference.
    So if people suddenly introduce fresh fruit into their lives or one 
new fresh vegetable into their lives and then pull back on some 
processed foods, that can make a difference. And I think that winds up 
being kind of contagious and snowballing into this ``I can do this'' 
perception and attitude. And then that leads to the next change.
    And so I think that using this idea of, ``if you do these few 
things, you can make a difference in your life,'' as opposed to making 
people think that they have to change everything all at once.
    The Chairman. Okay. Good.
    You know, I just thought of an idea that we maybe will look at, 
too, as well as a national program through the media network, is having 
it available to where--I know that it is difficult for each of our 
education institutions to hire nutritionists and other individuals, but 
having a program that can be tied in directly through educational 
programs through all of our schools during a certain period of time, 
where we actually will have someone demonstrating and talking about 
healthy foods, and tying it in directly. That is a thought or an idea.
    With that, I know that we can elaborate and talk a lot more on this 
particular subject. But, again, I want to thank the Ranking Member for 
his interest in this, because, as I stated before, we have had other 
hearings on this topic, but we also wanted to approach it from the view 
of health and also from the cost factors. It is pay now or pay later. 
And we will pay later for the things that we neglect to do now, things 
that would save our taxpayers X amount of dollars. I know that the 
Ranking Member has a very great interest in this now, as well.
    And, with that, before I adjourn, I want to thank each one of our 
witnesses for participating in this hearing today and for your 
thoughtful testimony. I appreciate your knowledge, your ideas, your 
experience--and I hope that Congress will find the best policy 
solutions possible to improve access to, and education about, healthy 
food.
    We all know the seriousness of the obesity crisis our nation is 
facing, and we must continue to be innovative and learn as we move 
forward to address these important public issues.
    Again, I want to thank all of you. And I want to thank the Members 
who took the time to be here, as well.
    And, with that, before we adjourn, under the rules of the 
Committee, the record of today's hearing will remain open for 10 
calendar days to receive additional materials and supplementary written 
responses from witnesses and any questions posed by Members.
    This hearing of the Subcommittee on Department Operations, 
Oversight, Nutrition, and Forestry is adjourned.
    Again, thank you very much.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   Report Submitted by Vicki B. Escarra, President and CEO, Feeding 
                                America
Monthly Commodities Report--March 2010
Prepared for Feeding America
By Dr. Kenneth C. Clayton
Introduction
    This monthly report provides Feeding America and its affiliated 
organizations with information regarding the current and forthcoming 
market climate for agricultural commodities commonly considered for 
USDA ``bonus'' purchases and information concerning ``bonus'' purchases 
by USDA.
Market Outlook for ``Bonus'' Commodities
    Summary: Total red meat and poultry production is expected to 
decline marginally in 2010. At the end of February 2010, total frozen 
red meat and poultry inventories were up two percent from January 2010, 
but, more importantly, down 13 percent from a year earlier.
    Red meat production, including beef and pork, is expected to 
continue to decline in 2010. Wholesale red meat prices are forecast to 
move higher in 2010. Frozen beef supplies at the end of February were 
more than 7.5 percent lower than a year earlier, marking the lowest 
monthly inventory since July 2005. Pork inventories in February 
remained 17 percent below a year ago.
    Poultry production, including chicken and turkey, is expected to 
increase slightly in 2010. Wholesale prices are forecast to increase by 
2-4 percent. Frozen chicken stocks in February were 3.5 percent lower 
than at the same time last year. Frozen turkey supplies were 25 percent 
below year earlier levels. Table egg production is forecast to grow 
only modestly in 2010, with wholesale prices increasing by 7-13 
percent.
    Milk and dairy product production are expected to continue their 
decline in 2010. Dairy prices at the farm level are forecast to 
increase, with dairy product prices following a similar upward trend.
    Fresh and processed supplies of late summer and fall fruit, 
including apples, pears, peaches, and tart cherries, remain relatively 
plentiful. Although Florida oranges suffered weather-related production 
losses, orange juice supplies are expected to decline less 
significantly given existing inventories, imports, and dampened demand. 
Fresh navel and Valencia orange production in California is up 
substantially. Weather problems in Florida, Texas, and, to a lesser 
extent, California have been disrupting winter fresh vegetable 
production, particularly tomatoes, snap beans, green beans, lettuce, 
sweet corn, and bell peppers, although production is gradually 
resuming.
    Meat Products: Overall, red meat production (beef and pork) 
declined by nearly two percent in 2009, and is expected to come down by 
almost that same amount in 2010. As a further gauge of red meat market 
supplies, cold storage inventories on February 28, 2010, were down 
slightly from the previous month and over 13 percent below the previous 
year.
    U.S. beef production fell over two percent in 2009 and is forecast 
to drop by more than one percent in 2010. Frozen beef inventory at the 
end of February 2010 was down six percent from late January, and down 
eight percent from the same time a year earlier. Domestic demand for 
beef continues to be affected by the pace of economic recovery, 
particularly as it relates to restaurant sales, and may impact higher 
quality cuts of meat differentially. Beef export demand is expected to 
improve in 2010. With a tightening beef supply and expectations of 
increased demand, cattle prices that declined by over ten percent in 
2009 are expected to rebound by over eight percent in 2010.
    Pork production declined by 1.5 percent in 2009 and is expected to 
fall by 2.5 percent in 2010. Pork production in February 2010 was down 
three percent from both the preceding month and the same period a year 
earlier. Frozen pork supplies as of February 28, 2010, were five 
percent higher than a month earlier, but 17 percent lower than at the 
same time last year. Shorter-term winter weather disruptions in 
transportation coupled with longer-term reductions in the hog herd, 
reduced pork inventories, and positive domestic and export market 
demand prospects have resulted in higher hog prices that will likely 
carry well into 2010.
    Poultry Products: Poultry meat production (broiler chicken and 
turkey) fell by nearly five percent in 2009, and is forecast to 
increase by only less than one percent in 2010.
    Broiler chicken meat production is expected to increase by just 
over one percent during 2010, with small gains in the first three 
quarters of the year and a somewhat larger production increase in the 
fourth quarter. Prices are not expected to increase during the first 
half of the year as reduced exports are likely to push more poultry 
products onto the U.S. domestic market. With growth in production, 
albeit limited, and falling exports, inventories are anticipated to be 
higher throughout 2010, but still lower than in 2008. At the end of 
February 2010, cold storage inventories of chicken products were down 
one percent from the preceding month and nearly four percent from a 
year earlier. Limited production increases, modest inventories, and 
slowly increasing domestic demand based on improving economic 
conditions will cause wholesale prices to gradually rise in the latter 
half of 2010, up by nearly six percent over the course of the year.
    Turkey meat production in 2009 was down nearly ten percent from 
2008, and is expected to decline another four percent in 2010. Cold 
storage holdings of turkey meat were up a seasonal 14 percent at the 
end of February 2010 compared to the previous month, but down a 
substantial 25 percent compared to a year earlier. Wholesale prices for 
turkey meat in 2009 were down nine percent from 2008, but are expected 
to be some 2-7 percent higher in 2010.
    Table egg production was slightly higher in 2009, and is expected 
to increase modestly again in 2010. Production is forecast to be above 
2009 levels in the first three-quarters of the year, and about the same 
in the fourth quarter. Wholesale table egg prices in 2009 were nearly 
20 percent lower than a year earlier, but are expected to increase by 
7-13 percent in 2010, being highest in the first half of the year.
    Dairy Products: The reduction in the size of the U.S. dairy herd, 
begun last year, is expected to continue in 2010. However, favorable 
feed costs will support a continuing effort to increase output per cow 
in 2010, resulting in a small increase in production. Coupled with an 
anticipated increase in domestic and export demand for dairy products, 
dairy product stock levels are likely to be lower by year's end.
    Federal Government stocks of butter are expected to decline 
significantly during 2010, cheese stocks will continue small, and only 
limited stocks of nonfat dry milk will be accumulated.
    Cheese and butter prices in 2010 are expected to strengthen by some 
16 to 24 percent as milk production continues to fall, cheese and 
butter production declines, cheese and butter inventory levels are 
drawn down, and economic recovery proceeds. Cold storage stocks of 
cheese were ten percent higher on February 28, 2010, than they were a 
year earlier; butter stocks were down three percent.
    Fruit: Monthly fruit prices to growers in February 2010 compared to 
a year earlier were generally higher. Grower prices for all grapefruit 
were up 78 percent, fresh grapefruit up 42 percent, all oranges up 17 
percent, fresh apples up nearly 25 percent, and fresh strawberries up 
21 percent. Notable exceptions included fresh oranges (i.e., California 
and Texas) that were down almost nine most percent and fresh pears down 
over 17 percent.
    U.S. monthly retail prices were higher in February 2010 than for 
the same period in the previous year for grapefruit (nearly 11 percent) 
and strawberries (over ten percent). Comparative prices for the same 
timeframe were lower for navel oranges (nearly five percent) and red 
delicious apples (over three percent).
    The overall U.S. citrus crop for 2009/10 is expected to be 11 
percent lower than last season, making it the smallest crop in the last 
3 years and the second smallest crop in 21 years. Adverse weather and 
declining acreage in Florida are principally responsible, causing 
reduced oranges for juice (down 19 percent from last year and 23 
percent from 2 years ago) and reduced grapefruit production. Orange 
juice production (95 percent of Florida orange crop) is expected to be 
down 22 percent from a year ago, and the lowest production in 10 years. 
However, the combination of large juice stocks plus increased imports 
will mean the total orange juice supply will be down a smaller 13 
percent from last year, only two percent less than 2 years ago, and 
actually up eight percent from 3 years ago. Orange (Valencia and navel) 
production is expected to be higher in California (up 16 percent) and 
Texas, meaning a greater supply of fresh oranges. U.S. production of 
tangerines and mandarins is forecast to be higher in California and 
Florida.
    Marketing of the 2009 U.S. apple crop--which was 2.5 percent larger 
than the 2008 crop--has progressed significantly. As of February 28, 
2010, fresh apple stocks were down 18 percent from a month earlier and 
eight percent below levels at the same time in 2009. Of particular note 
are the over \4/5\ of apple stocks held in longer-term controlled 
atmosphere storage (rather than regular storage) that are ten percent 
below similar stock holdings a year ago. Of the three states with the 
largest quantities of apples in storage, Michigan's stocks are up by 88 
percent compared to February 2009, New York is up by seven percent, and 
Washington is down by 16 percent.
    The U.S. pear crop in 2009 was up by well over seven percent from 
2008, the third largest crop produced since 2001. Pears being held in 
cold storage on February 28, 2010, were down 30 percent from the 
previous month indicating market movement; however, cold storage 
supplies were still 18 percent higher than a year earlier.
    U.S. peach production was almost five percent greater in 2009 than 
it was in the previous season.
    Overall, frozen fruit stocks at the end of February 2010 were eight 
percent larger than a year earlier, although down eight percent from 
the previous month. Inventories of frozen tart cherries, red 
raspberries, strawberries, and blackberries (bulk and juice) were more 
than ten percent higher than levels a year earlier.
    Vegetables: U.S. production of the 21 major fresh market vegetables 
has been trending downward--by two percent in 2008, 1.6 percent in 
2009, and forecast to fall another 0.5 percent in 2010. The three 
largest fresh market crops, in terms of production, are onions, head 
lettuce, and tomatoes, combining to account for 42 percent of total 
production. Production of eight selected processing vegetables in 2009 
was up 11 percent from the preceding year. The three largest processing 
crops in terms of production are tomatoes, sweet corn, and snap beans, 
accounting for 93 percent of the eight processing vegetables.
    Overall frozen vegetable inventory was eight percent higher on 
February 28, 2010, than a year earlier. Frozen stocks of baby lima 
beans, cauliflower, cut corn, and mixed peas and carrots were more than 
20 percent above prior year levels. Asparagus, broccoli spears, green 
peas, and spinach were up ten percent or more.
    Potatoes: Although potato production in 2009/10 was down by over 
two percent, potatoes in storage on March 1, 2010, were up 11 percent 
from a year earlier, and four percent higher than March 1, 2008. March 
1 storage of potatoes accounted for 44 percent of fall 2009 production, 
three percentage points above the previous year's share of production 
being held in storage at that same date. Potato use, including shrink 
and loss, was two percent below March 1, 2009, and down nine percent 
from 2008. Processing use to date for the 2009/10 season is down seven 
percent from last year, and down 14 percent from 2 years ago.
    Peanuts: Peanut production in 2009 was 30 percent lower than in 
2008, more on par with production in 2007. February 2010 peanut stocks 
(farm level, in-shell, and shelled) were seven percent lower than the 
previous year. Reflecting the weakened U.S. economy, demand for peanut 
butter has been strong and production of peanut butter during August 
2009-February 2010 was seven percent higher than for the same period a 
year earlier. USDA distribution of peanut butter through its child 
nutrition and other food assistance programs was up by 17 percent for 
August 2009-February 2010 compared to the same period in 2008-2009.
Status of USDA ``Bonus'' Purchases and Requests
    Purchases are proceeding on the $101.7 million in bonus buys 
previously announced in Fiscal Year 2010, including $40 million for 
pork products and $61.7 million for fruit and vegetable products 
(including tart cherries, dried plums, apple products, fresh potatoes, 
peaches and mixed fruit, frozen blueberries, and fresh and canned 
pears).
    Industry requests for purchases of potatoes, clingstone peaches, 
dates, figs, and cranberry products are reportedly under active 
consideration. There seems to be continued reticence at USDA to make 
bonus purchases of animal protein products that could be distributed to 
schools and/or household recipients.
    A significant increase in purchase activity is anticipated by the 
Agricultural Marketing Service over the next month or 2. This will 
primarily involve purchases for the schools to meet the statutory 
requirement that 12 percent of Federal support be provided in the form 
of commodities.
Status of Section 32 Funds
    With regard to the availability and use of Section 32 funds, there 
are three principal points of interest: (1) USDA's decisions regarding 
use of already appropriated FY 2010 funds; (2) the President's proposed 
FY 2011 budget for USDA; and (3) Senator Blanche Lincoln's recently 
proposed legislation ``Healthy, Hunger-Free Kids Act of 2010'' to 
reauthorize child nutrition programs.
    Use of FY 2010 Appropriation--There are three issues to be noted 
with respect to FY 2010 Section 32 funds for bonus commodity purchases:

        First, funds otherwise unspent for their authorized purposes 
        within the Section 32 budget account must be identified and 
        transferred in a timely manner if bonus purchases are to be 
        maximized.

                Based on an internal reprogramming of the FY 2010 
                authorization, USDA already has been able to supplement 
                the original $199 million authorized for bonus 
                purchases with an additional $58.5 million. These 
                latter funds were transferred from an authorization 
                intended to ensure USDA is compliant with a 2008 Farm 
                Bill mandate that requires a minimum of $399 million of 
                fruit and vegetables be purchased in FY 2010 using 
                Section 32 funds.

                It seems likely that additional Section 32 funds could 
                be diverted to bonus purchases from those originally 
                intended to ensure the minimum purchase requirement for 
                specialty crops is met. In particular, the likely 
                purchase of additional commodities to meet the 12% 
                requirement for the school lunch program in combination 
                with school lunch entitlement and otherwise intended 
                bonus purchases could allow the $399 million fruit and 
                vegetables purchase requirement to be met with only a 
                limited draw on the $199 million authorized to ensure 
                this 2008 Farm Bill spending requirement for fruit and 
                vegetables is met. The likely larger share of these 
                funds could then be shifted to bonus purchases for 
                distribution to families as well as schools.

        Second, USDA has authorized to date, in FY 2010, bonus 
        purchases of $101.7 million--$61.7 million of fruit and 
        vegetable bonus purchases and $40.0 million of pork product 
        purchases. There currently remain $155.8 million (or, possibly 
        $155.8 + 86.1 = $241.9 million) for bonus purchases that could 
        be directed to schools or households. It is imperative that 
        remaining Section 32 bonus purchases be identified and made in 
        a timely manner.

        Third, with further regard to the funds available for Section 
        32 bonus purchases, every effort should be made to maximize the 
        flow of bonus commodities to household feeding programs.

    President's Proposed Budget for FY 2011--There are several 
observations that should be noted with respect to the President's 
proposed FY 2011 budget:

        First, reflecting a slowly recovering global economy, a $5 
        billion reduction in U.S. customs receipts (tariffs or taxes 
        collected on imports) is anticipated in 2010, translating into 
        a $1.5 billion reduction in the availability of Section 32 
        funds in FY 2011.

        Second, the President's FY 2011 budget proposal includes a $50 
        million rescission of the funds that would otherwise be 
        available under the permanent Section 32 appropriation 
        authority.

        Third, a reduced $181 million bonus purchase spending level is 
        proposed, down nine percent from FY 2010's initial 
        authorization of $199 million, well below the likely actual 
        bonus purchase level in FY 2010, and over 40 percent less than 
        actual bonus purchases in FY 2009.

        Fourth, $120 million are authorized in FY 2011--compared to 
        $176 million in FY 2010--to ensure meeting the National School 
        Lunch Program (NSLP) requirement that 12 percent of Federal 
        support be in the form of commodities. If this nearly \1/3\ 
        reduction ultimately proves to be an underestimate, the only 
        source for meeting the shortfall will be the already reduced 
        $181 million in bonus funds proposed for FY 2011.

    Child Nutrition Program Reauthorization--Two possible concerns 
arise with the reauthorization of child nutrition programs that seems 
likely to occur over the next several months:

        First, the President's proposed budget for FY 2011 includes $10 
        billion over 10 years to strengthen child nutrition and WIC 
        programming. Although this budget proposal leaves Section 32 
        funding largely intact, albeit with a reduced level of support 
        for bonus purchases, at least some uncertainty exists as to how 
        the Congress will deal with child nutrition and the necessary 
        funding for programs in this area.

        Second, Sen. Lincoln's proposed legislation for child nutrition 
        program reauthorization, ``Healthy, Hunger-Free Kids Act of 
        2010,'' includes a smaller $4.5 billion spending increase than 
        the President contemplates, and identifies offsets that the 
        Congressional Budget Office concludes will make the proposal 
        budget neutral. Among the budget offsets is the apparent 
        elimination of the current requirement that 12 percent of the 
        Federal support to the National School Lunch Program must be in 
        the form of commodities. If this legislation is adopted, 
        including elimination of the 12 percent requirement, it would 
        reduce the funds available for Section 32 commodity purchases 
        by $120 million (President's FY 2011 Budget). Although funds 
        would remain available in the Section 32 account to ensure that 
        the farm bill minimums for specialty crop purchases are met, 
        and that those commodities could flow to both schools and 
        household recipients, use of this authority would restrict 
        purchases to fruit and vegetables, precluding possible bonus 
        purchases of meat and poultry protein products.
Opportunities for Collaboration
    As noted in previous monthly reports, Feeding America might want to 
consider working with allied organizations to promote shorter-term and 
longer-term support for maximum availability of Section 32 funds for 
bonus commodity purchases.
    In the shorter-term, Feeding America might consider, possibly with 
allied organizations, meeting with USDA officials to reinforce the need 
for even greater focus on the food product requirements of food banks 
and others serving families and households. As substantiated in recent 
studies and evidenced by the lingering high rates of under- and 
unemployment, there remains a great need for food assistance. Within 
the context of FY 2010 and focusing on the use of Section 32 funding to 
acquire and distribute food commodities:

  <bullet> Section 32 bonus purchases should be made in a timely and 
        expedited manner whenever market circumstances justify such 
        purchases--missed purchase opportunities mean greater 
        malnourishment, at a time when unemployment persists as our 
        economy recovers from a deep and serious recession.

  <bullet> When making Section 32 bonus purchases, priority must be 
        given to the distribution of food commodities to food banks and 
        others that serve families and households--the needs are great.

  <bullet> To the extent that FY 2010 Section 32 funds are not fully 
        required for their initially intended purposes, expedited 
        reprogramming should be permitted to maximize bonus purchases 
        of surplus food products.

    For the longer-term, efforts should be undertaken with allied 
organizations to ensure that Congressional and Executive Branch 
officials are aware of the implications of the Section 32 re-
programmings and rescissions that have been made and continue to be 
proposed in the appropriations process. Such actions may have been 
undertaken for other good purposes, but they come at a very real cost 
to those who depend on donations of federally-procured food products. 
An opportunity will exist in the FY 2011 appropriations process to 
reconsider the manner in which Section 32 funding is handled and 
allocated.
  Report Submitted by Jeffrey N. Brown, Founder, President, and CEO, 
                       Brown's Super Stores, Inc.
[GRAPHIC] [TIFF OMITTED] 

</pre></body></html>
